<html>
<title> - INTERNATIONAL TRAFFICKING IN WOMEN AND CHILDREN</title>
<body><pre>[Senate Hearing 106-705]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-705

                       INTERNATIONAL TRAFFICKING
                         IN WOMEN AND CHILDREN

=======================================================================

                                HEARINGS

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION


                               __________

                     FEBRUARY 22 AND APRIL 4, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
63-986 CC                   WASHINGTON : 2000


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                       Tuesday, February 22, 2000
            International Trafficking in Women and Children

                                                                   Page

Gupta, Ruchira, journalist and documentary film maker............    60
    Prepared statement...........................................    64
Haugen, Gary A., director, International Justice Mission, 
  Washington, DC.................................................    36
    Prepared statement...........................................    39
Inez, a trafficking survivor.....................................    26
Lederer, Dr. Laura J., director, the Protection Project, the 
  Kennedy School of Government at Harvard University, Washington, 
  DC.............................................................    29
    Prepared statement...........................................    33
Loy, Hon. Frank E., Under Secretary of State for Global Affairs; 
  accompanied by: Teresa Loar, Director, the President's 
  Interagency Council on Women; Hon. Harold Koh, Assistant 
  Secretary of State for Democracy, Human Rights, and Labor; and 
  Wendy Chamberlin, Principal Deputy Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, 
  Department of State, Washington, DC............................     6
    Prepared statement...........................................     9
Ralph, Regan E., Human Rights Watch, Washington, DC..............    43
    Prepared statement...........................................    48

                         Tuesday, April 4, 2000
     International Trafficking in Women and Children: Prosecution, 
                      Testimonies, and Prevention

Ashcroft, Hon. John, U.S. Senator from Missouri, prepared 
  statement......................................................    75
Bethell, Dr. Lauran D., director, New Life Center, Chiang Mai, 
  Thailand.......................................................    98
Coto, Virginia P., Esq., director, Florida Immigrant Advocacy 
  Center, Miami, FL..............................................   100
Khodyreva, Natalia, president, Angel Coalition, St. Petersburg, 
  Russia.........................................................   102
Lederer, Dr. Laura J., director, the Protection Project, the 
  Kennedy School of Government at Harvard University, Washington, 
  DC; accompanied by: survivor Marsha, Russia; survivor Olga, 
  Ukraine; and survivor Maria, Mexico............................    86
    Prepared statement...........................................    87
Wellstone, Hon. Paul, U.S. Senator from Minnesota, prepared 
  statement......................................................    74
Yeomans, William R., Chief of Staff, Civil Rights Division, U.S. 
  Department of Justice, Washington, DC..........................    76
    Prepared statement...........................................    79

                                 (iii)

  

 
                       INTERNATIONAL TRAFFICKING
                         IN WOMEN AND CHILDREN

                              ----------                              


                       TUESDAY, FEBRUARY 22, 2000

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senators Brownback and Wellstone.
    Senator Brownback. I will call the hearing to order. We 
have got a full set of witnesses to testify today on a very 
important topic, so we will try to get through this. I would 
appreciate it if the witnesses, as you do testify, if we could 
be pretty pointed and succinct so that we can have as much time 
for questions as possible. It is an extremely important topic. 
I believe it is an issue of first impression for a hearing in 
the Senate, so we have got a lot of ground to cover on this 
first hearing.
    As we begin the 21st century, the degrading institution of 
slavery continues throughout the world. I was introduced to 
this problem by the human rights advocacy work that we picked 
up and we started dealing with the Sudan. Among other 
extraordinary human rights abuses, thousands of Sudanese women 
and children have been abducted into slavery as a form of 
payment or ``booty'' to marauders of civilian villages in the 
longest-running civil war in Africa that continues even today.
    I have seen the pictures of the brands on their cheeks and 
arms which attest to ownership by a master. I have heard the 
personal testimonies of their nightmare existence. So I joined 
with many others in a campaign of awareness to end the 
continuing practice of slavery in the Sudan. This advocacy 
prompted me to examine other forms of modern day slavery which 
still exist. I am very pleased to chair this hearing on the 
international trafficking of women and children. This includes 
both trafficking for purposes of forced prostitution as well as 
forced labor involving slavery-like conditions. This practice 
which we will examine this morning may be the largest 
manifestation of slavery in the world today. It is my 
understanding this is the first time this issue has been 
presented at a hearing in the U.S. Senate.
    Every year, approximately 1 million women and children are 
forced into the sex trade against their will, internationally. 
They are usually transported across international borders so as 
to ``shake'' local authorities, leaving the victims defenseless 
in a foreign country, virtually held hostage in a strange land. 
It is estimated that at least 50,000 women and children are 
brought into the United States annually for this purpose. The 
numbers are staggering and growing. Some report that over 30 
million women and children have been enslaved in this manner 
since the 1970's. I believe this is one of the most shocking 
and rampant human rights abuses worldwide.
    One of two methods, fraud or force, is used to obtain 
victims. The most common method, fraud, is used with villagers 
in underdeveloped areas. Typically, the buyer promises the 
parents that he is taking their young daughter to the city to 
become a nanny or domestic servant, giving the parents a few 
hundred dollars as a down payment for the future money she will 
earn for the family.
    Then the girl is transported across international borders, 
and deposited in a brothel, and forced into the trade until she 
is no longer useful, getting sick with things like AIDS or 
other illnesses as well. She is held against her will under the 
rationale that she must work off her debt which was paid to the 
parents, which typically takes several years.
    The second method used for obtaining victims is force, 
which is used in the cities more often, where a girl is 
physically abducted, beaten, and held against her will, 
sometimes in chains.
    There is one other very compelling motivation for me to 
convene this hearing, and that is that it happens in the United 
States as well, impacting even citizens in my own State of 
Kansas. Some marketers of children in this country keep them 
locked up for days and weeks at a time, police report, and they 
state--the police report quotes, ``To keep the youths under 
control and stay one step ahead of the law, pimps often move 
from city to city.'' This way, the children form no trusting 
relationships, and are kept penniless, unable to escape.
    I recently met with homeless advocates and youth workers 
from my home State of Kansas, even, who described the methods 
of procurement. They promise girls, and also boys, a job doing 
grass-roots advocacy for some type of political reform at a 
specified eastern college. The children are then taken to an 
entirely different town, and forced into prostitution. As the 
Senator from Kansas, I have a personal interest to stop this 
practice in my State, across the country, as well as to alert 
children everywhere that it occurs.
    We are only just beginning to learn and to understand the 
methods of this industry. The routes are now being mapped out 
by Dr. Laura Lederer, who will be testifying here today. She is 
at the Harvard project. The routes are specific, and definable. 
They include Burma to Thailand, Eastern Europe to the Middle 
East, and Nepal to India, among many routes that we will learn 
about.
    Legislation is presently being considered in the House on 
this issue, which has been introduced by Congressman Chris 
Smith and Congressman Sam Gejdenson, known as the Trafficking 
Victims Protection Act of 1999, H.R. 3244. Senator Wellstone 
has also introduced legislation. There is presently no 
comprehensive scheme to penalize the full range of offenses 
involved in elaborate trafficking networks. Solutions are in 
order, and I hope this hearing will be a first step toward 
those solutions.
    As with any important issue, there are always controversies 
concerning the means to address the problem, but let me 
encourage you today to make a record today, those of you 
testifying, regarding the terrible suffering of those forced 
into this practice. One further note. I have a short 2 hours, 
and several witnesses, so we may have to limit some of the time 
spent with individual witnesses. Let me further say, I am 
looking forward to the testimony here.
    About a month and a half ago I traveled to India, Pakistan, 
and Nepal, and in both India and Nepal met with NGO's and 
nongovernmental organizations in India fighting this terrible 
blight, and in Nepal I met with a number of girls who had been 
tricked, taken against their will into the sex trafficking, 
into India, and then were returning to Nepal to a safe house 
there, two-thirds of them coming back with AIDS and/or 
tuberculosis, many of them tricked into the trade at ages 11, 
12 years of age, coming back at the ages of 16, 17 years of 
age, basically coming back to die a horrible death, being 
tricked and taken at their youth for what, and into what, and 
into a horrible existence.
    This may be one of the most horrible things I have seen 
anywhere in the world that I travel, and I think it is time 
that we shine a light on what is taking place, and that we 
start to remediate what has been occurring.
    With that, I want to turn the floor over to Senator 
Wellstone, who has been a leader in this effort, and who is a 
long-time advocate of it, and quite knowledgeable.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. Let me also 
thank all of the witnesses today. I agree with the chairman, we 
are going to have some powerful testimony, and having just 
listened to you, Senator Brownback, I think this is something 
that the two of us can work together on, and I believe we can 
make a difference, and I think other colleagues will join us.
    This is an important hearing, as it seeks to investigate I 
think one of today's most serious and pressing violations of 
human rights, and I put it in a human rights context, the 
trafficking of persons, particularly women and children, for 
purposes of sexual exploitation and forced labor.
    Despite increasing U.S. Government and international 
interest, trafficking in women and children has grown over the 
past decade, becoming more insidious and more widespread. I 
believe, Mr. Chairman, that it is one of the darkest aspects of 
globalization of the world economy. Every year, the trafficking 
of human beings affects millions of women and children 
throughout the world, women and children whose lives have been 
disrupted by economic collapse, civil wars, or fundamental 
changes in political geography such as the war in Kosovo and 
the disintegration of the Soviet Union. They have fallen prey 
to traffickers.
    According to the State Department, between 50,000 women, or 
somewhere around 50,000 women are trafficked each year into the 
United States alone, 50,000 into our country. They come from 
the Philippines, Thailand, Russia, the Ukraine, and other 
countries in Asia and the former Soviet Union.
    Since I began, Mr. Chairman, working on this issue several 
years ago, I have met, along with my wife Sheila, trafficking 
victims and advocates from around the world. They have told me 
again and again that trafficking is induced by poverty, lack of 
economic opportunities for women, the horrible low status of 
women in many cultures, and the rapid growth, I am sorry to 
say, of sophisticated and ruthless international crime 
operations.
    Upon arrival in countries far from their homes, victims are 
often stripped of their passports, held against their will in 
slave-like conditions, and sexually abused. Rape, intimidation, 
and violence are commonly employed by traffickers to control 
their victims and to prevent them from seeking help. That is 
the common practice. Through physical isolation and 
psychological trauma, traffickers and brothel owners imprison 
women in a world of economic and sexual exploitation that 
imposes constant fear of arrest and deportation as well as 
violent reprisals by the traffickers themselves, to whom the 
women must pay off ever-growing debts.
    As many of you know, these vents are occurring not just in 
far-off lands, but here at home in the United States as well. 
Last year, in the Kudhina case, six men admitted in a Florida 
court to forcing 17 women and girls, some of them as young as 
age 14, into a prostitution slavery ring. The victims were 
smuggled into the United States from Mexico with the promise of 
steady work but instead were forced into prostitution. The ring 
was discovered when two 15-year-old girls escaped and went to 
the Mexican Consulate in Miami.
    Even closer to home, a forced prostitution ring was busted 
a couple of years ago which imprisoned Russian women in a 
massage parlor in Bethesda, Maryland.
    Trafficking in persons is a human rights problem that 
requires a human rights response, and yet more often than not 
our Government and other governments have hounded the victims 
and let the traffickers go free. The women are treated as 
criminals and not as the victims of gross human rights abuses, 
and that is exactly what has happened to them.
    In order to reverse this ineffective and often cruel 
approach toward trafficking victims and go after the root 
causes of trafficking, like economic distress and the low 
status of women, I introduced the first bill in the Congress to 
comprehensively address the problem and was joined, and we will 
be joined by other Senators, notably Senators Boxer, Feinstein, 
Snowe, and others.
    Moreover, the committee is going to be taking up S. 1842, 
the Comprehensive Antitrafficking in Persons Act at our next 
committee business session. I think there is some work we could 
do together on this before committee. I would very much like to 
do this in a bipartisan way with you, Mr. Chairman.
    The legislation focuses on prevention of abuse, protection 
and assistance for victims, and the prosecution of traffickers. 
I think those are the three key ingredients. The bill should 
ensure the State Department and our law enforcement agencies 
will be fully engaged on the issue, and I know Secretary Koh 
has made his absolute commitment that our immigration laws do 
not encourage rapid deportation of victims--that is one of the 
things that people have to worry about--and that the 
traffickers are severely punished, and that trafficking victims 
receive the needed services and the safe shelter. Further, this 
legislation provides, and we have to do this, the needed 
resources to programs which will assist the victims both here 
in our country and abroad.
    In conclusion, or in closing, I want to thank all the 
advocates who are here today who have worked so hard on this 
issue, and I urge the administration to support legislative 
efforts in the Senate so that we can move quickly to end this 
brutal practice once and for all.
    I just want to say to you, Mr. Chairman, that I agree with 
you about the importance of this hearing, and I think that both 
of us can make a commitment to everybody here that this is not 
symbolic. It is not a hearing and goodbye, you put it away. We 
are committed to trying to do something about this, and I think 
we will.
    Thank you.
    Senator Brownback. Thank you, Senator Wellstone. That is a 
powerful statement. It is excellent work you have done for a 
long period of time, and yes, this is not going away. I look 
forward to working on legislation this year, to getting it 
through the Senate, through the House, and to the President. 
This is a problem that has gone on long enough, and I am 
hopeful that there is a strong enough coalition of people that 
we are going to be able to move this legislation on forward.
    Today, we are about making a record of what has occurred. 
We have an excellent set of witnesses. The administration will 
be testifying first. Under Secretary of State for Global 
Affairs Frank Loy will be the first witness, and I understand 
we'll have Teresa Loar and Harold Koh answering questions, is 
that correct, but not testifying? Is that correct?
    Mr. Loy. Yes, but also Deputy Assistant Secretary Wendy 
Chamberlin, on my far left, from the Bureau of International 
Narcotics and Law Enforcement.
    Senator Brownback. We look forward to your testimony, and 
for the questions. I think there is a number of questions both 
of us have that we would like to have answers.
    We will have two other panels. Before we go with our first 
panel I would like to start with a short video clip that has 
been put forward by the Global Fund for Women that I think 
highlights and puts the overall issue in context, and so if we 
could start with that video. Shawn, if you want to turn that 
on, I would appreciate that.
    [A video was shown.]
    Senator Brownback. There is more to the tape. I just want 
to give a flavor. That was put forward by the International 
Fund for Women.
    Mr. Loy, we are distressed by this and by what has taken 
place, and we would like to know what the administration's 
plans and targets are to deal with this, and hopefully working 
with us as we develop comprehensive legislation to deal with 
the problem. Mr. Loy, the floor is yours.

 STATEMENT OF HON. FRANK E. LOY, UNDER SECRETARY OF STATE FOR 
  GLOBAL AFFAIRS; ACCOMPANIED BY: TERESA LOAR, DIRECTOR, THE 
  PRESIDENT'S INTERAGENCY COUNCIL ON WOMEN; HON. HAROLD KOH, 
 ASSISTANT SECRETARY OF STATE FOR DEMOCRACY, HUMAN RIGHTS, AND 
    LABOR; AND WENDY CHAMBERLIN, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
    ENFORCEMENT AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Loy. Thank you, Mr. Chairman. Thank you, Senator 
Wellstone, for giving me this opportunity, and good morning.
    I am very pleased to be able to talk about this really 
deeply disturbing subject, and particularly in the context of 
the kind of cooperative spirit that you have already indicated. 
We are all interested in not having a symbolic hearing or a 
symbolic process, but actually getting results.
    I know, Mr. Chairman, that this issue is fresh in your mind 
because you have had what I understand to be a very productive 
trip to South Asia, where you were actually able to witness 
both the cruelty of the practice we have just seen on the video 
and that you have alluded to, and some of the efforts we are 
taking to combat it.
    I am joined this morning by Ms. Teresa Loar, the Director 
of the President's Interagency Council on Women, by Assistant 
Secretary Harold Koh, Assistant Secretary for Democracy, Human 
Rights, and Labor, and by Ms. Wendy Chamberlin, Deputy 
Assistant Secretary for International Narcotics and Law 
Enforcement.
    I have prepared a rather full statement for today's hearing 
which chronicles the history of our efforts to deal with this 
and also describes the problem in some detail, and with your 
permission I will submit that for inclusion in the record.
    Senator Brownback. It will be put in the record.
    Mr. Loy. This morning I will be very brief in defining the 
problem and describing what our strategy is in combating it. 
First, though, let me commend both you and Senator Wellstone 
for your commitment to address this horrific problem. Your 
work, Mr. Chairman, with your new role in the OSCE, is most 
welcome, and Senator Wellstone's efforts on this issue are 
well-known and have been extremely helpful.
    I also want to say how pleased we were that you were able, 
Mr. Chairman, to travel to South Asia to meet with the NGO 
communities and the activists and police officials there, and 
to get a first-hand view as to how the scourge of trafficking 
is ruining lives. Your statement was very eloquent in 
describing that situation, and it is clear that that trip 
provided some important insights into how the problem develops.
    Mr. Chairman, it is a very sad fact that in this moment of 
history people still inflict upon one another unspeakable, 
almost unimaginable horrors. For as long as that is so, we, as 
civilized people, have a responsibility to speak out against 
them and to cast a light upon those acts and to do everything 
within our power to eradicate them from our world.
    It seems almost incomprehensible that at the dawn of the 
21st century the primitive and barbaric practice of buying and 
selling human beings occurs at all, yet it is a very common and 
unfortunately growing reality. Because it is clear that both 
you and Senator Wellstone understand the basic problem, and 
because we have seen the video, I will not delve into the 
gruesome details as to how traffickers ply their nefarious 
trade, or upon the cruel misfortunes that befall their victims. 
I commend my written testimony to you and to other members of 
the committee who are interested in a more detailed discussion 
of this issue.
    I do want to talk first of all about what is trafficking. 
It is, among other things, the recruitment, the transportation, 
the transfer, the harboring or receipt of persons by threat or 
by use of abduction or force, fraud, deception, or coercion for 
the purposes of forced labor, domestic servitude, debt bondage, 
and compelled participation in prostitution and pornography.
    You have raised the question how widespread this practice 
is, and because it is an underground activity, reliable numbers 
are obviously difficult to achieve. We estimate conservatively 
the number of people trafficked across borders every year is in 
the range of 700,000. From that, one can reasonably extrapolate 
that all trafficking, be it across borders or within countries, 
claims between 1 and 2 million victims per year. These are 
staggering numbers.
    As this hearing will illuminate, trafficking is a complex 
problem. Although it is sometimes characterized as a women's 
issue, its impact involves children and men as well. The 
origins are economic, the poverty of victims and the greed of 
the traffickers. Its consequences include the horrendous human 
rights abuses that Senator Wellstone referred to.
    It also includes a growth of both transnational organized 
crime and local crime, and one of the consequences is increased 
public health problems and the corruption of public officials. 
The link between trafficking and these issues underscores its 
significance as an important foreign and domestic policy 
concern.
    Another fixture that adds to the trafficking growth is the 
low social status of women in many countries. Children, girls 
in particular, are pulled out of school early, enhancing the 
likelihood that they will end up in the clutches of 
traffickers. In some places girls are considered to have less 
value than a household appliance. I gather that during your 
recent trip, Mr. Chairman, you learned that some parents were 
not above selling their daughters, sometimes for as little as 
U.S.$50.
    What is the United States strategy for combating 
trafficking? Generally, the President, the First Lady, the 
Secretary of State, and the Attorney General all have shown 
tremendous commitment to this issue. The basic strategy was set 
forth by the President in a directive of March 11, 1998, and 
the Department of State, the Department of Justice, and other 
relevant agencies have made significant progress since then in 
advancing the antitrafficking strategy set out in that 
directive.
    Our strategy consists of what we call the three P's, 
prevention of trafficking, protection of and assistance to its 
victims, and prosecution and enforcement against the 
traffickers. I will mention here just a few examples of the 
bilateral and the multilateral projects we have undertaken in 
furtherance of this strategy of the three P's. A fuller 
description is in my written testimony.
    During her meetings with foreign leaders, and particularly 
recently leaders of Italy, Finland, Ukraine, Israel, and the 
Philippines, Secretary Albright has made it a priority to raise 
trafficking at the highest levels. One result of her 
discussions have been five concrete bilateral working 
relationships with these countries focusing on prevention, 
protection, and prosecution.
    Furthermore, as you know, the administration has been 
working with about 100 other countries to fashion an 
international protocol on trafficking in persons. Once this 
enters into force the protocol will arm countries with quite 
powerful weapons for tracking down and punishing traffickers, 
and for helping their victims.
    Furthermore, we fund public awareness campaigns throughout 
source countries, particularly of the former Soviet Union and 
Eastern Europe, and these warn potential victims of the methods 
that traffickers use and, we hope, educate them to be cautious.
    Next month, the United States and the Philippines will co-
host the Asian regional initiative to combat the trafficking of 
women and children. The 23 Asian and Pacific Nations will 
develop a regional strategy to prevent trafficking, to protect 
victims, and to prosecute traffickers. In the South Asia region 
the U.S. mission in Nepal has been carrying out an 
antitrafficking program since 19989. U.S. Government agencies 
cooperate with the Nepalese Government on a range of prevention 
and victim protection and prosecution initiatives, and to 
encourage regional cooperation in one major area the State 
Department is developing a specific South Asia antitrafficking 
strategy that will include regional and country-specific 
programs
    These are but a few of our international antitrafficking 
programs designed to carry out the three-P strategy, and more 
are described in my written testimony.
    Mr. Chairman, the question arises, what can Congress do to 
address the trafficking problem? This administration is deeply 
appreciative of your interest, both of your interests and the 
interest of others on both sides of the aisle who have 
sponsored legislation on trafficking. Such legislation is 
urgently needed, and the administration has worked diligently 
on a bipartisan basis to help craft a bill that squares with 
our policies.
    We need a bill that gives us the tools to promote 
effectively this three-P strategy of prevention, of protection, 
and prosecution. Senate 1842 goes the furthest in providing 
such tools. Some believe we should add a fourth pillar to the 
three-P framework, the imposition of economic sanctions on 
countries that are not doing enough to address trafficking. 
Because that is an important issue let me spend a moment or two 
talking about it.
    We understand the motivation behind this proposal, but we 
believe sanctions would be a mistake. In our view, sanctions do 
not help with effective protection or prosecution. More 
specifically, we have four problems with the idea of sanctions. 
First, trafficking is essentially a private criminal activity. 
Even though we know that trafficking is at times abetted by 
corrupt officials, sanctions would not in most cases hurt the 
criminals.
    Second, most countries are in the early stages of 
responding to this problem, whose magnitude has exploded only 
recently. Governments have been willing to acknowledge the 
seriousness of the problem and to work with us to combat it. If 
a sanctions regime were created, Governments might try to 
downplay the seriousness of the problem in order to avoid the 
economic or political impact of sanctions. Thus, sanctions 
could actually jeopardize the emerging fragile governmental 
efforts to work together to fight trafficking through law 
enforcement, through collaboration and training, through public 
awareness campaigns and victim assistance campaigns, and 
reintegration programs for victims.
    Third, I believe sanctions would, in fact, hurt the victims 
of trafficking by diminishing the economic opportunities 
available to them, and thereby increasing the likelihood that 
they will be preyed upon.
    And fourth, sanctions would likely deflect the country's 
attention from the problem and instead cause them to attack 
those who raise the profile of the problem, who raise the 
profile of trafficking, and they would tend to describe them as 
enemies of the common good.
    Specifically, the imposition of sanctions, or even the 
threat of them, would hamper the work of the NGO's who are 
absolutely key actors in the fight against trafficking and aid 
to its victims. Those NGO's would be perceived by their own 
governments as adversaries rather than as allies in the fight 
against this scourge.
    Mr. Chairman, this is not just speculation. Just last week 
I met with women NGO representatives from Russia and Ukraine, 
two major trafficking countries. They told me in no uncertain 
terms that economic sanctions against their government would 
cripple the NGO community's effort to respond to trafficking 
through education of women and girls through aid to victims, 
through provision of information, of law enforcement and other 
services. One of those, the representative of one of those 
NGO's is in the room, and you will have an opportunity to hear 
from her later on.
    Mr. Chairman, in conclusion, the Clinton administration I 
believe has moved aggressively and with great conviction to 
prevent trafficking, to protect its victims, and to prosecute 
traffickers. We want to do more, and we want to do it with you. 
Trafficking, as has been said by both you and Senator 
Wellstone, is one of the most egregious human rights abuses of 
our time. It is slavery, pure and simple. It is slavery in the 
21st century. Its existence is intolerable, and it is repugnant 
to the United States Government and to civilized people 
everywhere. We look forward to working with you to try to 
eradicate it.
    Thank you very much for giving me the opportunity to 
testify. I would be happy to answer any questions.
    [The prepared statement of Mr. Loy follows:]

                Prepared Statement of Hon. Frank E. Loy

    Mr. Chairman and members of the subcommittee, good morning. I am 
grateful for the opportunity to testify today on the growing global 
problem of trafficking in persons, especially women and children.
    And I know that this is fresh in your mind after, what I 
understand, was a productive trip to South Asia during which you were 
able to witness some of the efforts that we are supporting to combat 
trafficking. In addition, Mr. Chairman, your efforts to address this 
important issue in the context of your new role with the OSCE is most 
welcome. Your advocacy and attention to the needs of victims will 
continue to be crucial to accomplishing our shared goals.
    I am joined here today by Theresa Loar, Director of the President's 
Interagency Council on Women, Harold Koh, Assistant Secretary of State 
for Democracy, Human Rights and Labor and Wendy Chamberlin, Deputy 
Assistant Secretary for International Narcotics and Law Enforcement.
    Sometimes humans inflict upon each other unspeakable, nearly 
unimaginable, horrors. Yet it is important--indeed we have a 
responsibility--to speak about such disturbing circumstances--to cast 
light upon reprehensible acts--to better understand how to eradicate 
their insidious presence from this world.
    Trafficking in persons is one such chilling reality. How does one 
make sense in this modern day and age of the persistent and growing 
practice of trafficking? It seems impossible that there is an enormous 
trade in the buying and selling of human beings. And yet it is all too 
true. The stories of trafficking victims are filled with suffering, 
misery, violence and death. It is one of the most egregious human 
rights abuses of our time and its existence is intolerable and 
repugnant to the United States Government. We are here today to talk 
about it in hopes of working with you to continue progress toward its 
eradication.
    As this hearing will illuminate trafficking is a very complex 
problem. Although it is sometimes characterized as a ``women's issue'' 
it in fact involves not only women, but also children and men. Its 
origins are economic and social. Its consequences include human rights 
abuses, increased public health problems, the growth of both 
transnational and local organized crime and corruption of officials. 
The link between trafficking and theseconsequences underscores its 
significance as an important foreign and domestic policy concern.
    It is impossible to overstate the horror of trafficking. It is 
reported that in some villages in parts of Southeast Asia there are few 
young women and girls left. Where have they gone? The answer is that 
agents for traffickers descend upon villages and harvest these children 
like a profitable crop to take to market--sometimes abducting them, and 
often luring and enticing them with tragically false promises, 
sometimes simply buying them from desperate parents--to sell into 
brothels or to force them to perform a wide range of labor and forms of 
servitude.
    The frightening ease of purchasing a child is documented in the 
film ``Selling of Innocents'' by Ruchira Gupta, who I understand will 
testify later in this hearing.
    In another common trafficking scenario, in Cambodia and Viet Nam 
for example, men and women are trafficked for begging schemes. Mothers 
with infants are particularly targeted by the traffickers. Old women 
also are abducted and forced to beg. Sometimes traffickers will maim 
the elderly they traffic to increase sympathy and make them more 
effective beggars. You are familiar with the trafficking case where 
hearing impaired Mexicans--men and women--were trafficked to New York, 
held in slave-like conditions, and forced to beg by ``selling'' 
trinkets in subways and on the streets.
    In Eastern Europe and the former Soviet Union, thousands of young 
women, yearning for economic independence within economies that offer 
few jobs, decide to leave their homes for promised jobs in other 
countries. Traffickers may operate through nominally reputable 
employment, travel or entertainment companies, or marriage agencies. 
Victims are lured with false advertisements and promises of jobs as 
models, dancers, waitresses, and maids. Traffickers offer prospects for 
travel and exciting cultural experiences. Corruption among government 
officials often facilitates the success of these trafficking schemes.
    Once the women arrive at their destination, their passports are 
confiscated by the traffickers and the victims are subjected to extreme 
physical and mental abuse, including rape, torture, starvation, 
imprisonment, death threats and physical brutality to ensure that they 
comply with the demands of the traffickers.
    Even with escape, there is rarely healing or recovery. Individuals 
trafficked into the sex industry are coerced by their criminal captors 
to engage in activities that will expose them to deadly diseases, 
including HIV and AIDs. We understand that of the thousands of women 
and girls trafficked from Nepal annually--many of whom are in their 
early teens and younger--of the few hundred who may escape--more than 
65 percent are HIV positive.
    This is only a small sampling of the types of trafficking cases 
that are reported. The criminals are sophisticated and trafficking 
variations seem endless.
    Last March, the Secretary of State met with trafficking victims in 
northern Thailand. She saw firsthand the heart-breaking devastation 
suffered by these young women--indeed mostly girls--who had their 
childhood robbed from them when traffickers had sold them into 
prostitution. The stories of the horror these girls faced reinforced 
the Secretary's strong resolve to build consensus around the world to 
make sure that laws are strengthened so that there will be no safe 
havens for traffickers and so that trafficking victims can get the 
protection and assistance they need.
    Similar haunting stories have been echoed by other victims to 
United States officials in countries such as Italy, the Philippines, 
the Ukraine, Albania, Nigeria, Thailand, and Mexico. Girls told of 
being forced into domestic servitude where they were beaten and raped. 
The suffering of boys was evident from their mangled bodies, their 
growth stunted, spines bent almost in half from the oppressive weights 
they were forced to carry in the construction industry until they were 
rescued.
    One does not come away from hearing of these experiences unchanged. 
These encounters have deepened United States commitment to marshal the 
full breadth of government resources available to confront and stop 
trafficking. The Secretary of State has made her views crystal clear: 
``[The] women who have been victimized deserve to have their voices 
heard. And if we apply a standard of zero tolerance to those who sell 
illegal drugs, we should be at least as tough in opposing those who buy 
and sell human beings.''
            what is the nature and magnitude of trafficking?
    At its core, the international trade in persons is about abduction, 
coercion, deception, violence and exploitation.
    A trafficking scheme involves a continuum of recruitment, 
abduction, transport, harboring, transfer, sale or receipt of persons 
through various types of coercion, force, fraud or deception for the 
purpose of placing persons in situations of slavery or slavery-like 
conditions, servitude, forced labor or services. Examples include, but 
are not limited to, sexual servitude, domestic servitude, bonded 
sweatshop labor or other debt bondage.
    Trafficking affects men, women and children. Men and boys are often 
trafficked into forced labor, and begging schemes. Women and girls are 
the primary targets of trafficking, sometimes for forced labor and 
domestic servitude and often for sexual activities. It is important to 
note that while trafficking is generally considered to involve force, 
coercion or deception, there is a solid international consensus that 
any scenario in which a minor is entangled in sexual activity--
prostitution or participation in pornography--is trafficking. Thus, the 
elements of force, coercion or deception are irrelevant in such 
settings.
    The underground nature of trafficking makes it virtually invisible 
and obtaining reliable estimates of the magnitude of trafficking has 
been difficult. However, it appears that 1-2 million persons are 
trafficked annually.
    Because of the absence of any U.S. Government figures on 
trafficking, the Clinton Administration became the first to attempt to 
quantify trafficking in women and children. Created to work under the 
auspices of the National Security Council and as part of the 
President's International Crime Control Strategy Initiative, an 
interagency working group was tasked with focusing attention on 
transnational crime implications of trafficking.
    This process has produced the first preliminary U.S. Government 
estimates of trafficking to the United States. We now believe 45,000-
50,000 women and children are trafficked annually into the United 
States, primarily from Latin America, Russia, the Newly Independent 
States and Southeast Asia.
    Sex trafficking is only one form of the problem. Approximately half 
of the 50,000 trafficked to the United States each year are for bonded 
sweatshop labor and domestic servitude. Trafficking into the commercial 
sex industry, then, is merely one form of a broader range of 
trafficking exploited by organized criminal enterprises.
    Indeed, traffickers are often engaged in more than one kind of 
trafficking because they follow the profits. For example, we see cases 
where girls are lured from a village where some are forced to work in 
domestic servitude or carpet weaving, while others are culled out and 
sold to brothels. Thus, if we are to be effective in our fight against 
trafficking, we cannot limit our efforts to one form of trafficking 
over another form.
    Alarmingly, the trafficking industry is one of the fastest growing 
and most lucrative criminal enterprises in the world. Profits from the 
industry are enormous, generating billions of dollars annually to 
organized criminal groups. Trafficking in women and children is now 
considered the third largest source of profits for organized crime, 
behind only drugs and guns. Traffickers know that throughout the world 
they can reap large profits while facing a relatively low risk of 
prosecution. Moreover, it has been observed that, unlike drugs or 
firearms, trafficking ``in women and children doesn't require capital 
to start. There are indications that these growing profits are feeding 
into criminal syndicates'' involvement in other illicit and violent 
activities.
                what are the root causes of trafficking?
    While there are numerous contributing factors, economic desperation 
of victims and potential victims is at the core of trafficking. The 
trafficking industry is driven by poverty and economic desperation, 
most particularly among women and girls who have little or no access to 
economic opportunities, support services, or resources, including 
credit, land ownership and inheritance.
    The low social status of women in many countries contributes as 
well. Children, and girls in particular, are pulled out of school 
early, enhancing the likelihood that they will end up in the hands of 
traffickers. In some places, girls are considered to have less value 
than a household appliance. The First Lady, who cares deeply about this 
issue, observed one chilling manifestation of trafficking:

          There are girls that I've met in Northern Thailand, when I 
        visited their village I could tell by looking at their parents' 
        homes which ones had sold their daughters into prostitution. 
        The homes were bigger, nicer, they sometimes even had an 
        antenna or satellite on top.
     what is the united states strategy for combating trafficking?
    The President, the Secretary of State, and the Attorney General 
have all shown tremendous commitment to this serious human rights 
issue. The Departments of State and Justice, and other relevant 
agencies, have made significant progress over the past two years to 
advance the United States anti-trafficking strategy set forth in a 
Presidential directive of March 11, 1998 on Steps to Combat Violence 
Against Women and Trafficking in Women and Girls.
Policy Framework
    Pursuant to that Directive, the Clinton Administration adopted a 
comprehensive and integrated policy framework that guides the 
development of our policies both domestically and internationally. It 
consists of the ``three P's'' of:

        (1) Prevention,
        (2) Protection and assistance for victims, and
        (3) Prosecution of and enforcement against traffickers.

    The Presidential memorandum directed the President's Interagency 
Council on Women, chaired by the Secretary of State, to lead the 
development and coordination of the USG's domestic and international 
policy on this issue. The Council coordinates the efforts of the 
Departments of State, Justice, Labor, and Health and Human Services, 
USAID and the former U.S. Information Agency.
    As a result of the leadership of the Secretary and the work of the 
Council, the full machinery of the Department of State is seized of the 
importance of this issue, including the relevant regional bureaus, and 
functional offices and bureaus such as the Office of the Senior 
Coordinator for International Women's Issues and the Bureaus of 
Democracy, Human Rights and Labor, International Narcotics and Law 
Enforcement, Consular Affairs, Diplomatic Security and Population, 
Refugees and Migration.
    The Department of Justice deserves much credit for its important 
efforts in this area as well. We are pleased to be able to work closely 
with that Department through the Council on a range of projects to 
advance these policies.
    The following is a non-comprehensive summary of some of the 
Department of State's activities in this area.
Bilateral Initiatives
    We have seen how powerful it is to have the American Secretary of 
State raise this issue with heads of government and her fellow foreign 
ministers. During her meetings with leaders of Italy, Finland, Ukraine 
and Israel, the Secretary has made it a priority to raise trafficking 
at the highest levels. As a result of her discussions, the United 
States has initiated four concrete bilateral working relationships with 
these countries focusing on prevention, protection and prosecution.


  <bullet> In Ukraine, we have supported prevention, protection and 
        enforcement initiatives by sponsoring information campaigns, 
        economic alternative programs for victims and training for law 
        enforcement officers there.

  <bullet> In July 1999, we completed the second meeting of the U.S.-
        Italy Working Group on Trafficking in Women and Children. This 
        initiative focuses on protection of victims, cooperation with 
        NGO's, training for law enforcement and strengthening 
        cooperation between U.S. and Italian criminal justice systems. 
        U.S. and Italian embassies in Lagos are working with the 
        Nigerian government to develop a public awareness campaign to 
        prevent trafficking in Nigeria. Plans are also underway for 
        American NGO's to travel to Italy soon to learn more about the 
        victims protection services available there. In conjunction 
        with the U.S.-Italian initiative, members of the Council 
        interagency team have consulted with officials from The Holy 
        See on protection programs sponsored by the Vatican.

  <bullet> With Finland, we are collaborating on the prevention of 
        trafficking and violence against women in the Baltic countries 
        of Lithuania, Latvia and Estonia.

  <bullet> The United States and Israel are exploring ways to work 
        together to reduce trafficking to Israel. The Department has 
        shared information on trafficking legislation and Israel is 
        beginning the development of public awareness programs.

    In South Asia, Mr. Chairman, as you have seen first hand, 
trafficking is robbing the lives of young women and even girls. 
Thousands of women and children are trafficked annually from Nepal and 
Bangladesh to the brothels in India and Pakistan. Many are now HIV 
positive. The problem is deeply rooted in the poverty, illiteracy, and 
low status of women and girls, coupled with a growing international 
organized criminal element in South Asia.
    I understand you visited Maiti Nepal, a shelter for rescued girls 
in Katmandu, where many of the young girls are HIV positive yet are 
striving to create a life for themselves. Supporting shelters like 
these represents one of the very real ways that we can address this 
problem.
    Indeed, Mr. Chairman, in South Asia, as you have seen, we are 
supporting various initiatives to address trafficking. In fact, we have 
issued a comprehensive South Asia Regional Strategy to Combat 
Trafficking of Women and Children which is currently being implemented 
throughout the region. The strategy incorporates our Embassies' 
evaluations and action proposals related to the three pronged approach 
of prevention, protection, and prosecution. The FY 2000-01 budget for 
South Asia includes over $2 million in State and USAID funds for these 
efforts. Given your interest in South Asia, we would be happy to 
discuss our strategy and programs with you in more detail.
    Again, this only highlights some of the United States efforts 
underway internationally. Other initiatives include efforts in Russia 
and the NIS, the Czech Republic, Bosnia and Herzegovina, Albania, 
Poland, Bulgaria, Hungary, Thailand and the Philippines.
Multilateral Initiatives
    Several important multilateral initiatives are also underway. These 
include partnerships with the United Nations, European Union, ASEAN and 
the OSCE. The United States played a lead role in negotiating the 
International Labor Organization's adoption, of Convention No. 182 on 
the worst forms of Child Labor and reaffirmed its commitment to this 
effort by becoming one of the first countries to ratify the Convention.

  <bullet> At the April 1998 session of the United Nations Commission 
        for Crime Prevention and Criminal Justice (Crime Commission), 
        the U.S. introduced a resolution on trafficking in women and 
        children. The resolution proposed that a protocol on 
        trafficking in women and children be developed in conjunction 
        with the proposed UN Convention on Transnational Organized 
        Crime. This resolution was subsequently adopted and the U.S. 
        and Argentina introduced a draft protocol at the first 
        negotiating session in January 1999. Negotiations on the 
        protocol have been underway since that time and the member 
        states of the United Nations will resume negotiations again in 
        June.

  <bullet> The United States and the European Union co-sponsored public 
        awareness campaigns to warn young women in Eastern Europe about 
        the dangers posed by traffickers. The Department's Bureau of 
        International Narcotics and Law Enforcement developed a 
        brochure entitled ``Be Smart, Be Safe'' that is targeted to 
        potential victims. It describes the tactics that criminals use 
        to traffic women, the risks of trafficking, and what women can 
        do to protect themselves.

  <bullet> The OSCE membership includes origin, transit and destination 
        countries. The OSCE thus is proving to be an excellent forum in 
        which to address trafficking. At the November 1999 OSCE summit, 
        the United States underscored the threat of trafficking in the 
        OSCE region and joined other summit participants in calling for 
        the implementation of the Action Plan to Combat Trafficking by 
        all OSCE member states.

  <bullet> In July 1998, the Secretary of State raised the issue of 
        trafficking at the ASEAN conference and invited countries in 
        the region to work with the United States to reduce 
        trafficking. The United States and the Philippines will co-host 
        a regional East Asian meeting in Manila in the Spring of 2000 
        called the Asian Regional Initiative to Combat the Trafficking 
        of Women and Children (ARIAT). Over twenty Asia and Pacific 
        nations have been invited to discuss national action plans to 
        combat the trafficking of women and children and to develop a 
        regional strategy to prevent trafficking, protect the victims 
        of trafficking, reintegrate trafficking victims into society, 
        and prosecute the traffickers.
Expanded Human Rights Reporting on Trafficking
    The Department recognized the importance of matching the growth of 
trafficking around the world with more extensive reporting. 
Consequently, the Department, through the Bureau of Democracy, Human 
Rights and Labor, has expanded its reporting of trafficking of persons, 
especially women and children, in the annual Country Reports of Human 
Rights Practices. The more detailed picture of trafficking that will 
emerge will help policymakers understand the phenomena and craft sound 
policies in response.
International Training and Research
    I would also like to take this opportunity to underscore the 
important work of the Department of State's Bureaus of International 
Narcotics and Law Enforcement and Consular Affairs in improving 
training for law enforcement on trafficking. Trafficking-specific 
training is being provided for foreign law enforcement--including 
border enforcement, consular anti-fraud and visa officials--to 
recognize trafficking cases and to respond appropriately to help 
protect victims.
    The involvement of law enforcement in developing and promoting 
protection of the victims of trafficking, even when the victims have 
crossed international borders and are in undocumented status, is ground 
breaking and will be crucial to success in this area.
    The Administration has funded several research projects to increase 
our understanding of trafficking. Later in this hearing, you will 
receive testimony from Laura Lederer, affiliated with the Women and 
Public Policy program at Harvard's Kennedy School of Government, whose 
research is funded by the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs. We contracted this work to 
survey current laws around the world on trafficking and sexual 
exploitation.
        what can congress do to address the trafficking problem?
    While important progress on this issue has been made, much work 
remains to be done. Congress is essential to the success of these 
efforts.
    Internationally, we need to achieve consensus on the U.N. 
trafficking protocol being negotiated. The United States will seek 
agreement later this year on this historic international instrument of 
cooperation to aid the fight against trafficking. The protocol will 
build on our policy framework of prevention, protection and 
prosecution. It will require countries to make trafficking a crime and 
will set new standards for countries of origin, transit and destination 
to prevent trafficking, punish traffickers and protect victims. It will 
also call for extensive law enforcement collaboration to attack the 
traffickers. Because trafficking is a global problem, the nations of 
the world are linked as countries of origin, transit, and destination 
and inevitably will succeed or fail in combating it together.
    Domestically, legislation is urgently needed. Such legislation 
could and should build on the prevention, protection and prosecution 
framework and expand and strengthen the tools available to advance the 
United States agenda on trafficking in other countries. Thus, any 
legislation should enhance our global efforts pursued through the 
protocol and the other bilateral, multilateral and regional initiatives 
described above. U.S. legislation should be carefully crafted to 
encourage and support strong action by foreign governments and to 
promote and facilitate the excellent work being done in this area by 
nongovernmental organizations around the world.
    Specifically, the Administration believes that the following 
elements would be most helpful in domestic legislation:

          Prevention.--Prevention measures should include initiatives 
        to provide economic opportunities and increase awareness among 
        potential trafficking victims. Expansion of trafficking 
        information and research collected domestically and in 
        cooperation with our international partners is also needed.

          Protection and Assistance.--Protection and assistance for 
        victims is critical. Currently there is no effective structural 
        framework for protection and assistance in the United States 
        for trafficked victims. There are very few shelters or other 
        support services designed to meet the particular needs of 
        trafficked women. Moreover, victims are generally ineligible 
        for assistance because most are in the United States 
        unlawfully. In the past, the standard response was immediate 
        deportation.
          Legislation is necessary to remedy this. One of the most 
        important measures would be eligibility for temporary residency 
        (through creation of a humanitarian, non-immigrant visa 
        classification) for trafficking victims identified in the 
        United States to allow them to obtain assistance and to aid in 
        the prosecution of traffickers. Current statutory barriers for 
        trafficking victims should be eliminated to permit eligibility 
        for existing programs.
          Similarly, our domestic legislation should provide for 
        support for developing countries to undertake or expand 
        initiatives to protect and reintegrate trafficking victims.

          Prosecution and Enforcement.--Strengthened enforcement and 
        prosecution against traffickers is crucial because trafficking 
        is growing, in part, because it remains a high profit, 
        relatively low-risk criminal enterprise. There exists little 
        deterrence to counter the greed of the traffickers. Imposing 
        tougher penalties--up to life imprisonment--for traffickers and 
        amending the law so that traffickers will not escape 
        prosecution and conviction, are among the objectives sought by 
        the Administration through legislation. Also, restitution 
        should be made available statutorily to trafficked victims. To 
        expand the possibility of redress, trafficked victims should be 
        able to bring private civil lawsuits against traffickers.
          Supporting Stronger Action by Other Countries.--A key element 
        of any legislative approach taken by the U.S. Government is 
        that it should foster and encourage efforts by other countries 
        to combat this transnational problem through the framework of 
        prevention, protection and prosecution. This can be done 
        through authorizing programs to enhance public awareness of the 
        dangers of trafficking, through law enforcement training and 
        collaboration and support for victim protection and 
        reintegration. Another way in which this can be accomplished is 
        by supporting and reinforcing our efforts through the protocol 
        to persuade all the countries of the world to adopt the 
        prevention, protection and prosecution framework. Any domestic 
        legislation should avoid any provisions, however well-
        intentioned, that could have the effect of discouraging 
        international collaboration and resolve to acknowledge and 
        combat trafficking.
          why mandatory sanctions would be counterproductive?
    Given the fact that in order to tackle the problem of trafficking 
we need the cooperation and support of all countries, some say we 
should inflict economic sanctions on countries that are perceived not 
to be doing enough to address the problem. We strongly disagree for 
four reasons:

  <bullet> Economic sanctions would exacerbate the root causes of 
        trafficking by making the targeted countries poorer and leaving 
        the victims even more vulnerable to traffickers;

  <bullet> Sanctions imposed on countries would not punish the 
        principal perpetrators--organized crime syndicates--but 
        governments and people;

  <bullet> In the face of a sanctions regime governments may seek to 
        downplay the seriousness of the problem of trafficking to avoid 
        either the direct or political consequences of sanctions, thus 
        chilling the growing phenomenon of international collaboration; 
        and

  <bullet> If a sanctions regime is developed, governments and local 
        populations could come to view the important work of local 
        activists and NGO's to raise the profile of the problem of 
        trafficking as a threat and cease collaboration with these 
        important grassroots efforts.

    In short, we believe creating a sanctions regime for this problem 
would be profoundly counterproductive. Sanctions simply would not 
contribute to prevention, protection or prosecution. And, most 
importantly, sanctions would not help in the process of building an 
international effort to combat the transnational problem of 
trafficking.
    As we have raised this issue around the world, we have found that 
we are joined by NGO's in every country that are pushing their 
governments to combat trafficking. We have also found that government 
leaders, as they learn about the issue, want to do something about it. 
Like the United States, these countries are in the early stages of 
trying to address trafficking. Because these emerging efforts are 
fragile, our goal should be to facilitate and encourage them by helping 
expand such programs as public awareness and education, law enforcement 
training, and helping governmental and non-governmental institutions be 
more efficient and forceful agents of reform. Creating a sanctions 
regime could these fragile collaborative efforts.
    Mr. Chairman, it is also essential to bear in mind the critical 
role played by NGO's in the efforts against trafficking. NGO's have 
courageously convened forums, produced moving documentaries and 
accurately reported the horrors faced by trafficking victims. At the 
Vital Voices Women in Democracy Conference in Vienna in July 1997, 
members of the President's Council met networks of NGO's working here 
in the United States and in the former Soviet Union. We heard from 
Ukrainian grandmothers who told us in tears of their anguish when young 
women from their villages were tricked into trafficking schemes. The 
NGO communities we have worked with include human rights groups, 
women's groups, service providers and faith groups. We have engaged 
with these communities in meetings across the United States and 
overseas and have benefited from this partnership. If we are to defeat 
the traffickers and provide protection to the victims, one thing is 
clear--we will need to build on and support the efforts of the 
grassroots NGO's committed to address this terrible scourge.
    Just last week, I met with women's NGO representatives from Russia 
and the Ukraine, two major trafficking source countries. They told me 
in no uncertain terms that economic sanctions against their governments 
would cripple the NGO communities' efforts to deal with trafficking--
efforts that include educating women and girls, aiding victims and 
providing information to law enforcement. These NGO's fear that in 
calling public attention to the problem they would be accused of 
causing the imposition of economic sanctions or political isolation. 
They are justifiably concerned that that would undercut their ongoing 
cooperative work with governments. We have heard this same message of 
concern about sanctions from many NGO's who work in the field and are 
active in victims assistance from around the world, including those in 
South Asia.
    The Russian and Ukranian NGO representatives were equally, if not 
more, wary of ``targeted'' sanctions that would, for example, cut off 
support for law enforcement training programs. In short, their reaction 
to such an approach was that the traffickers would applaud the 
implementation of such sanctions, since the very people who might 
challenge them would be hamstrung. While they have no illusions about 
the danger of official corruption, it was obvious to them that working 
cooperatively with foreign law enforcement and providing training to 
their law enforcement officials to prosecute traffickers effectively is 
far more likely to reduce trafficking in their countries than cutting 
off those training funds.
    Sanctions simply are not the answer to the problem of trafficking 
and the imposition of a sanctions regime could compromise the important 
work currently underway, to combat trafficking.
                       next steps on legislation
    The Administration has worked and hopes to continue to work 
diligently on a bipartisan basis to assist Congress to craft effective 
legislation. We believe that the current version of S. 1842, goes the 
furthest in providing needed tools to address trafficking.
    While we have deep concerns about certain provisions of the current 
House bill, sponsored by Congressman Smith of New Jersey and 
Congressman Gejdenson of Connecticut, other portions of that bill 
mirror Administration proposals. We hope that disagreement over its 
proposals for economic sanctions, new unfunded reporting requirements 
that duplicate existing obligations and current reporting, and creation 
of a new trafficking office without appropriating funds for that 
purpose, will not impede our shared objective of enacting effective 
trafficking legislation this year.
                               conclusion
    The Administration has moved aggressively to combat trafficking and 
protect its victims. Mr. Chairman, we want to work with you to do more. 
We must get the world's attention to achieve a global consensus as we 
head into the 21st century that trafficking, a form of modern day 
slavery, is unacceptable. As Secretary of State Albright has said, 
``Our goal, ultimately, is to mobilize people everywhere so that 
trafficking in human beings is met by a stop sign visible around the 
equator and from pole to pole.''
    Thank you, Mr. Chairman.

    Senator Brownback. Thank you very much, Mr. Loy, for 
testifying and for presenting a very clear statement, too, of 
the extent of the problem and the nature of it.
    Let's run the clock back and forth at 7 minutes here. I do 
want to make sure--we have got two other panels--we get plenty 
of time for the other panelists to testify as well.
    Mr. Loy, is the problem continuing to grow? I would like to 
get from you or from your staff people, when did this thing 
start to explode, and are we capped out, or is this just 
continuing to grow at the present time?
    Mr. Loy. Mr. Chairman, the numbers started to grow in the 
nineties, early in the nineties. We have taken some care to get 
the best snapshot of numbers that we have. It is a little hard 
for me to predict whether it will grow or not, but certainly 
the trend line has been up. I am hoping that as the world 
catches up with the phenomenon in terms of education and in 
terms of prosecution, that we will cap it, but I do not think I 
would want to predict which way the numbers will go.
    Senator Brownback. Ms. Loar, do you have a comment or 
thought on this?
    Ms. Loar. Well, of course I agree with my boss, but let me 
just add to that that we think some of the reasons why this 
human rights violation has increased so dramatically in the 
last few years has been sort of the breakdown of borders, the 
increase of cross-border trade, and the fact that it is so 
economically lucrative, and the fact that many women and girls 
in the world find themselves in a very desperate economic 
situation does point to increases in this human rights 
violation, in this crime.
    The fact that victims' groups, those who are supporting 
victims, including some of the people you are hearing from 
today, have their hotline, the calls on their hotline go up on 
a regular basis, the fact that victims' groups come forward to 
the U.S. Government and to others who are looking for help I 
think is an indication that it is becoming more visible. Yes, 
you have said your work here and the work of others to shine a 
light on it is helping it come out of the shadows. It is hard 
to tell if that is increasing, or if it is just becoming more 
visible.
    Senator Brownback. What is the extent of this as a money-
making source for organized crime? What is the extent of that 
involvement, and where is it on their scale of money- making 
sources?
    Mr. Loy. I do not have very good numbers. I am going to ask 
Ms. Chamberlin to speak to this, but one interesting aspect of 
your question is that organized crime tends to go where the 
money is, and we have had a number of examples where there has 
been a shift from drugs to trafficking in persons, sometimes 
from guns to trafficking in persons, because it was felt that 
that was safer. There was less likelihood of prosecution. So it 
is somewhat interchangeable.
    Wendy, do we have numbers?
    Ms. Chamberlin. I am sorry, we do not have numbers.
    Senator Brownback. Would you identify yourself?
    Ms. Chamberlin. I am the Principal Deputy Assistant 
Secretary in the International Counternarcotics and Law 
Programs Bureau, commonly known as Drugs and Thugs.
    The bureau started out--
    Senator Brownback. Drugs and Thugs. That is something to 
tell your mom.
    Ms. Chamberlin. The evolution of our bureau's interest 
actually speaks to this problem. We had started out primarily 
as a bureau interested in counternarcotics abroad. We have 
found over time that if you are interested in counternarcotics 
and stopping at that, it leads naturally into organized crime 
issues, and larger crime issues, as has organized crime in this 
issue.
    I am echoing a point that Under Secretary Loy just made, 
but we have found that many of the drug-trafficking groups are 
shifting away from trafficking narcotics to trafficking people, 
women and children, for the reasons that are Under Secretary 
Loy just mentioned. It is a reusable commodity. You can sell it 
more than once. The penalties are low in many countries around 
the world, and governments and law enforcement agencies 
particularly are not quite as sensitized to the danger and the 
horrific nature of the problem.
    This has led us to focus more on this problem 
internationally, and has led naturally to our interests in 
promoting the U.N. Transborder Organized Crime Convention that 
is being negotiated in Vienna now, because that focus is on 
organized crime and their involvement in this issue.
    Senator Brownback. So if I could, are they focusing, 
refocusing their asset base, then, to--you are saying away from 
drugs and into the international trafficking on an increasing 
basis?
    Ms. Chamberlin. Yes, sir, very much so.
    Senator Brownback. May I ask you, just as an economic 
matter from them, are they sourcing people and then selling 
them, or are they sourcing them and then putting them in their 
own brothels in places around the world? Just how are they 
actually doing this transaction?
    Ms. Chamberlin. There are a lot of questions we simply do 
not know that we need to know, and we are beginning to work in 
a more focused way with law enforcement agencies in other 
countries so we can answer just those questions, but what we 
are seeing is organized crime groups, Asian, for example, 
coming out of China, the Snakeheads, that are very much 
trafficking not just labor but women and children and men into 
their own distribution systems within the United States and 
other countries abroad, the U.K., Italy, others, where it 
quickly becomes coercion, coercion for labor, coercion also for 
sexual purposes, so the answer to that is yes, it is a network.
    Mr. Loy. There is a particular example that maybe Ms. Loar 
might refer to.
    Ms. Loar. Senator Brownback, one of the things we have 
found in the cooperative arrangements we have with particular 
countries, coming out of Secretary Albright's bilateral 
discussions on this with foreign ministers, is the willingness 
and the interest of the anti-organized crime efforts within 
countries to work with the U.S. Government on this.
    A particular case is in the case of the Government of 
Italy, where the Anti-Mafia Commission has been very actively 
engaged in sharing information with us, and us with them, about 
activities relating to organized crime elements. We hope to 
learn a lot more about that. We know that the Government of 
Italy looks at the trafficking in women and children as 
seriously as they do any of the other organized crime 
activities they have focused on.
    Senator Brownback. Paul, we will bounce back and forth. I 
would like to go another round after this.
    Senator Wellstone. That is fine. As I am listening to the 
discussion I am thinking to myself that it is interesting, we 
are--I mean, I certainly know that our Government in an 
important way is trying to make a difference, but I also think 
it is clear that right now I think we just have a further 
hemorrhaging that is going on, and so what is the role of 
organized crime in relation to trafficking, and in relation to 
the global markets?
    I gather we are just starting to get a handle on this, and 
frankly I think it is important that we recognize, and I have a 
couple of questions I want to put to you, Mr. Koh, that we can 
talk about trafficking for the purposes of sexual exploitation, 
prostitution, but also for slavery. I mean, it is the same 
issue when women are brought here or some other country and 
beaten up and threatened and forced into labor, and the other 
thing I will just mention, because I do not want to take up a 
lot of time, but I think it is also in these estimates, just 
taking the United States, 50,000 women and children, I think it 
would be larger if we included men.
    I mean, we also--the case of deaf Mexican men that were 
brought over here and exploited, and I am not sure whether we 
have got those statistics or not, or collecting that data. 
Maybe I will get back to that question.
    But given all this, let me just raise a couple of 
questions. First of all, Secretary Koh, what do you think would 
be the key components of U.S. legislation that could really 
make a difference in terms of the P's, the preventing, the 
prosecuting, and the protecting of human rights, and 
trafficking persons?
    What do you see as being the key components of a piece of 
legislation that could make a difference, and I appreciate 
Secretary Loy's mentioning S. 1842, and I am willing to improve 
upon it and work with my colleague here, but could you kind of 
outline for us what you consider to be the key components?
    Mr. Koh. Yes. Let me go back first of all, Senator, to 
Senator Brownback's question. I think part of the phenomenon is 
the transnational nature of the phenomenon suggests that both 
the supply is increasing in the source countries, partly 
spurred by the collapse of the Eastern bloc, the transit 
countries have weaker restraints because of more sophistication 
on the part of smugglers and transnational networks, and then 
the growing demand in the recipient countries, thus leading to 
a growing market for this activity, thus making it more 
economic to shift activity of existing criminal syndicates away 
from guns and drugs toward trafficking of women and children as 
a more profitable enterprise.
    I think the critical point, then, is because what we have 
is a vicious cycle, how do we break the vicious cycle, and that 
is where we think that the most forward-looking piece of 
legislation going to this issue is S. 1842, because I think 
that what is necessary is to attack all the different pieces of 
the problem.
    The first and most important, obviously, is providing 
protection to those individuals who are caught up in the 
trafficking game, and that is where the visa provisions, the 
humanitarian visa, the witness provisions make it clear that 
they are not the problem and, indeed, they can be a source of 
information, and bringing evidence to bear.
    You mentioned the deaf Mexican workers. Before I came to 
this job I was one of the counsel to the deaf Mexican laborers 
who were in New York. Many of them were under severe coercion, 
and it was the fact that there was a possibility of visa relief 
which made it possible for them to come forward to testify 
against those who had subjected them to this kind of atrocity.
    I think on the prosecution side the most critical element 
is cooperation in a transnational protocol and extradition and 
prosecution arrangement that can get countries working together 
from all three, source, recipient, and transit countries, and 
that is where the protocol negotiations in Vienna are so 
important.
    I think the important thing, Senator, is that what we are 
building here is a regime. This is a critically important 
moment for regime-building which requires both a multilateral 
framework, the prosecutorial framework with legislation on top, 
that supplements that regime rather than disrupting it.
    And then finally, I think on the prevention side steps at 
public education, awareness, development of economic 
alternatives. When I traveled with Secretary Albright last 
March to Thailand we saw the Hill Tribes Institute. I am sure 
you have seen this yourself, Senator Brownback, in your 
travels, efforts to steer individuals who might be enticed into 
this, or deceived into this kind of activity, into different 
lines of work so that they never become part of the supply in 
the first place.
    I think this is the key part, is protecting the victims, 
giving them economic alternatives, and going hard after the 
traffickers. That is where--some of the alternative techniques 
that are being proposed, reporting mechanisms, we believe that 
there is in fact a lot of information out there. The question 
is how to get that information into the right hands.
    The mandatory sanctions mechanism, as my boss, Under 
Secretary Loy, pointed out, could end up disrupting the 
cooperative arrangements that we need to bring about a 
prosecutorial regime.
    So the question is, how do you get the legislation and the 
multilateral arrangements working together.
    Senator Wellstone. Let me, since you raise that question 
about the need to sort of build this relationship with kind of 
a multi-nation response, can I just ask you to speak to what is 
certainly a thorny question for me, and that has to do with 
whether or not we are talking about voluntary prostitution 
versus forced prostitution, this whole key question. I would 
like for you to, if you do not mind, work through this for us.
    I mean, can you sort of spell out for the two of us what 
you see as being the critical kind of key question here, either 
one of you? You know what I'm talking about. I can sort of put 
the question a different way, but I would like for you to speak 
to this, because I hear from more people that are working on 
this--I see more division around this question than any other, 
and I would like to get your testimony on this.
    Mr. Loy. Let me start off on this, and then I might ask 
Secretary Koh to follow up. The United States has perhaps the 
strongest anti-prostitution laws of any industrialized country. 
Certainly they are very strong, and our position is very clear 
that prostitution is a practice we would like to eliminate. We 
abhor it, and we certainly do not want in any way to endorse 
it, or to help it.
    The issue arises in important part in the protocol that is 
being negotiated that Ms. Chamberlin referred to. That protocol 
deals with trafficking, and trafficking is described therein as 
basically trafficking across borders by reason of force or 
deception or coercion, and does not include voluntary acts.
    We want to focus on trafficking because it is every bit as 
bad as we have all heard and said today, and we recognize that 
if we seek to enlarge the concept and deal not only with 
trafficking as thus described but also with prostitution 
generally, that we will lose a number of key participants in 
the international effort to write this protocol.
    Just as Harold as said, this system will only work if 
countries on the source end, on the transit end, on the 
recipient end get together and deal with this together, so we 
want a protocol that is as wide as possible in its adherence, 
and we do not want to lose any countries that would not sign 
the protocol because their laws, for example, do not 
criminalize.
    Senator Wellstone. Mr. Chairman, I actually will not take 
my additional 7 minutes, but let me, if I could just follow up, 
because I find this to be--this has to be put in some kind of--
I appreciate what you say, but I still need for you all to 
speak to the obvious concern that this becomes a big loophole. 
Somebody signs a consent form before they come--there seems to 
be all sorts of loopholes for the basic human rights violations 
that we are trying to prevent, and I want you to speak to how 
we make sure that indeed we are dealing with the blatant 
violation of human rights of women if we have language that 
talks only about forced prostitution as opposed to voluntary 
prostitution.
    Mr. Loy. Let me just add one more thing before I turn it 
over to my colleagues. Both the proposed law and the proposed 
protocol would not in any way--would not in any way undo or 
modify or change any present legislation, or any present 
international agreement that deals with prostitution, so we 
would not undo anything.
    We would add a whole layer of prosecution, and if you talk 
to the prosecutors you will find that under the proposed 
protocol and the law the prosecutions would be simpler, not 
more complicated, and so it does not seem to me that anybody 
who is at present in any kind of a risk of being prosecuted 
would be let off by reason of what we propose.
    Senator Wellstone. What I am worried about here is--and I 
want you to work through this for me, because if you have 
language that focuses on just forced prostitution the question 
becomes, what if a woman knows, in fact, before she comes to 
another country she is going to be a prostitute, but then her 
human rights are violated, is it a human rights violation or 
not? What if somebody signs a consent?
    I just would like for you to try to speak to this in as 
specific a way as you can. Secretary Koh, do you want to add to 
this?
    Mr. Koh. Senator, our core principles are pretty clear, 
first that as Secretary Loy said, we ourselves have the 
strongest domestic regime against prostitution that you could 
imagine, secondly that we are seeking a comparable regime on 
trafficking which is overlapping but not identical to 
prostitution, and third, that we are trying to get the 
strongest international criminal regime against sexual 
exploitation that the diplomatic traffic will bear.
    Now, the key in trafficking is not the act itself of sexual 
exploitation. It is the act of the use of force, or fraud, and 
artifice, to get people across borders, and the question is, 
how do you develop an effective regime that reaches that when 
it is done for all kinds of different purposes, and the goal is 
to try to cast the net as broadly as possible, and to 
criminalize as many different kinds of acts which are the end 
goal for that kind of activity.
    Now, with that, we have to look at what other nations are 
willing to subscribe to. I think we would all agree that if we 
could get a drug trafficking regime that reached 18 out of 20 
drugs, we would try to get that if we could, and we would try 
to push it and use it as the regime to build up to all 20, and 
I think that is essentially what we are attempting here.
    I think we do not agree that their use of the term forced 
or not is itself going to be a major loophole. There are many 
ways, and my colleague, Deputy Assistant Secretary Chamberlin, 
can reach that, whereby the act of proving trafficking can be 
done without getting into the issue of whether the prostitution 
which is at the end state is itself forced or voluntary, or, 
quote, voluntary.
    I think the key is whether the trafficker themselves are 
engaged in an act of transporting someone across international 
borders by illegal techniques for illegal profit, and then 
whether the act for which they are doing so fall within what we 
would hope would be a very broad definition of sexual 
exploitation.
    Senator Brownback. That is a key point, because virtually 
everything I have read on this, and the girls that I have 
talked to that have returned from this, many thought what they 
were going into in the first place was fine. They were 
voluntary with it. They were going to get a domestic job 
somewhere, going to a carpet factory. Even the trafficking in 
this country, it starts out, I agree with this, but then it 
ends up at the other end in the most horrible forced slavery 
situation, and so we really have to get at, I think, the end 
issue here, and not at whether it is voluntary or not in the 
beginning of it.
    I wanted to ask a couple of questions, and then we will go 
on to the next panel. I hope we do not lose sight, in our 
discussions here on legislative points and whether this is the 
way to go or that one is, of that 13-year-old girl that is 
locked in a brothel in Bombay and beaten regularly, submitting 
to this trade and returning to Nepal with tuberculosis and 
AIDS. I hope we keep focused on that is what this is about.
    To me, this is an important piece of legislation that 
should and can move this year and get to the President's desk, 
or we can fight about it a lot, and I can spend quite a bit of 
time blaming you guys for it, which I think there is plenty of 
blame to go around of why this thing is growing the way it is, 
or we can blame Congress for why haven't we acted sooner on an 
exploding problem.
    But I would hope what we would do is, we would work 
together on a piece of legislation, move it, move it 
aggressively, move it rapidly, that we would not have a lot of 
stumbling blocks put in place by different people, or who is 
going to get credit for dealing with this or that, but that we 
would get it done, because otherwise this thing is going to 
just continue to explode.
    It looks to me like it is a very profitable area. It is an 
area that the rings can move people into and not be subject to 
criminal prosecution in sometimes the host country, because 
prostitution is not illegal, and so that you have found a good 
profit center, and that is a horrible thing that is taking 
place. If they are shifting those resources we should be very 
aggressive on this front end of dealing with it, and so I hope 
you will work with us very carefully and closely.
    And I do not think we are going to get a bill through that 
you may agree with everything on. I would doubt it. I would 
hope we could work with you early on, and I know Senator 
Wellstone is anxious to get something on through, that you 
would work with us on getting something that can make it on 
through the legislative process and we can get it to the 
President that does address the issue.
    And Mr. Loy, we have met previously, and I hope you will 
work with us on that so we can move this early, and the 
administration can put its weight behind moving this type of 
legislation.
    Mr. Loy. Mr. Chairman, I am absolutely committed, and we 
are all committed to moving an effective piece of legislation 
through the Congress, and we know that we will have a 
cooperative spirit on the part of the Senate.
    I do want to commend you for focusing on that 13-year- old 
girl that you were referring to earlier, and I think we have to 
remember what this is all about, and the victims we are trying 
to help, and that is why I think it is particularly important 
what Assistant Secretary Koh said earlier, that we have a 
historic moment to build a regime.
    It is kind of an academic term in some ways, but it is 
exactly right here, a domestic and international regime in 
which we can fight this effectively, and we have to make sure 
those two pieces work together, because that way we will be 
able to prosecute the traffickers, and we will have a system 
whereby the victims will be helped, and we are absolutely 
committed to making that work.
    Mr. Koh. And Senator, if I could just add, I think the key 
to the approach that we are supporting is that the victims and 
survivors be the target of the protection and prevention 
efforts, but it is the traffickers who are the target of the 
prosecutorial efforts. In other words, in the prosecutorial 
extraditions phase of this operation, we are not looking at the 
state of mind of the victim, because as you said, the state of 
mind of the victim may be clouded, misled, change over time.
    Senator Brownback. She may be an 11-year-old girl. She 
probably is, which I have a 13-year-old daughter, and she can 
move--her mind can frequently be clouded.
    Mr. Koh. Well, I have a 13-year-old daughter as well, and 
she actually has a quite unclouded mind, but nevertheless, the 
main point I think is in the prosecutorial side of this, 
targeting the traffickers. The name of the game is two things, 
first, cooperation, multilateral cooperation, and secondly 
focusing on the state of mind and overt acts of the 
traffickers, because their use of force or fraud or artifice of 
transporting people across borders, that is what establishes 
the criminality of what they do, not some assessment of the 
state of mind of the victim.
    Senator Brownback. The number Paul and I both use is 50,000 
trafficked into the United States annually. Does the 
administration have a number, a good educated guess of the 
number trafficked into the United States annually?
    Ms. Loar. That 50,000 is the administration's educated 
guess on that, and that is something that is being tracked and 
looked at, but that 50,000 number is the current snapshot we 
were able to take.
    Senator Brownback. And where is the primary source that 
these poor individuals are coming from?
    Ms. Loar. From the former Soviet Union, from Southeast 
Asia, from South Asia, from Africa. There has been a great 
increase. Well, it is hard to measure, since these are numbers 
that are being looked at very carefully now, but a lot of the 
numbers are coming from the former Soviet Union.
    Senator Brownback. And that is--you listed several places. 
Did you list those in orders of number?
    Ms. Loar. Not necessarily.
    Senator Brownback. But the former Soviet Union is the 
largest in the administration's estimate?
    Ms. Loar. I am not sure we could quantify that. We would 
have to look at that.
    Senator Brownback. Are most of these coming into the United 
States through organized crime apparatuses as well?
    Ms. Loar. I am going to turn to Ambassador Chamberlin on 
that one.
    Senator Wellstone. Keep in mind when you answer that that I 
am also interested in whether we are including men, or whether 
we are even collecting any data. We are talking about forced 
labor conditions as well. I am interested in whether the 
statistics include men or not.
    Ms. Chamberlin. My understanding is the statistics do not 
include men, that the statistic would be even larger were we to 
include men, and we ought to. My understanding also is that--it 
is once again developing--is that the primary source of 
trafficked people into the United States is still Southeast 
Asia, with Southwest Asia and the former Soviet Union States a 
close second, but with the Nigerian organized crime groups 
becoming more active, as well as--you know, it is where we find 
poor people.
    Senator Brownback. How are they getting here? How are they 
bringing them into the United States, the crime syndicates?
    Ms. Chamberlin. In the case of Asia, there are quite active 
Chinese groups involved in smuggling. They smuggle in men, but 
they smuggle in women and children as well, in containers--you 
have been reading some of the articles lately--through working 
with other corrupt officials in the Caribbean and Latin 
America, with phony visas and phony passports, through a 
variety of methods, in onesies and twosies, pretending to be 
spouses with phony documentations, coming in from Southeast 
Asia. That is a favorite way. In a variety of different ways, 
sir.
    Ms. Loar. May I just add to that that some of the people, 
the victims who are trafficked do come in on visitors' visas, 
and our embassies around the world are very much alerted to 
this, and there are fraud alerts, and there are discussion 
points where our consular officers issuing visas around the 
world have a focus on this and are looking for patterns, and 
they share information with each other, and so that part of it, 
the prevention part, right at the very root, as to whether or 
not someone gets a U.S. visa, our embassies are very actively 
engaged in.
    Senator Brownback. Do you have names of any of the 
syndicates that are moving people illegally into the United 
States that are particular targets of the administration?
    Ms. Chamberlin. The Russian syndicates, yes, sir, are 
moving in very aggressively, particularly.
    Senator Brownback. Can you give me names? Have you named 
some of the syndicates? Can you identify those here?
    Ms. Chamberlin. We will provide you a report, sir. I will 
work with my colleagues at the FBI who I know are currently 
investigating this right now, and we can get you better data.
    Senator Brownback. All right. Well, this has been a very 
illuminating panel, and I appreciate greatly--I feel like we 
just scratched the surface of a terrible blight, and it is kind 
of a big sore that you open up, and you see all of the poor 
people's faces that have been victimized by this, and misused, 
and abused, and thrown away.
    Thank you very much. We look forward to working with you 
further on this topic.
    Mr. Loy. Thank you, Mr. Chairman, and Senator Wellstone.
    Senator Brownback. The second panel is Dr. Laura Lederer, 
Director of the Protection Project, Kennedy School of 
Government at Harvard University, Gary Haugen with the 
International Justice Mission, and Regan Ralph of Human Rights 
Watch, and I would note for the press that we will be having a 
victim testify at this panel. She is in disguise, does not want 
to be identified by name or visually, and she will be leaving 
immediately afterwards, after her testimony, and we wanted to 
try to protect her identity as much as possible.
    Because of the size of the panel, and we do have a victim 
here to testify, who I believe will need a translator to 
testify, I think we will go forward with the victim to actually 
testify, and there will not be questions of the victim, and she 
will be allowed to leave immediately afterwards. If that is OK 
with you, Paul, we will proceed that way, then we will go to 
the rest of the panelists, and we appreciate very much your 
cooperation as well. Please--and would you like to introduce--
    Dr. Ledrere. Mr. Chairman, yes, and Senator Wellstone, I 
would like to introduce Virginia Coto of the Florida Advocacy 
Immigrant Center, and Inez, who is going to tell you her story, 
and Virginia is going to act as her translator.
    Senator Brownback. Please proceed. We will have her written 
statement for the record, too. Thank you.
    Senator Brownback. If I could insert myself, if you have a 
written statement, if you can simultaneously just go through 
that and present that for her, and you read it into the mike so 
that--and I do not know if our transcriber can handle this. We 
will see how good his Spanish and English is simultaneously, 
but that might help things. She does not need to speak into the 
mike for it.

           STATEMENT OF INEZ, A TRAFFICKING SURVIVOR

    Inez. Good morning. I would like to thank the Foreign 
Relations Committee for the opportunity to speak to you on 
behalf of trafficking survivors. My name is Inez. I am in 
disguise today because I am in fear that my captors would 
recognize me and thus place my life and that of my family in 
danger.
    My story begins in the fall of 1997, in Veracruz, Mexico. A 
friend and neighbor approached me and told me about the 
opportunities for work in the United States. She told me she 
worked in the United States at a restaurant and had made good 
money. At the time, I was working with my family harvesting 
lemons. I was eager to assist my family financially, so I 
decided to learn more about this job opportunity.
    My friend set up a meeting with two men who confirmed the 
job openings for women like myself at American restaurants. 
They told me they would take care of my immigration papers, and 
that I would be free to change jobs if I did not like working 
at the restaurant.
    I decided to accept the offer. I was 18 on September of 
1997, when I was brought into the United States through 
Brownsville, Texas. My friend who told me about the job 
traveled with me. We were transported to Houston, Texas, where 
a man named Rogerio Cadena picked us up and transported us to a 
trailer in Avon Park, Florida. This is when I was told my fate. 
I would not be working in a restaurant. Instead, I was told I 
owed a smuggling fee of $2,500, and had to pay it off selling 
my body to men.
    I was horrified. I asked my friend what this was all about. 
She said she had already worked in the brothels and it did me 
no good to complain. I was told that if I did not pay, the 
bosses would go after my family in Mexico, since they knew 
where they lived. I was also told that it did me no good to try 
to escape, because I would be found and beaten.
    Next, I was given tight clothes to wear and was told what I 
must do. There would be an armed man selling tickets to 
customers in the trailer. Tickets were condoms. Each ticket 
would be sold for $22 to $25 each. The client would then point 
at the girl he wanted, and the girl would take him to one of 
the bedrooms. At the end of the night I was to turn in the 
condom wrappers. Each wrapper represented a deduction to my 
smuggling fee. After 15 days, I would be transported to another 
trailer in a nearby city. This was to give the customers a 
variety of girls, and so we never knew where we were in case we 
tried to escape.
    I could not believe this was happening to me, but even 
worse was that some of the girls were as young as 14 years old. 
There were up to four girls in each trailer at one time. we 
were constantly guarded and abused. If any one of us refused to 
be with a customer, we were beaten. Most of the customers were 
drunk or high. This was very frightening to us, because they 
often would beat us as well. Sometimes we would tell them about 
our situation and plead with them to help us escape. The men 
would agree to help us, but we had to perform certain sex acts 
which were not part of the regular fee. They did not care about 
us. They wanted their money's worth.
    On other occasions, if we declined a customer ourselves, 
the bosses would beat us severely or show us a lesson by raping 
us. One of the girls was even locked in a closet for 15 days. 
We worked 6 days a week and 12-hour days. We mostly had to 
serve 32 to 35 clients a day. Weekends were even worse. Our 
bodies were utterly sore and swollen. The bosses did not care. 
Often, when our work night was over, it was the bosses turn 
with us. If anyone got pregnant, we were forced to have 
abortions. The cost of the abortion was then added to our 
smuggling debt.
    The brothels would always be in very isolated areas. We 
were transported every 2 weeks to different brothels in order 
to give the clients a variety. We never really knew where we 
were. We were not allowed to go outside of the trailer. We were 
only allowed to use the telephone once a week to call our 
families in Mexico. However, the bosses stood next to us to 
ensure that we never revealed the truth about our situation.
    On other occasions we were taken to bars for the purpose of 
recruiting customers. At the bars, the bosses forced us to 
perform sex acts with customers in their cars.
    I was enslaved for several months. Other women were 
enslaved for up to a year. The INS, FBI, and local law 
enforcement raided the brothels and rescued us from the 
horrible ordeal. We were not sure what was happening on the day 
of the raids. Our captors had told us over and over never to 
tell the police of our conditions. They told us that if we told 
we would find ourselves in prison for the rest of our lives. 
They told us that the INS would rape us and kill us, but we 
learned to trust the INS and FBI and assisted them in the 
prosecution of our enslavers.
    Unfortunately, this was difficult. After the INS and FBI 
freed us from the brothels, we were put in a detention center 
for many months. Our captors were correct. We thought we would 
be in prison for the rest of our lives. Later, our attorneys 
were able to get us released to a women's domestic violence 
center where we received comprehensive medical attention, 
including gynecological exams and mental health counseling.
    Thanks to the United States Government, some of our captors 
were brought to justice and were sent to prison, unfortunately 
not all. Some of them are living in Mexico in our home town of 
Veracruz. They have threatened some of our families. They have 
even threatened to bring our younger sisters to the United 
States for them to work in brothels as well.
    I would have never, ever have done this work. No one I know 
would have done this work. I am speaking out today because I 
never want this to happen to anyone else. However, in order to 
accomplish this goal women like me need your help. We need the 
law to protect us from this horror. We need the immigration law 
to provide victims of this horror with permanent legal 
residence.
    We came to the United States to find a better future, not 
to be prostitutes. If anyone thinks that providing protection 
to trafficking survivors by affording them permanent residency 
status is a magnet for other immigrants like myself, they are 
wrong. No woman or child would want to be a sex slave and 
endure the evil that I have gone through. I am in fear of my 
life more than ever. I helped to put these evil men in jail. 
Please help me. Please help us. Please do not let this happen 
to anyone else.
    Thank you.
    Senator Brownback. Thank you for coming forward and being 
willing to have your testimony stated so that we can hear and 
we can shine that light on what takes place in so many 
horrifying situations.
    Is she willing to answer any questions?
    Inez. Sure.
    Senator Brownback. First, we are deeply grateful to you for 
being willing to subject yourself to this and the fear that 
goes with what you have been through, and God bless you for 
doing that, because you are speaking out for millions of women 
around the world that this has happened to them as well.
    How did they sneak you across the border? How did that 
occur?
    Inez. In a van they brought me to the border. I was brought 
across the border and then transported in another van to 
Houston, and then Florida.
    Senator Brownback. Was it an organized operation, an 
organized group?
    Inez. Yes.
    Senator Brownback. And the name of that group has been 
brought forward and prosecuted already. Can you say the name of 
the group that did the organization in bringing you across the 
border?
    Inez. It is the family, the Cadena family, of which Rogerio 
Cadena has been prosecuted in the United States and is in 
prison. Ivet Cadena is in Veracruz, Mexico, as are other family 
members and other ring members.
    Senator Brownback. Do you know other women, do you know 
personally other women who have been tricked into the sex 
traffic in the United States as well?
    Inez. Yes.
    Senator Brownback. Many?
    Inez. Yes.
    Ms. Coto. If I may, I represent 14 of the women. In the 
Cadena family that were prosecuted in Florida, after the 16 
indicted, 7 were prosecuted and imprisoned, and the rest are 
still at large, living in her same home town, in Veracruz. Ivet 
I believe was finally detained in Mexico. I am not sure of the 
status at this point.
    But there is actually 17 in this case. They know of at 
least 25 women, some are in Mexico, and I represent 14, but 
there are some still in the United States as well.
    Senator Brownback. Is this a growing activity from Mexico 
into the United States from the organized rings of bringing 
people in and then tricking them into the sex trade? Does she 
know, or do you?
    Ms. Coto. I do not know. I think Dr. Lederer might respond 
to that.
    Senator Brownback. I have asked more questions than I 
should have. Paul.
    Senator Wellstone. I think, Senator Brownback, there are a 
couple of things, that this is less a question of--I think, Ms. 
Inez, you have given us some very important direction. There 
are several things you have said that are very important to 
take note of. One is that when women are put in this situation, 
as happened to you, they are not going to be able to step 
forward if what they have to worry about is either being 
deported or put in detention camp, and that is one thing we 
have to make sure that does not happen.
    Instead, what we should be getting to women is the medical 
services and counseling and help. The second thing, and I think 
in the bill that I have this is perhaps a weakness we need to 
look at, which is, we talk about these protections for women, 
and also women being able to stay in our country, but that is 
if they cooperate with the prosecution, but some women may not 
be able to do that because literally their loved ones could be 
murdered back in the countries they come from, and so I think 
we have to sort of come up with another standard to provide 
protection, if that makes sense to those of you who are in this 
room.
    And then finally, I just would like to thank you again, 
because I think quite often we think this all happens in other 
countries and not here in the United States, but it does happen 
here. Thank you again for your courage.
    Senator Brownback. Dr. Lederer, and I apologize to the rest 
of the witnesses for the break we had, but I thought it was 
important that we have Inez here to testify. I really 
appreciate her testimony.
    Dr. Lederer, please proceed with your testimony. We are 
going to run the clock, so you will have a 7-minute time frame, 
so you will know, not that that is iron-clad, but it will give 
you a little bit of an idea. Thank you for being here.

  STATEMENT OF DR. LAURA J. LEDERER, DIRECTOR, THE PROTECTION 
     PROJECT, THE KENNEDY SCHOOL OF GOVERNMENT AT HARVARD 
                   UNIVERSITY, WASHINGTON, DC

    Dr. Ledrere. Thank you, Mr. Chairman, and subcommittee 
members. It is a pleasure to be here. I am Laura Lederer, 
Director of the Protection Project of the Kennedy School of 
Government, Harvard University, and I am happy to be here to 
share some of the preliminary findings from our project.
    For the last 4 years I have been documenting the laws on 
trafficking, slave trading, kidnapping, rape, as well as 
prostitution and surrounding activities, including pimping, 
pandering, procuring, soliciting, brothel and body health laws 
and other statutes.
    In addition, I have been tracking the ways that countries 
address child prostitution, child pornography, corruption of a 
minor, child access to pornography, and I have collected 
statutes on all of these issues from over 230 countries and 
territories around the world.
    I have also been examining the range of penalties, defenses 
to the charges, sentencing patterns, extra territoriality and 
extradition treaties, law enforcement capability, victim 
assistance programs, and other related matters.
    And finally, we have been documenting the age of majority, 
the legal age for marriage, the legal age for consent to sexual 
relations, and other ages that are relevant to commercial 
sexual exploitation of women and children.
    The collection of the data has been taking place through a 
series of questionnaires and the preliminary work of the 
project is complete. We hope to have the entire first phase of 
documentation finished by the end of this year, and my 
testimony today is based on the information we have gathered 
over the past several years and addresses the scope of the 
problem of trafficking worldwide.
    Let me begin by adding to what has already been said about 
the definition. I will not repeat Mr. Loy's legal definition, 
but rather say that trafficking is a global human rights 
problem of which the majority of victims are women and 
children, and let me illustrate what trafficking is by telling 
you Lydia's story, which is an amalgamation of several true 
stories of women and children who have been trafficked in 
Eastern Europe in recent years.
    Lydia was 16 and hanging around with friends on the 
streets, and here you can fill in the name of any of the sender 
countries in Eastern Europe, the Ukraine, Russia, Romania, 
Lithuania, the Czech Republic, Latvia, when they were 
approached by an older, beautifully dressed woman who 
befriended them and told them they were so nice-looking she 
could get them part-time jobs in modeling.
    She offered to take them to dinner, bought them some small 
gifts, and when dinner was over she invited them home for a 
drink. Taking that drink is the last thing that Lydia 
remembers. The woman drugged her, handed her and her friends 
over to another agent who drove them, unconscious, across the 
border and into--and here you can fill in any of the other 
countries that are receiver countries, Germany, the 
Netherlands, Italy, any of the Middle Eastern countries, as far 
as Japan, Canada, and the United States.
    When Lydia woke, she was alone. She was in a strange room 
in a foreign country. Her friends were gone. A man came into 
the room and told her she belonged to him. I own you, he said. 
You are my property, and you will work for me until I say to 
stop. Don't try to leave. You have no papers. You have no 
passport. You don't speak the language.
    He told her if she tried to escape his men would come after 
her and beat her. He told her her family back home would be in 
danger. He said she owed his agency $35,000, which she would 
work off in a brothel by sexually servicing 10 to 20 men a day.
    Stunned and angry and rebellious, Lydia refused, and this 
is not an uncommon story. The man hit her, beat her, raped her. 
He sent friends in to gang-rape her. She was left in a room 
alone, without food and water, for 3 days. Frightened and 
broken, she succumbed.
    For the next 6 months she was held in virtual confinement. 
She was guarded 24 hours a day, even when she went to the 
bathroom. She was forced to prostitute herself. She received no 
money. She had no hope of escape. She was rescued when the 
brothel was raided by police. They arrested her and charged her 
with working without a visa. They arrested the brothel manager 
and charged him with procuration, but he was later released. 
They did not attempt to arrest the brothel owner or to identify 
the traffickers.
    The young women were interviewed, and those who were not 
citizens of the country were charged as illegal aliens, 
transferred to a women's prison, where they awaited 
deportation.
    A medical examiner there found that Lydia had several 
sexually transmitted diseases. She had scar tissue from three 
forced abortions. In addition, she was addicted to drugs, she 
was physically weak, she was spiritually broken. There was no 
one to speak for her.
    She feared her future because she knew her keepers. They 
had the networks, the power, and the resources to track her 
down, to rekidnap her, to bring her back again. They could hurt 
her family, and had an interest in doing so because, unlike 
drugs, where the product can be sold only once, when you 
commodify a human being, that person can be sold over and over 
and over again. The risk is low, the potential profits are 
high, and girls like Lydia are a real target.
    There was no one who seemed to care about Lydia's life. The 
authorities do not have the resources or the interest in 
tracking down the organizations of individuals in the 
trafficking chain, from the woman who drugged her to the agent 
who brought her across the border, to the agent who broke her 
will, to the brothel managers, brothel owners, and then those 
on top who are creaming profits from this operation.
    In addition, there are corrupt law enforcement officials 
involved, because the process of getting Lydia and the other 
thousands of women who are being moved across borders, and 
keeping the brothels running, involves pay-offs to local border 
patrols in both countries, as well as to visa officials and 
police in the country of origin and in the destination country.
    In short, Lydia is without protection, and the traffickers 
have bought theirs.
    Now multiple Lydia's story by hundreds of thousands, and a 
picture of the scope of the problem emerges. UNICEF is 
estimating 1 million children forced into prostitution in 
Southeast Asia alone, and another million worldwide.
    An estimated 250,000 women and children from Russia and the 
Newly Independent States of Eastern Europe are trafficked into 
Western Europe, the Middle East, Japan, Canada, and the United 
States each year. An estimated 500,000 children per year from 
Brazil are trafficked into prostitution, making Brazil the 
Thailand of South America. In addition, thousands of women and 
children from Central American countries like Guatemala and El 
Salvador are being trafficked for purposes of commercial sexual 
exploitation.
    We heard from the Department of State that over 50,000 
women and children are trafficked into the U.S. per year, and 
there are countless thousands of others in Africa, where we 
know the problem is great but we have very little statistical 
information to guide us.
    Where are these women and children trafficked? I have 
produced some maps.
    Senator Brownback. We have some easels over there, if that 
can help you, or if you just want to hold them up we can do 
that as well.
    Dr. Ledrere. I actually had a packet for the Senators so 
they could follow.
    Senator Brownback. I have that packet. I think that is in 
our notebooks.
    Dr. Ledrere. These maps show the trafficking is not just a 
problem in the few regions we have heard of, such as Eastern 
Europe and Southeast Asia, but in fact when you take into 
account the sender, receiver, and transit countries, almost 
every country in the world has a trafficking problem right now.
    For example, trafficked women and children from Russia, 
Eastern Europe, and the Newly Independent States have been 
found in over 40 countries worldwide. Women and children from 
Southeast Asia are trafficked as far as Canada, the United 
States, Japan, and the Middle Eastern countries, as well as to 
neighboring nations in Southeast Asia. Central American women 
and children have been discovered in Mexico, the United States, 
and Canada, but in addition they are also trafficked across the 
Atlantic Ocean to Spain, Portugal, Belgium, the Netherlands, 
and other Western European countries.
    Senator Brownback. Hold on just a second here. Can we get 
these charts up? You have done a lot of work on pulling those 
together. Just tell us where you are in your booklet that you 
have got here. I am on tab 5.
    Dr. Ledrere. Tab 4 is the trafficking from Russia and the 
Newly Independent States. Every line you are seeing on this 
map, or these maps, represents a police arrest in the country 
of a trafficking network involving traffickers from several 
countries, and moving large numbers of women and children, so 
these are the trafficking routes from Russia and the Newly 
Independent States that you are looking at.
    The next tab is trafficking from Asia and Southeast Asia to 
various Western European, U.S., and Middle Eastern countries, 
and I should say that these routes are by no means 
comprehensive. What we are doing is tracking the police arrest 
records when they have a press release, footnoting them and 
putting them on, so there may be many, many other places that 
these women and children are being trafficked to.
    The next is the trafficking routes to the middle East come 
from the Eastern European countries, Southeast Asia, and 
Africa, into mostly the Gulf States in the Middle Eastern 
countries, and finally the trafficking routes in Africa, and 
here we have done a lot of work over the past couple of months 
to document trafficking within Africa to various African States 
that are then transit States to Western Europe, a lot of 
trafficking to Western Europe, a lot of trafficking from Africa 
to the Middle Eastern countries and to the U.S. and Canada.
    And finally, with the help of the Intelligence Division at 
the State Department we did create--the last tab is the 
trafficking routes into the United States. We have not 
completed where they are coming from, but these are the 20 
largest cities that we know are destination points in the 
United States for women and children who are being trafficked, 
and there is one more map, the last tab, Mr. Chairman, which is 
the male tourist routes to sex destinations.
    From almost every conceivable first world or developed 
country men are traveling to the Caribbean, to Africa, to Asia, 
and Southeast Asia for if not professionally organized sex 
tours, then just on their own, to use and abuse women and 
children in brothels in these areas, so the women are children 
are trafficked sometimes within borders to brothels, and then 
the men are traveling, are doing the traveling themselves to 
the women and children.
    [The prepared statement of Dr. Lederer follows:]

               Prepared Statement of Dr. Laura J. Lederer

                              introduction
    Mr. Chairman and subcommittee members, it's a pleasure to be here. 
I am Laura Lederer, Director of the Protection Project at the Kennedy 
School of Government, Harvard University. I am happy to be able to 
share some of the preliminary findings of the Protection Project.
    The purpose of the Protection Project is to build a comprehensive 
database of laws and related materials on the commercial sexual 
exploitation of women and children. For the last four years I have been 
documenting the laws on trafficking, slave trading, kidnapping, and 
rape, as well as prostitution and surrounding activities, including 
pimping, pandering, procuring, soliciting, brothel and bawdy house 
laws, and other related statutes. In addition, I have been tracking the 
ways countries address child prostitution, child pornography, 
corruption of a minor, and child access to pornography. I have 
collected statutes on these issues from over 230 countries and 
territories around the world.
    In addition, I have been examining the range of penalties, defenses 
to the charges, sentencing patterns, extra territoriality and 
extradition treaties, law enforcement capability, victim assistance 
programs, and other related matters. Collection of data has been taking 
place through series of questionnaires. The preliminary database is 
complete; we are hoping to finish the entire first phase of 
documentation by the end of this year. My testimony is based on the 
information we have gathered over the past several years and addresses 
the scope of the problem worldwide.
                          what is trafficking?
    Before I begin, let me add to what has already been said about the 
definition of trafficking. Trafficking is a global human rights 
problem, of which the majority of victims are women and children. Let 
me illustrate what trafficking is by telling you Lydia's story--an 
amalgamation of several true stories of women and girls who have been 
trafficked in the Eastern European area in recent years.
    Lydia was 16 and hanging around with friends on the streets in [and 
here you can fill in the name of any of the sender countries--the 
Ukraine, Russia, Romania, Lithuania, the Czech Republic] when they were 
approached by an older beautifully dressed woman who befriended them 
and told them that they were so nice looking, she could get them part 
time jobs in modeling.
    She took them to dinner, bought them some small gifts, and when 
dinner was over, invited them to her home for a drink. Taking that 
drink is the last thing Lydia remembers. The woman drugged her, and 
handed her and her friends over to another agent, who drove them, 
unconscious, across the border into [and here fill in any one of the 
receiver countries--Germany, the Netherlands, Italy, the Middle East--
even as far as Japan, Canada, or the United States].
    When Lydia awoke, she was alone, in a strange room, in a foreign 
country. Her friends were gone. Awhile later a man came into the room 
and told her that she now belonged to him. ``I own you,'' he said. 
``You are my property and you will work for me until I say stop. Don't 
try to leave. You have no papers, no passport, and you don't speak the 
language.'' He told her if she tried to escape, his men would come 
after her and beat her and bring her back. He told her that her family 
back home would be in danger. He told her that she owed his agency 
$35,000 which she would work off in a brothel by sexually servicing 10-
20 men a day.
    Stunned, angry, and rebellious, Lydia refused. The man then hit 
her, beat her, and raped her. He sent friends in to gang rape her. She 
was left in a room alone, without food and water, for three days. 
Frightened and broken, she succumbed. For the next six months, she was 
held in virtual confinement and forced to prostitute herself. She 
received no money. She had no hope of escape. She was ``rescued'' when 
the brothel was raided by the police. They arrested the young women and 
charged them with working without a visa. They arrested the brothel 
manager and charged him with procuration, but he was later released.
    They did not attempt to arrest the brothel owners or to identify 
the traffickers. The girls were interviewed, and those who were not 
citizens of the country were charged as illegal aliens and transferred 
to a woman's prison, where they awaited deportation. A medical examiner 
found that Lydia had several sexually transmitted diseases. She had 
scar tissue from three forced abortions. In addition, she was addicted 
to drugs, was physically weak, and spiritually broken. There was no one 
to speak for her. She feared the future because she knew her keepers. 
They had the networks, the power, and the resources to track her down, 
kidnap her, and bring her back again. They could hurt her family and 
had an interest in doing so, because unlike drugs, where the product 
can be sold only once, when you commodify a human being, she can be 
sold over and over again. The risk is low and the potential profits are 
high, so girls like Lydia are a real target.
    There is no one who seems to care about Lydia's life. The 
authorities don't have the resources or the interest in tracking down 
the organizations of individuals in the trafficking chain--from the 
woman who drugged Lydia, to the agent who brought her across the 
border, to the agent who broke her will, to the brothel managers and 
brothel owners. In addition, some corrupt law enforcement officials 
must be involved because the process of getting Lydia (and the other 
thousands of women and children being moved) across the border, and 
keeping the brothels running involves payoffs to local border patrols 
for both countries, as well as to visa officials and police in the 
country of origin, and local police in the destination country. Lydia 
is without protection; the traffickers have bought theirs.
                          scope of the problem
    Now multiply Lydia's story by hundreds of thousands and a picture 
of the scope of the problem emerges.

  <bullet> UNICEF estimates that 1 million children are forced into 
        prostitution in Southeast Asia alone, and another 1 million 
        worldwide.

  <bullet> An estimated 250,000 women and children from Russia, the 
        Newly Independent States, and Eastern Europe are trafficked 
        into Western Europe, the Middle East, Japan, Canada, and the 
        United States each year.

  <bullet> An estimated 500,000 children per year from Brazil are 
        trafficked into prostitution, making Brazil, according to 
        experts, the ``Thailand'' of South America.

  <bullet> In addition, thousands of women and children from Central 
        American countries such as Guatemala and El Salvador are being 
        trafficked for purposes of commercial sexual exploitation.

  <bullet> According to the Department of State, over 50,000 women are 
        trafficked into the United States per year.

  <bullet> And then there are the countless thousands of women and 
        children in Africa, where we know the problem is great, but 
        have little accurate statistical information to guide us.

    Where are these women and children trafficked? The Protection 
Project has created a set of trafficking maps to begin to delineate the 
trafficking routes and patterns. The maps show that trafficking is not 
just a problem in a few regions, such as Eastern Europe or Southeast 
Asia. In fact, when you take into account the sender, transit, and 
receiver countries, almost every country in the world has a trafficking 
problem of one sort or another. For example, trafficked women and 
children from Russia, Eastern European countries and the Newly 
Independent States have been found in over forty countries worldwide. 
Women and children from Southeast Asia are trafficked as far as Canada, 
the United States, Japan, and the Gulf States of the Middle East, as 
well as to neighboring nations. African women and children are 
trafficked to wealthy Middle Eastern countries, Western European 
countries, as well as North America. Central and South American women 
and children have been discovered in Mexico, the United States, and 
Canada, but in addition, they are also trafficked across the Atlantic 
Ocean to Spain, Portugal, Belgium, the Netherlands, and other Western 
European countries. Every line you see on these maps represents a 
police arrest of a trafficking network involving traffickers from 
several countries and moving large numbers of women and children.
    Accounts of the arrests police have made show that women are being 
sold for as much as $16,000 each to brothel owners. When rescued, women 
tell stories of debt bondage and sexual slavery in which they were 
forced to work off a $20,000; $30,000; or $40,000 ``debt'' to 
traffickers by servicing dozens of men a day. These numbers and the 
accompanying accounts illustrate that trafficking of women and children 
for purposes of prostitution has become a contemporary form of slavery. 
The numbers may soon be on par with the African slave trade of the 
1700s.
                         why document the laws?
    We must document the laws of individual countries because the 
trafficking is international but all the laws addressing the problem 
are national. There are virtually no international laws with 
enforcement capability. While the United Nations conventions such as 
the Convention on the Rights of the Child and the Convention on the 
Elimination on All Forms of Discrimination against Women play an 
important role in setting international norms, they have no enforcement 
capability by themselves. Countries must draft and pass penal code 
statutes that specifically address each of these commercial sexual 
exploitation issues if they wish law enforcement officers to have the 
tools to arrest, charge, and prosecute traffickers.
    Once we have documented all the laws, we can examine them for their 
strengths and weaknesses. For example, we have found that the penalties 
for procuration with movement, an older type of trafficking law, are 
most often 1 to 3 years. This is a very light sentence for this type of 
crime. On the other hand, we have also documented draconian sentences 
(such as beheadings) for maintaining a brothel. A comparative analysis 
of the present laws can help us draft a set of model statutes for 
consideration by countries which wish to strengthen their existing 
laws, or draft new laws to address new forms of trafficking.
         the three p's: prevention, prosecution, and protection
    The best legislation would cover what we call ``The Three P's''--
prevention of trafficking, prosecution of traffickers, and protection 
(social services and other programs) for trafficking victims.
    We have found that more than 154 countries currently have 
legislation that at least minimally targets the prosecution of 
traffickers by prohibiting the procuration of women and children for 
the purposes of prostitution or forced labor. Most of these laws were 
drafted between 1912 and 1960 to address early waves of trafficking. 
They are mainly laws prohibiting procuration, procuration with 
coercion, and/or procuration within and across borders. However, these 
laws are often poorly, if ever, enforced.
    In fact, we find that the prostitution laws, which are aimed at 
women and children, are enforced, while the procuration laws, aimed at 
the traffickers, are almost never invoked. The third party in the 
trafficking triangle, the customer, is virtually ignored in the laws of 
most countries. This is another area where creative legislation could 
help to produce demand reduction in the long term.
    To date, few countries have developed programs to prevent 
trafficking by educating women and children about how to avoid being 
trafficked, educating men and boys not to sexually exploit women and 
children, educating government officials about how to prevent 
trafficking, or providing economic opportunities that will make women 
and children less vulnerable to the lies and promises of traffickers.
    In addition, few countries have the kinds of laws that protect 
victims of trafficking, or services that will help them recover and get 
on with their lives. As a result, women who have been forced into 
prostitution often end up in jail awaiting deportation, and go back to 
their homeland sick, drug-addicted, unemployed and unemployable, and 
filled with shame and fear. Some have suggested that we make use of 
women's shelters for domestic and other forms of violence, but our 
preliminary research shows that trafficking for purposes of 
prostitution is a particular kind of crime that produce a particular 
kind of victim, one who needs comprehensive services, in many services 
that we do not currently have available in the forms required.
    Finally, countries wishing to eliminate trafficking must work on 
all three ``P's.'' For example, prevention programs without protection 
(social services) for those already trafficked would not solve the 
problem. And even the best protection programs such as those being 
developed in certain Western European countries are little more than 
immense mop-up jobs at the back end without vigorous efforts to 
prosecute traffickers and stop the trafficking.
                               conclusion
    As a number of witnesses have pointed out, trafficking often 
originates in countries with poverty and few opportunities for women. 
But regardless of the root causes, it is important for countries to 
draft, pass, and enforce strict laws prohibiting trafficking and its 
surrounding activities. A country's laws and law enforcement efforts 
make a statement about its priorities. Based on our preliminary 
findings, we expect that trafficking will continue to increase in the 
absence of specific, strict, enforceable laws aimed at prevention, 
prosecution, and protection.
    Mr. Chairman, as someone who has worked in this field for 20 years, 
it is exciting to see the subcommittee's leadership on this important 
issue. I am happy to see it recognized as a major human rights 
priority. It is time to move beyond conferences, travel tours, and 
expressions of shock to a coordinated effort to criminalize the conduct 
of these interlocking rings of businessmen, modem Mafia, and corrupt 
government officials. The United States is perhaps the only country 
right now that can play a leadership role in encouraging countries to 
address the problem of trafficking. U.S. leadership is important not 
only because of our interest in promoting basic human rights, but also 
because it serves the American national interest. One of the hallmarks 
of the 21st century will be the emancipation of women worldwide. The 
issue of commercial sexual exploitation of women and children is one 
that is perhaps last, but definitely not the least, to be examined and 
addressed by our society. Your effort, Mr. Chairman and subcommittee 
members will put America on the right side of history as women gain 
equality and dignity. We are the people who can help young women and 
girls like Lydia--by drawing attention to their plight, helping nations 
strengthen their laws to catch and prosecute traffickers, and finding 
the ways to prevent and protect young women and children from 
commercial sexual exploitation.

    Senator Brownback. Is this an active tourist industry that 
is advertised, that is well-known, the male tourist routes to 
sex destinations?
    Dr. Ledrere. Well, I am not an expert on the sex tourism 
industry. I know that there has been quite a bit of work done 
on the industry in Japan, but there has been some government 
attention to that recently, and I know that in our own country 
the Justice Department is focusing some investigation on a few 
of the industries that are out. Most of them are fairly well- 
hidden and just known underground by those who know what they 
want to do.
    Senator Brownback. Well, thank you very much, Dr. Lederer, 
and we will have questions for you. That is excellent 
testimony. We want to follow up with that.
    Mr. Haugen, you have worked a lot in this area as well. We 
look forward to your testimony.

 STATEMENT OF GARY A. HAUGEN, DIRECTOR, INTERNATIONAL JUSTICE 
                    MISSION, WASHINGTON, DC

    Mr. Haugen. Thank you very much, Mr. Chairman, and Senator 
Wellstone as well. I appreciate your leadership on this issue. 
Just to explain a little bit about who I am, Gary Haugen is my 
name. I am the Director of the International Justice Mission, 
and the reason we have come to know something about this issue 
is that we receive referrals of human rights abuses from faith-
based workers who are sent overseas as missionaries, relief and 
development workers, or doctors, and they see human rights 
abuses in the communities where they are working but do not 
know what to do with them, so we give them a place to send 
those concerns, and we deploy investigators to try to bring 
relief.
    Of course, it turns out, in the world we live in, as you 
know, much of what would come our way is forced prostitution, 
international trafficking for sexual purposes. So, what I have 
to offer today is perhaps some insights into how this actually 
works in the streets where the massive numbers occur.
    That is to say, as Dr. Lederer pointed out, there are a 
million children this year who will be forced into 
prostitution, and they will come largely from South Asia and 
Southeast Asia. These are the places where our investigators, 
who are law enforcement professionals, generally have been 
infiltrating the brothels, identifying specific children and 
women who are being held, using surveillance equipment to 
document that, and then working with secure police authorities 
to get them taken out.
    So I would like to just add some comments about how this 
actually works in the streets so that from that we can 
understand how we might effectively obstruct it, and I think 
the most powerful way is to try to give three very brief 
vignettes.
    The first one is a girl named Jayanthi, and that is her 
face, and I think she should be present here with us, a 14-
year-old girl living in a poor village north of Bombay. She 
gets on a train to go back to her village, because she has made 
some money doing some domestic service. Four women give her 
some tea that has been drugged. She falls asleep. She is 
transported to Bombay. She is sold into a brothel for a few 
hundred dollars, locked away in a third floor windowless room, 
and beaten for 3 days until she relents. She is beaten with 
plastic pipes and electrical cord, burned with cigarettes. She 
is actually bitten, whatever it takes to make her succumb to 
the rape of the customers. From that point on, from the point 
when she was 14 years old to the age of 17, she must service 
about 20 customers a day.
    The other is a girl named Sumita, 12 years old, also living 
in a poor village outside Bombay. Her mother dies. Her father 
wants to marry her off to an older man in the village. She does 
not want that. She gets on a train, goes to Bombay, she is 
alone and penniless in Bombay. A man notices her at the train 
station, says hey, there is a job in a restaurant, come with 
me. He takes her over to a place where he sells her into a 
brothel. She again is just beaten until she submits, and must 
service many, many customers a day.
    Then the next example is a woman who has actually testified 
before the U.S. Congress, and her name is Anita. She also was 
just on a bus in Nepal, taking her vegetables to market. She 
was drugged, transported to Bombay, sold into the brothel, and 
beaten again until she relents.
    All of them eventually get out, partly through the work of 
the International Justice Mission to get them out, and through 
them we learn something of how this operates, and this is the 
fundamental point that I want to make, is that the driving 
force behind international sexual trafficking is the toleration 
of forced prostitution on a massive scale in these large 
cities.
    You think about it. Why does the international trafficker 
go to all the trouble of transporting a woman or a child to a 
location in order to sell her? Why does he try to make money 
that way? It is because he has the complete confidence that 
there will be a buyer for his merchandise, someone who is not 
at all concerned, oh dear, you've brought me a woman who is 
forcibly trafficked into prostitution, I don't know what to do 
with her.
    No. It is a very frequent trade. The way this operates is 
that if you run a brothel, you are just trying to meet the 
demand of men wanting to buy sex. Now, there are two ways you 
can meet that demand. You can offer them relatively voluntary 
commercial sex workers, or you can meet the demand through 
someone who has been trafficked in by force.
    It costs less to offer up a slave for that. Of course, the 
risk is that you might get caught, but if there is no risk of 
being caught, then you are always generally going to choose, to 
the extent you can, the merchandise of the trafficker. As this 
operates, therefore, if there is a free and flourishing trade 
in forced prostitution, it will attract people to traffic women 
and children from across the borders by force.
    Imagine this. If the brothel, however, is completely afraid 
of local law enforcement shutting them down and getting in 
trouble, they will say, take that child or woman away from 
here. I cannot buy that. Then the trafficker has no place to 
take the child, and they do not get into the business.
    Which leads me to my central point that I would like to 
make. It is that forced prostitution, and therefore 
international sexual trafficking, comes down to whether or not 
local law enforcement tolerates forced prostitution. You can 
imagine how completely impervious a brothel-keeper is today to 
international treaties, international covenants, congressional 
legislation, if he is not going to get into trouble today from 
somebody.
    So the question is, how do you actually move law 
enforcement from friend of forced prostitution to foe of forced 
prostitution. Because in the cities where we operate you see 
the police, and you watch them, they collect their bribes. You 
can set your watch by their arrival. You can see them in the 
brothels collecting their bribes in kind. You can see them 
delivering food. You know that certain police actually bribe 
their way within the police jurisdiction so they can be 
assigned to the red light district, because that is where they 
can make the most money.
    And so how do you switch law enforcement from being the 
necessary partner of forced prostitution to being the foe of 
it, and there is a number of things in our written testimony 
addressing this, but there are two key factors from what we can 
learn from our own experience.
    The first is that police respond to whatever the priorities 
are of the senior political authorities. That is to say, the 
police are part of a command structure. You need to do what the 
authorities above you set forth as a priority. So how do you 
shift priorities? It is our strong feeling that there is 
definitely a consensus among senior political leaders in these 
countries that this is a good idea, to fight forced 
prostitution, but the number of good ideas on their plate is 
large.
    The question is, how do you move it from being just a good 
idea to an urgent priority? We feel from our experience with 
these authorities that they will only move this to a matter of 
urgency if they feel something bad will happen if they do not. 
Because the victims themselves exercise no political influence 
of any substance or tremendous power. So, they need to feel 
that there is something that will happen negative to them that 
matters to them if they do not take this seriously.
    But even if it becomes a priority, the second issue is that 
you have to give law enforcement tools to fight. You have to 
give them training and resources, and here I think there are at 
least two very positive areas where U.S. policy can make a 
difference.
    I believe it is necessary to actually have some reduction 
in the positive nature of the relationship with the United 
States. If by some clear and minimal benchmark those 
authorities are not willing to do some very minimal things, 
which at least at bottom ought to be getting their law 
enforcement out of the business. This is not hard to document. 
We could go to any of these jurisdictions, and it would be very 
easy to see the law enforcement involvement.
    But the second is, you cannot be just a foe. You cannot be 
just a negative with them. That will not be well-received. 
There are also ways for us to relate positively to law 
enforcement. All of the work that we do on extraction actions 
to get these children out is done in cooperation with good 
people within local law enforcement in these jurisdictions in 
Asia and South Asia. So, it is important to strengthen them, 
give them opportunities to form special units to actually be 
able to take these children out. For example, law enforcement 
overseas generally never conducts undercover operations, very 
simple things that could be improved upon.
    So our emphasis here is, I think, to try to offer the 
insight, and the way to shut down international trafficking is 
to shut down the center, the magnet that provides the incentive 
for international traffickers, and the way to do that is 
impossible without impacting the local law enforcement in the 
streets.
    [The prepared statement of Mr. Haugen follows:]

                  Prepared Statement of Gary A. Haugen

         international sexual trafficking of women and children
    My name is Gary Haugen and I serve as the President of the 
International Justice Mission. I would like to extend my sincere thanks 
to Chairman Brownback for convening this hearing and for inviting me to 
participate.
    It takes a great deal of courage to initiate public discussion of 
sexual trafficking. We are quite naturally repulsed by the revolting 
nature of the evil, and overwhelmed by the magnitude of the problem. 
Instinctively, no one wants to look upon the rapes, beatings, and 
psychological horror of sexual trafficking, and no one wants to 
confront the numbing statistics about the hundreds of thousands of 
women and children who are subjected to these abuses each year around 
the globe. Moreover, these abuses are never likely to personally 
threaten us, our loved ones, our neighbors, or anyone who might vote 
for us. Consequently, it's hard not to turn away from a problem so 
ugly, so big, so remote.
    In my opinion, it takes extraordinary leadership to look this evil 
squarely in the face, and to find beyond its ugliness the beauty and 
worth of these women and girls who are more like us and our own than we 
dare to imagine, who suffer these abuses one at a time, and who suffer 
largely because good people do nothing.
    Accordingly, I am grateful to Senator Brownback and this Committee 
for the courage manifest in convening this hearing, for listening to 
the stories of these women and children, and for changing everything by 
agreeing that we will no longer do nothing.
    By way of background, the International Justice Mission (IJM) is an 
international human rights agency that provides a hands-on, operational 
field response to cases of human rights abuse referred to us from 
faith-based ministries serving around the world. Churches in America 
send out tens of thousands of doctors, teachers, missionaries and 
humanitarian aid workers around the world. Frequently these workers 
observe severe human rights abuses in the communities where they serve. 
These workers refer these cases to us, and then we conduct a 
professional investigation to document the abuses and mobilize 
intervention on behalf of the victims.
    Many of these cases referred to us involve women and children being 
held in forced prostitution. Accordingly we deploy criminal 
investigators to infiltrate the brothels, use surveillance technology 
to document where the women and children are being held, and then 
identify secure police contacts who will conduct extraction actions 
with us to get the children out. We then coordinate referral of these 
children for appropriate after care. We find that a significant 
percentage of these women and children have been trafficked across 
international borders.
    So, I offer these remarks today not as a public policy expert but 
as the director of an agency with hands-on experience in the underworld 
of sexual trafficking especially in South Asia and Southeast Asia. Our 
mission is simple: we find where the women and children are being held 
in forced prostitution, we remove them, and we secure them in places of 
compassionate after care.
    Accordingly, I hope to offer some insights from our experience in 
the field about the dynamics of international sexual trafficking. 
Perhaps the best way to do so is by introducing you to three women from 
South Asia--``Jayanthi,'' ``Sumita,'' and ``Anita''.
    ``Jayanthi'' grew up in a poor rural area in India north of Bombay. 
When she was 14 years old and riding a train back to her home village, 
four women tricked her into drinking some drugged tea and transported 
her unconscious to Bombay. The women knew that they would find a ready 
buyer for their merchandise within the brothels of Bombay's red-light 
district. Indeed, like thousands of other women and girls each year, 
``Jayanthi'' was sold into a Bombay brothel for a few hundred dollars 
where she was locked away in a windowless room and beaten until she 
agreed to provide sex to the customers. Through beatings with plastic 
pipe, metal rods, and electrical wires, Jayanthi was forced to provide 
sex to about 20 customers a day for the next three years.
    ``Sumita'' was 12 years old when she arrived as a penniless runaway 
at Victoria station in Bombay. Her mother had just died, and when 
Sumita learned that her father was trying to marry her off to an older 
man in the village, she jumped on a train for Bombay. Arriving alone 
and destitute in the city, ``Sumita'' was spotted by a man at the train 
station who offered to get her a job at a restaurant. She eagerly 
followed him across town and soon found herself not in a restaurant, 
but in a brothel where she was effortlessly sold into prostitution for 
less than $200. After days of beatings ``Sumita'' said she felt like 
``a bird with broken wings'' and submitted to the customers.
    ``Anita'' was a twenty-six year old mother of two in Nepal when she 
was abducted off a bus while on her way to the vegetable market. The 
traffickers drugged her and loaded her onto a train bound for India 
where they knew they could readily sell her into a brothel in Bombay. 
When ``Anita'' regained consciousness across the border, she could feel 
small plastic bags bound to her waist beneath her garments. Her 
kidnapper told her that bags of Hashish had been strapped to her body 
and warned that if she sought help from the police, they would throw 
her into jail for smuggling drugs across an international border. 
Accordingly, ``Anita'' silently and fearfully endured a five-day train 
ride to Bombay, where she was indeed sold into a brothel. Amidst crying 
and howling, ``Anita'' was locked away in a windowless second-story 
room for four days and beaten with metal rods until she submitted to 
the rape by her first customer. From then on, she was forced to service 
about four customers per day.
    Eventually, the International Justice Mission was able to 
facilitate the release of these young women from these brothels, and 
the interrelationship of their stories help us understand the dynamics 
of international sexual trafficking.
    Obviously, if we want to help the victims of international sexual 
trafficking and shut down the business, we need to understand how it 
works. Accordingly, our experiences in the field teaches us four 
principles:

          1. International sexual trafficking is driven by what is 
        tolerated in the country of final sale--the country where the 
        customer actually purchases sex for money. In other words, it 
        is the country that effectively tolerates forced prostitution 
        at the point of final sale that drives the market demand for 
        international sexual trafficking.

          2. Whether forced prostitution is effectively tolerated is 
        driven by the quality and vigor of local, street level, law 
        enforcement.

          3. The quality and vigor of local law enforcement's response 
        to forced prostitution is driven by (1) the priorities of 
        senior level political authorities, (2) the clarity and 
        comprehensiveness of the criminal law and (3) the quality of 
        resources and training provided to local law enforcement.

          4. All efforts to combat international trafficking are 
        impacted by the victim's eagerness to seek help and to 
        cooperate in prosecution, and the greatest obstacles to such 
        cooperation are the immigration laws and authorities that treat 
        the victims as criminals.

    I would like to elaborate on each of these points:
1. International sexual trafficking is driven by what is tolerated in 
        the country of final sale--the country where the customer 
        actually purchases sex for money.
    Traffickers abduct and fraudulently transport women and children 
across national borders because they are confident there is a willing 
buyer to pay them for their effort. They know there is a brothel owner 
who will eagerly receive their human contraband and pay handsomely for 
it. Of course, the brothel keeper eagerly receives the women and 
children who have been trafficked by force, fraud or coercion because 
the brothel owner knows that forced prostitution is effectively 
tolerated. There is a willing buyer for these women and children 
because the brothel keepers feel perfectly comfortable trading in the 
sale of human beings. They operate without fear of effective criminal 
sanction.
    It is the sheer ease with which forced prostitution operates in 
certain countries that creates the financial incentive for 
international traffickers. This is why the stories of ``Jayanthi'' and 
``Sumita''--the two victims of domestic sexual trafficking--are so 
important to ``Anita's'' story of international sexual trafficking. The 
ease and dependability with which ``Jayanthi'' and ``Sumita'' and 
thousands like them are sold into forced prostitution provides the 
international sexual trafficker with the necessary confidence that 
there will be a thriving market for his merchandise.
    In the red-light districts that the IJM infiltrates in South Asia 
and Southeast Asia, tens of thousands of women and children are bought 
and sold with the same ease with which you and I might haggle over a 
used car.
    Of course, the coercive nature of the sex trade is powerfully 
masked behind dark, padlocked doors and hidden corridors. The 
deprivations of food, the beatings with electrical wires, metal rods, 
and leather straps, the cigarette burns, and the brutal rapes are 
conducted in the hidden rooms and upper floors where, if you can get to 
them, you can find women and children locked in literal cages. This we 
have seen with our own eyes. Down below and up front, at the more 
public street level in the red-light district, the girls who have been 
beaten into resignation mingle with women who have chosen to be 
prostitutes and together they present a seemingly harmless and willing 
face for the commercial sex trade. You would utterly miss the point if 
you began to ask them whether they were working as prostitutes 
voluntarily, for most would shrug their shoulders and say ``Yes.'' But 
ask them to tell you about their first customer, and there always is a 
first customer, and you are likely to get a very different story. A 
story of abduction and kidnapping. Or a story of fraudulent marriage in 
which they were taken from their family and simply sold into a brothel. 
A story of being lured into town with promises of work in a restaurant 
or hair salon only to be sold into a brothel, beaten into submission, 
subjected to a nightmare beyond imagining, and in time resigned to 
their despoiled life.
    Obviously, such a vast and brutal industry is able to operate only 
because it is tolerated by the civil authorities of the country. At the 
International Justice Mission, we work in jurisdictions in Asia where 
the police bribe their way within the police department in order to get 
assigned to the red-light district because that's where they can make 
the most money protecting the brothels. We sit and watch the police 
arrive on schedule to pick up their weekly bribes, or find them, 
without much embarrassment, receiving their payment in-kind. We see 
police delivering food to the brothels so the keepers don't have to let 
the girls out for meals. We know there are doctors that oversee the use 
of drugs to stupefy trafficking victims, and almost anyone from the 
highest concierge to the lowest cab driver is eager to help you find 
``little girls.''
    This is the environment that provides the dependable market for 
international sexual trafficking. Ratchet up the cost of doing business 
in forced prostitution, and you dry up the demand for women and girls 
who have been coercively or fraudulently trafficked. The brothels won't 
want them because they will be too much trouble; but, at the moment, 
they're no trouble at all.
2. Whether forced prostitution is effectively tolerated is driven by 
        the quality and vigor of local, street level, law enforcement.
    Brothel keepers are impervious to the power of the international 
community's resolutions, treaties, covenants and protocols unless they 
impact the conduct of the police officers or constables in their 
streets. Unless the brothel keeper actually gets in serious trouble 
with the civil authorities, he's going to keep doing what he's doing. 
There is just too much money to be made. In most countries, the problem 
is not so much with the criminal laws addressing forced prostitution 
(although important improvements need to be made here as well) the 
problem is with the enforcement of the law. Ask the victims of sexual 
trafficking here about the meaning of their country's laws against 
forced prostitution or international laws against sexual trafficking. 
They will tell you that the only law they know is the man who walks 
their streets with a stick and a gun.
    International sexual trafficking depends upon a flourishing local 
trade in forced prostitution, and you cannot combat forced prostitution 
at a distance. Public policy must reach the dirty streets, or it won't 
reach the victims of sexual trafficking.
    How then do we invigorate local law enforcement against forced 
prostitution? This question leads to our third point.
3. The quality and vigor of local law enforcement's response to forced 
        prostitution is driven by: (1) the priorities of senior level 
        political authorities, (2) the clarity and comprehensiveness of 
        the criminal law and (3) the quality of resources and training 
        provided to local law enforcement.
    It is possible for U.S. Government policy to affect local law 
enforcement. Every local law enforcement jurisdiction around the world 
makes a choice between being the friend of forced prostitution or the 
enemy of forced prostitution. Of course, choosing to do nothing is 
choosing to be its friend. Therefore, there must be forces at work to 
move local law enforcement to change sides, to become the enemy of 
forced prostitution. In this process, the influence of U.S. policy is 
limited, but it can be part of a combination of forces that eventually 
tip the local scales of decision-making toward a decision to fight.As 
mentioned, however, there are three primary forces working on local law 
enforcement: () political priorities of authorities at the top of the 
chain of command, (2) clarity and comprehensiveness of the law, and (3) 
local law enforcement resources and training. This is where an 
appropriate combination of carrots and sticks in U.S. policy can make a 
difference. First, every law enforcement officer is part of a chain of 
command. Eventually, the enforcement officer in the street manifests 
the priorities of those at the top of the chain of command. If forced 
prostitution is not an absolutely urgent priority of the most senior 
political and public authorities in the country, then the powerful 
market forces at work on the street will always make local law 
enforcement the active or passive friend of forced prostitution.
    And, as it turns out, U.S. policy toward a country can have a very 
powerful effect upon the priorities of a nation's most senior 
authorities who sit on top of local law enforcement's chain of command. 
And here it must be observed that these public officials will move an 
issue from the ``good idea'' column and into the ``urgent priority'' 
column only when they think something bad will happen if they don't. 
This is why senior government authorities may be pushed to the point of 
making forced prostitution an ``urgent priority'' through a sense that 
something bad is going to happen in their relationship with the U.S. 
Government if they don't.
    Let's face it. The victims of forced prostitution generally come 
from the most powerless and vulnerable sectors of the society. This is 
especially the case, in developing countries. The victims are first and 
foremost, the poor, the children, and the women. They simply do not 
constitute a powerful or even significant political constituency. And 
yet, if the goodies that flow from a country's relationship with the 
world's only remaining superpower and the world's largest economy are 
jeopardized by a failure to respond to an issue, then that issue can 
take on an utterly fresh sense of urgency. This is where the stick of 
negative consequences in U.S. policy can have a powerful and 
occasionally decisive impact. It can reorganize the priorities of 
senior officials. And they in turn will reorganize the priorities of 
those who report to them.
    The first and most basic reorganization of priorities should be as 
follows: the U.S. Government should insist that local law enforcement 
get out of the business of forced prostitution. Everywhere that the IJM 
confronts forced prostitution in the world we find police taking 
protection bribes from the brothels, assisting in the harboring of 
victims, tipping off brothels about police raids, and even occasionally 
operating the brothels themselves. Active police complicity is not hard 
to find, it's hard not to find. In countries where there is rampant 
forced prostitution, credible evidence of police collusion would not be 
difficult for any U.S. Embassy to document. And on the basis of such a 
finding, it seems a rather modest requirement to insist that countries 
that seek aid and good relations with the United States not be active 
collaborators in the business of rape for profit.
    Finally, even urgent law enforcement priorities cannot be 
vigorously and effectively pursued without clear and comprehensive 
criminal laws or without resources and training that equips street 
level law enforcement to be effective. This is the carrot of U.S. 
policy. We can assist in the development of clear and comprehensive 
statutory definitions of the crimes of forced prostitution and sexual 
trafficking. The U.S. Government can provide targeted assistance to 
foreign governments for resourcing and training special units to fight 
forced prostitution and international sexual trafficking. All of the 
work that the IJM has done in physically rescuing women and girls from 
forced prostitution we have done with the assistance of select trusted 
contacts within local law enforcement overseas. Local law enforcement 
can be equipped to respond effectively--and there certainly is no hope 
of actually addressing the problem if they are not properly equipped 
and trained to do so.
    This calibrated combination of U.S. policy initiatives can make a 
real difference in the quality and vigor of the response by local law 
enforcement to forced prostitution.
4. All efforts to combat forced prostitution are impacted by the 
        victims' eagerness to seek help and to cooperate in 
        prosecution.
    All law enforcement depends upon the support of the community and 
the cooperation of victims. But there is no way to reasonably expect 
victims to cooperate with law enforcement unless two conditions are 
met: (1) local law enforcement must get out of the business of 
protecting and profiting from forced prostitution, and (2) victims must 
be provided with a safe environment in which they can feel freely 
empowered to participate of their own volition in the justice system.
    First, local law enforcement must get out of the business of 
protecting and profiting from forced prostitution. One must understand 
that the law enforcement personnel that most victims of sexual 
trafficking are familiar with are the ones they see turning a blind 
eye, taking a bribe, or catching and returning the runaway to the 
brothel. Unless U.S. policy places strong pressure on foreign 
governments to prosecute vigorously and severely those police who 
participate in and profit from the sex trade, then one cannot 
reasonably expect much cooperation from the victims of that environment 
who are trafficked to our own shores.
    Secondly, victims must be provided a safe environment in which they 
can feel freely empowered to participate of their own volition in the 
justice system. It is well-known that the greatest ally of 
international sexual trafficking has been the way government 
authorities have treated the victims of sexual trafficking as criminals 
rather than as the vulnerable rape victims that they are. This allows 
the trafficker to easily coerce his victims with horror stories of what 
will happen to them if they try to escape or go to the authorities. 
Here the United States has an opportunity to set a standard of 
compassion and generosity for the world by the way we treat women and 
girls who are trafficked into our own country from foreign lands. We 
can adjust our immigration laws in a way that creates a safe, non-
coercive environment for the victims, an environment that vastly 
enhances the chances of their cooperating in the prosecution of the bad 
guys. In addition, we can support those vital after care facilities 
that give these devastated women and children a concrete vision of a 
life worth living.
    Mr. Chairman, you and your colleagues in the United States Senate 
are taking important, historic first steps to address a desperate 
problem that has devastated the lives of countless women and children. 
Women and children with real faces, real lives. Women and children like 
``Anita,'' ``Jayanthi,'' and ``Sumita.''
    Mr. Chairman, members of this Subcommittee: hear their stones. And 
use the power, wealth and influence entrusted to the United States of 
America to change the dynamics of abuse, to turn the tide of power to 
the side of these who need our compassion and protection and against 
those who prey most brutally upon the vulnerable.
    Thank you very much.

    Senator Brownback. You have to get it to where the problem 
hits, or we have got to do that.
    Ms. Regan Ralph with Human Rights Watch I believe is here 
to testify as well, and a good Kansan, Paul, I might mention, 
as well, from Leawood, Kansas.

 STATEMENT OF MS. REGAN RALPH, HUMAN RIGHTS WATCH, WASHINGTON, 
                               DC

    Ms. Ralph. Thank you. I have prepared a longer written 
testimony. I will do my best to keep my oral remarks to 7 
minutes or less, with my eye on the lights.
    What I would like to do first is introduce myself. My name 
is Regan Ralph, and I am the executive director of the Women's 
Rights Division of the Human Rights Watch. It is a pleasure to 
be here today, and I appreciate the attention Senators 
Brownback and Wellstone are paying to this growing human rights 
problem of trafficking in persons.
    What I would like to do today is quickly highlight what we 
have seen in many years of monitoring and researching the 
global trafficking of primarily women and talk about the 
consistencies that we see in that documentation, and I will 
echo some of the things that have already been discussed.
    I then would like to speak briefly about a particular case, 
based on recent research Human Rights Watch has conducted on 
the trafficking of Thai women primarily into the sex industry 
in Japan, and then, time allowing, I will talk about some key 
things we think need to happen both domestically and 
internationally to improve our opportunities to prevent this 
abuse from happening in the first place and protect the rights 
of victims once it does.
    Human Rights Watch has been involved in documenting and 
monitoring serious human rights violations for many years. We 
have reported on the traffic of women and girls from Bangladesh 
to Pakistan, from Burma to Thailand, and from Nepal to India. 
We have also conducted extensive research regarding other 
incidences of trafficking, including trafficking of women from 
Thailand to Japan and from Eastern Europe and the former Soviet 
Union to Bosnia.
    In our documentation we have found that while the problem 
varies according to the context, certain patterns definitely 
emerge. While our research has focused on the trafficking of 
women and children into the sex industry, it is worth noting 
that there are numerous credible sources that are increasingly 
reporting that similar patterns to those I will discuss in the 
trafficking of men, women, and children into forced marriage, 
bonded sweat shop labor, and other kinds of work.
    In all cases--and here I want to underscore what Mr. Haugen 
said--the coercive tactics of traffickers, including deception, 
fraud, intimidation, isolation, threat, and the use of physical 
force and/or debt bondage are at the core of the problem, and 
must be at the center of any effort to address it.
    In a typical case, a woman is recruited with promises of a 
good job in another country or another area of her country and, 
lacking any better options at home, she agrees to migrate. We 
have also documented cases in which women are lured with false 
marriage offers, or even vacation invitations, or in which 
children are bartered by their parents for a cash advance and/
or promises of future earnings, or in which victims are 
abducted outright.
    Next, an agent makes arrangements for the women's travel 
and job placement, obtaining the necessary travel 
documentation, contacting employers or job brokers, and hiring 
an escort to accompany the woman on her trip. Once these 
arrangements have been made, the woman is escorted to her 
destination and delivered to an employer, or to another 
intermediary who then brokers her employment. The woman has no 
control over the nature or the place of her work, no control 
over the terms or conditions of her employment.
    Many women learn they have been deceived about the nature 
of their work, the work that they will do. Almost all have been 
lied to about the financial conditions of their employment, and 
every single woman that we've interviewed has found herself in 
a coercive and abusive situation from which they see escape as 
being both difficult and dangerous.
    The most common form of coercion that Human Rights Watch 
has documented is debt bondage. Women are told that they must 
work without wages until they have repaid the purchase price 
advanced by their employers, an amount far exceeding the cost 
of their travel expenses. This amount is routinely augmented 
through arbitrary fines and dishonest account-keeping.
    Employers also maintain their power to resell women into 
renewed levels of debt. In some cases, women find that their 
debts only increase and can never be fully repaid. In other 
cases, women are eventually released from that debt, but only 
after months or even years of coercive and abusive labor. To 
prevent escape, employers take full advantage of the women's 
vulnerable position as migrants. They do not speak the local 
language, are unfamiliar with their surroundings, and fear 
arrest and mistreatment by local law enforcement authorities.
    These factors are compounded by a range of coercive tactics 
used by traffickers, including constant surveillance, 
isolation, threats of retaliation against the woman and her 
family members at home, and the confiscation of passports and 
other documentation.
    I am sorry to have to say that government efforts to combat 
traffic in persons have been by and large entirely inadequate. 
In many cases, corrupt officials in countries of origin and 
destination actively facilitate trafficking abuses by providing 
false documents to trafficking agents, turning a blind eye to 
immigration violations, and accepting bribes from trafficked 
women's employers to ignore abuses.
    We have even documented numerous case in which police 
patronize brothels where trafficked women worked, despite their 
awareness of the coercive conditions of employment, and in 
every case we have documented, officials' indifference to the 
human rights violations involved in trafficking have allowed 
this practice to persist with impunity.
    Trafficked women may be freed from their employers in 
police raids, but they are given, very seldom, access to any 
services or redress, and instead often have faced further 
mistreatment at the hands of authorities. Even when confronted 
with clear evidence of trafficking in forced labor, officials 
focus on the violations of their immigration regulations and on 
anti-prostitution laws rather than on violations of the 
trafficking victim's human rights. Thus, the women are targeted 
as undocumented migrants and/or prostitutes. The traffickers 
either escape entirely, or face minor penalties for their 
involvement in illegal migration for the business of 
prostitution.
    These policies and practices are not only inappropriate, 
they are ineffective. By making the victims of trafficking the 
target of law enforcement efforts, governments only exacerbate 
victims' vulnerability to abuse and deter them from turning to 
law enforcement officials for assistance. By allowing 
traffickers to engage in slavery-like practices without 
penalty, governments allow the abuses to continue with 
impunity.
    Today I would like to talk about a specific example based 
on recent research, and that is trafficking of Thai women into 
the sex industry in Japan. The testimony I am submitting for 
the record has information about other particular cases, 
including the trafficking of women from Eastern Europe and the 
former Soviet Union into Bosnia, the trafficking of Burmese 
women into Thailand, and the trafficking of Nepalese women into 
India.
    We have carried out over the past 5 years an extensive 
investigation into the trafficking of women from Thailand into 
Japan. We interviewed numerous trafficking victims directly and 
received information regarding many more cases from local 
advocates. Our findings indicate that thousands of Thai women 
are trafficked into forced labor each year, their rights 
violated with impunity, as the Japanese and Thai Governments 
fail to respond adequately to the problem.
    I have information from some of those cases, but I think 
what I will focus on is the response of the Thai and Japanese 
Governments to this problem. These government officials are 
clearly aware of these abuses. They have not, however, 
translated such awareness into effective measures to provide 
women with the means to protect themselves from abuse or to 
seek redress for violations. When Japanese authorities raid 
establishments that employ trafficked women, the women are 
arrested, detained in immigration facilities, and summarily 
deported with a 5-year ban on reentering the country.
    This punitive treatment is applied regardless of the 
conditions under which the women migrated and worked in Japan, 
and even where there is clear evidence of trafficking and/or 
forced labor. Trafficking victims have no opportunity to seek 
compensation or redress, and no resources are provided to 
ensure their access to medical care or other critical services. 
Moreover, their traffickers and employers have little fear of 
punishment. If arrested at all, they are charged only with 
minor offenses, for violations of immigration, prostitution, or 
entertainment business regulations.
    The Thai Government has also taken note of this problem and 
responded with some laws and policies, but because they have 
failed to address the fundamental issue of women's status at 
home--should I just stop, or keep going?
    Senator Brownback. No, go ahead. finish your statement.
    Ms. Ralph. Because they have failed to address the 
fundamental problem of women's inequality at home and to 
provide information about women's rights if they work overseas, 
women continue to be willing take the risk.
    In addition, the government has adopted overly broad 
policies aimed to prevent potential trafficking victims from 
traveling abroad. For example, the passport applications of 
women and girls aged 14 to 36 are subjected to special 
scrutiny, and if investigators suspect that a woman may be 
going abroad for commercial sexual purposes, her application is 
rejected. This policy, however well-intended, trades one human 
rights problem for another by discriminating against women 
seeking to travel and limiting their freedom of movement.
    It also makes women who want to migrate even more dependent 
on the services of trafficking agents, because it is difficult 
for them to obtain travel documents by themselves.
    Like I said, I think I will skip over the direct 
testimonies of people that we spoke to and I will just put them 
in my written testimony. Needless to say, they underscore all 
of the problems that I have outlined in a general way.
    I would like to, if I might, speak briefly to the question 
of what do we do about this problem. Human Rights Watch 
commends the U.S. Government for prioritizing trafficking in 
persons as the domestic and foreign policy concern. We 
particularly recognize the efforts of Senator Wellstone, who 
has played a key role in mobilizing government efforts to 
combat trafficking in persons in a way that promotes and 
protects the rights of women and particularly trafficking 
victims.
    As it works to design and implement multilateral approaches 
to combating trafficking in persons, Human Rights Watch urges 
the U.S. Government to promote human rights, and especially 
women's human rights, as the cornerstone of such efforts. This 
is of crucial importance in the negotiations for a protocol 
against trafficking in persons supplementing the U.N. 
Convention on Transnational Organized Crime. The final shape of 
this protocol will have significant implications for the 
effectiveness of multinational efforts to prevent and prosecute 
trafficking abuses, as well as for the protection and redress 
available to victims.
    The United States is also involved in a number of other 
important discussions that will strongly influence the ways in 
which governments respond to trafficking. In March of this 
year, the United States is cohosting the Asian regional 
initiative against trafficking women and children in Manila, 
where Asian and Pacific nations will discuss national action 
plans and develop a regional strategy.
    At the G-8 summit in Okinawa in July the Group of Eight 
will have the opportunity to continue their discussions about 
their joint efforts to combat trafficking in persons.
    Last month, Human Rights Watch sent an observer to a 
symposium on trafficking in persons in Tokyo that the Japanese 
Ministry of Foreign Affairs organized. This effort is 
definitely moving forward.
    We hope that President Clinton, in his public and private 
remarks at the Okinawa summit, will stigmatize governments that 
are complicit in trafficking or that tolerate trafficking. He 
should also use this opportunity to revisit the plans that the 
G-8 has already made to encourage governments to enact domestic 
legislation necessary to prosecute traffickers and protect 
their victims.
    We have a number of recommendations that we think should 
apply in any international fora where standards are made to 
improve the protection of human rights trafficking victims. The 
first is one that I have heard here this morning, which is to 
be sure that we define trafficking to encompass all forms of 
forced labor and servitude in any occupation or labor sector, 
including trafficking into forced marriage.
    We also strongly recommend that efforts be made to actively 
investigate, prosecute, and punish those involved in the 
trafficking of persons in countries of origin and destination, 
and impose appropriate penalties. It is very important that 
trafficking victims themselves not be subjected to prosecution 
for anything that happens as a consequence of having been 
trafficked, either for having broken local laws, be it 
immigration or prostitution laws. it is also important to 
ensure, and I think this is something that Senator Wellstone 
has noted in his legislation, that victims have the opportunity 
to seek remedies and redress for the human rights violations 
that they have suffered. That would include making sure they 
have an opportunity to seek compensation for damages, unpaid 
wages, and restitution. This is important, because if 
trafficking victims are deported, wherever they sit they cannot 
participate in efforts to hold their traffickers to account, 
and they can never get the redress and restitution that they 
deserve.
    It is also imperative that we take strong protections to 
ensure the physical safety of trafficked persons. That fact was 
underscored by the testimony of Inez here this morning. These 
people are at risk, sometimes in the country of destination and 
often in the country of origin.
    Finally, I think it is important for international efforts 
to address trafficking to protect women's rights and to address 
the inequalities of women's status and opportunity that makes 
them vulnerable to trafficking in the first place. There are, 
we know, increasing incidences of trafficking being reported in 
this country as well. We think it is important that the U.S. 
Congress enact legislation both to incorporate the standards I 
have outlined and to address a number of the key limitations 
that exist in our enforcement regime here in the United States.
    The first is, we need to ban all forms of involuntary 
servitude and debt bondage as forced labor in this country. 
Right now, the laws are interpreted as applying to debt bondage 
only when it is enforced through law or physical force. As we 
have demonstrated this morning, there are many different 
tactics that traffickers use to make sure that women will not 
escape their slavery-like conditions. They should be able to 
seek redress for those violations under U.S. law.
    It is critically important that victims of trafficking get 
access to legal assistance, translation services, shelter and 
health services, and finally, it is important, again, to make 
sure that those victims are not victimized again by being 
detained inappropriately or being prosecuted for their 
purported crimes.
    Trafficking in persons is a profound human rights abuse. It 
is time for governments to act seriously against this problem. 
This is also, I think, a crucial moment in the fight against 
trafficking, with efforts underway in domestic regional and 
international fora to define what the appropriate action is in 
response to it. We commend you for your leadership on this 
issue, and echo what others have said. It is imperative for us 
to be a leader on this issue right now.
    Thank you very much.
    [The prepared statement of Ms. Ralph follows:]

                  Prepared Statement of Regan E. Ralph

    My name is Regan Ralph, and I am the Executive Director of the 
Women's Rights Division of Human Rights Watch. It is a pleasure to be 
here today, and I appreciate the attention this committee is devoting 
to the growing human rights problem of trafficking in persons.
    Trafficking in persons--the illegal and highly profitable transport 
and sale of human beings for the purpose of exploiting their labor--is 
a slavery-like practice that must be eliminated. Human Rights Watch has 
been involved in documenting and monitoring this serious human rights 
violation for many years. We have reported on the trafficking of women 
and girls from Bangladesh to Pakistan (Double Jeopardy), from Burma to 
Thailand (Modern Form of Slavery), and from Nepal to India (Rape for 
Profit). We have also conducted extensive research regarding other 
incidences of trafficking, including the trafficking of women from 
Thailand to Japan and from Eastern Europe and the former Soviet Union 
to Bosnia. Reports resulting from these investigations are forthcoming.
    The number of persons trafficked each year is impossible to 
determine, but it is clearly a large-scale problem, with estimates 
ranging from hundreds of thousands to millions of victims worldwide. 
The State Department estimates that each year, 50,000-100,000 women and 
children are trafficked into the United States alone, approximately 
half of whom are trafficked into bonded sweatshop labor or domestic 
servitude. Trafficking is also a truly global phenomenon. The 
International Organization for Migration has reported on cases of 
trafficking in Southeast Asia, East Asia, South Asia, the Middle East, 
Western Europe, Eastern Europe, South America, Central America, and 
North America. And press reports in the past year have included 
accounts of persons trafficked into the United States from a wide 
variety of countries. In August 1999, a trafficking ring was broken up 
in Atlanta, Georgia that authorities believe was responsible for 
transporting up to 1000 women from several Asian countries into the 
United States and forcing them to work in brothels across the country. 
Four months later, a man pleaded guilty to keeping five Latvian women 
in involuntary servitude in Chicago. He had recruited the women from 
Latvia with promises of $60,000-a-year wages. But when they arrived, he 
pocketed most of their earnings and forced them to work by confiscating 
their passports, keeping them under constant surveillance, and 
threatening to kill them and have their families murdered if they 
disobeyed him.
                          trafficking patterns
    In Human Rights Watch's documentation of trafficking in women, we 
have found that while the problem varies according to the context, 
certain consistent patterns emerge. Furthermore, while our research has 
focused on the trafficking of women and children into the sex industry, 
reporting from numerous credible sources shows similar patterns in the 
trafficking of women, men, and children into forced marriage, bonded 
sweatshop labor, and other kinds of work. In all cases, the coercive 
tactics of traffickers, including deception, fraud, intimidation, 
isolation, threat and use of physical force, and/or debt bondage, are 
at the core of the problem and must be at the center of any effort to 
address it.
    In a typical case, a woman is recruited with promises of a good job 
in another country or province, and lacking better options at home, she 
agrees to migrate. There are also cases in which women are lured with 
false marriage offers or vacation invitations, in which children are 
bartered by their parents for a cash advance and/or promises of future 
earnings, or in which victims are abducted outright. Next an agent 
makes arrangements for the woman's travel and job placement, obtaining 
the necessary travel documentation, contacting employers or job 
brokers, and hiring an escort to accompany the woman on her trip. Once 
the arrangements have been made, the woman is escorted to her 
destination and delivered to an employer or to another intermediary who 
brokers her employment. The woman has no control over the nature or 
place of work, or the terms or conditions of her employment. Many women 
learn they have been deceived about the nature of the work they will 
do, most have been lied to about the financial arrangements and 
conditions of their employment, and all find themselves in coercive and 
abusive situations from which escape is both difficult and dangerous.
    The most common form of coercion Human Rights Watch has documented 
is debt bondage. Women are told that they must work without wages until 
they have repaid the purchase price advanced by their employers, an 
amount far exceeding the cost of their travel expenses. Even for those 
women who knew they would be in debt, this amount is invariably higher 
than they expected and is routinely augmented with arbitrary fines and 
dishonest account keeping. Employers also maintain their power to 
``resell'' indebted women into renewed levels of debt. In some cases, 
women find that their debts only increase and can never be fully 
repaid. Other women are eventually released from debt, but only after 
months or years of coercive and abusive labor. To prevent escape, 
employers take full advantage of the women's vulnerable position as 
migrants: they do not speak the local language, are unfamiliar with 
their surroundings, and fear of arrest and mistreatment by local law 
enforcement authorities. These factors are compounded by a range of 
coercive tactics, including constant surveillance, isolation, threats 
of retaliation against the woman and/or her family members at home, and 
confiscation of passports and other documentation.
    Government efforts to combat trafficking in persons have been 
entirely inadequate. In many cases, corrupt officials in countries of 
origin and destination actively facilitate trafficking abuses by 
providing false documents to trafficking agents, turning a blind eye to 
immigration violations, and accepting bribes from trafficked women's 
employers to ignore abuses. We have even documented numerous cases in 
which police patronized brothels where trafficked women worked, despite 
their awareness of the coercive conditions of employment. And in every 
case we have documented, officials' indifference to the human rights 
violations involved in trafficking has allowed this practice to persist 
with impunity. Trafficked women may be freed from their employers in 
police raids, but they are given no access to services or redress and 
instead face further mistreatment at the hands of authorities. Even 
when confronted with clear evidence of trafficking and forced labor, 
officials focus on violations of their immigration regulations and 
anti-prostitution laws, rather than on violations of the trafficking 
victims' human rights. Thus the women are targeted as undocumented 
migrants and/or prostitutes, and the traffickers either escape 
entirely, or else face minor penalties for their involvement in illegal 
migration or businesses of prostitution.
    These policies and practices are not only inappropriate, they are 
ineffective. By making the victims of trafficking the target of law 
enforcement efforts, governments only exacerbate victims' vulnerability 
to abuse and deter them from turning to law enforcement officials for 
assistance. By allowing traffickers to engage in slavery-like practices 
without penalty, governments allow the abuses to continue with 
impunity.
                   trafficking in women: case studies
    Drawing on Human Rights Watch research, I will provide a few 
specific examples that illustrate the pattern outlined above. I will 
then offer recommendations for measures the U.S. Government can take to 
combat this modern form of slavery and provide redress for its victims.
Thailand to Japan
    From 1994 to 1999, Human Rights Watch carried out an extensive 
investigation of the trafficking of women from Thailand into Japan's 
sex industry. We will be publishing a report on trafficking into Japan 
later this year. We interviewed numerous trafficking victims directly, 
and received information regarding many more cases from local advocates 
and shelter staff in Japan and Thai and. Our findings indicate that 
thousands of Thai women are trafficked into forced labor in Japan each 
year, their rights violated with impunity as the Japanese and Thai 
governments fail to respond adequately to the problem.
    Statements by the Thai and Japanese governments have made clear 
that they are well aware of these abuses. However, this has not been 
translated into effective measures to provide women with the means to 
protect themselves from abuse or to seek redress for violations. When 
Japanese authorities raid establishments that employ trafficked women, 
the women are arrested, detained in immigration facilities, and 
summarily deported with a five-year ban on reentering the country. This 
punitive treatment is applied regardless of the conditions under which 
the women migrated and worked in Japan, and even when there is clear 
evidence of trafficking and/or forced labor. Trafficking victims have 
no opportunity to seek compensation or redress, and no resources are 
provided to ensure their access to medical care and other critical 
services. Moreover, their traffickers and employers face little fear of 
punishment. If arrested at all, they are charged only with minor 
offenses for violations of immigration, prostitution, or entertainment 
business regulations.
    The Thai government has adopted laws and policies aimed to combat 
trafficking in Thai women and assist victims in returning home. 
However, law enforcement efforts have so far proved ineffective, and 
women's vulnerability to trafficking persists. Many women continue to 
lack viable employment opportunities at home, and, at the same time, 
have no information about how to protect their rights overseas. In 
addition, the government has adopted overly broad policies aimed to 
prevent ``potential'' trafficking victims from traveling abroad. For 
example, the passport applications of women and girls ages fourteen to 
thirty-six are subjected to special scrutiny, and if investigators 
suspect that a woman may be going abroad for commercial sexual 
purposes, her application is rejected. This policy, however well-
intended, trades one human rights problem for another by discriminating 
against women seeking to travel and limiting their freedom of movement. 
It also makes women who want to migrate even more dependent on the 
services of trafficking agents, because it is difficult for women to 
obtain travel documents by themselves. Finally, the Thai government 
makes no effort to assist trafficked women in seeking redress.
    The women we interviewed described the shock, horror and, often, 
powerlessness they felt when they discovered that contrary to their 
promises of lucrative jobs, they were saddled with enormous ``debts'' 
and would not receive any wages until these amounts were repaid. This 
would require months--or even years--of unpaid work under highly 
coercive and abusive conditions. Those who had been promised jobs in 
factories or restaurants faced an additional blow when they learned 
from their employers or coworkers that their debt had to be repaid 
through sex work.
    The women had been recruited for work in Japan by friends, 
relatives, or other acquaintances, who told them about high-paying 
overseas employment opportunities. The recruiters introduced them to 
agents who handled their travel arrangements and hired escorts to 
accompany the women to Japan. In some cases, the women became 
suspicious about their job offers during--or even before--their travel 
overseas, but once their agent had initiated the arrangements, they 
were closely supervised and felt they could not safely change their 
minds. Upon their arrival in Japan, the women were delivered to brokers 
who sold them into debt bondage in the sex industry. Most worked as bar 
``hostesses,'' entertaining customers at the bar and accompanying 
customers to nearby hotels to provide sexual services. While in debt, 
they could not refuse any customers or customers' requests without 
their employers' permission, and they often endured violence and other 
abusive treatment at the hands of both customers and employers. The 
women were also subjected to excessive work hours and dangerous health 
risks--including the risk of contracting HIV and other sexually 
transmitted diseases.
    Excerpts from a few of their stories provide an idea of the 
slavery-like conditions they endured. In Thailand, Lee\1\ had an 
alcoholic and abusive husband and three young children she was 
struggling to feed. When a recruiter offered to find her a job as a sex 
worker in Japan, she agreed. She told us, ``I knew there would be some 
debt for the airplane ticket and all, but I was never told how much.'' 
She found out after she arrived in Japan and was taken to a room by a 
broker to be sold. In her words, ``There were lots of women and people 
came to choose women and buy them. I was bought on the third day, and 
told that my price''--and therefore her debt--``was 380 bai 
[approximately US$30,000]. After three or four days of working at the 
bar, I realized how much 380 bai was. The other girls said to me, 
`That's a lot of debt and you're old. You'll never pay it off.' Then I 
prayed that it would only take six or seven months to pay it off, and I 
went with all of the clients I could.''
---------------------------------------------------------------------------
    \1\ All names of trafficking victims have been changed to protect 
the identities of the women.
---------------------------------------------------------------------------
    Human Rights Watch also interviewed a woman who was promised a job 
in a Thai restaurant in Japan, but instead was taken to a bar where the 
other Thai ``hostesses'' told her she would have to work as a 
prostitute. She recalled, ``They told me there was no way out and I 
would just have to accept my fate. I knew then what had happened to me. 
That first night I had to take several men, and after that I had to 
have at least one client every night.''
    Another woman we interviewed was released from debt after eight 
months of grueling, unpaid labor. According to Khai, ``I had calculated 
that I must have paid it back long ago, but the [bar manager] kept 
lying to me and said she didn't have the same records as I did. During 
these eight months, I had to take every client that wanted me and had 
to work everyday, even during my menstruation.'' Despite the terrible 
and coercive conditions, including physically abusive clients, Khai did 
not try to escape. Her manager had threatened to resell her and double 
her debt if she ``made any trouble,'' and forbade her from going 
outside without supervision. The manager had also confiscated her 
passport, and, Khai explained, ``Without my documents I was sure I 
would be arrested and jailed by the police.''
Eastern Europe and the former Soviet Union to Bosnia
    In March 1999, Human Rights Watch traveled to Bosnia to document 
the incidence of trafficking in women from Eastern Europe and the 
former Soviet Union. We interviewed trafficking victims, local and 
international officials, and local advocates. We also looked through 
police and court records and went to Ukraine to interview staff from La 
Strada, an NGO which has assisted many women returning from Bosnia. Our 
research indicated that since the end of the war in Bosnia and 
Herzegovina, thousands of women had been trafficked into Bosnia for 
forced prostitution.
    At the time of our investigation, Bosnia was under the authority of 
a combination of local and international agencies. Our conversations 
with local police, representatives from the Joint Commission Observers, 
and members of the International Police Task Force indicated that all 
of these officials were well aware of the trafficking problem. They 
knew that foreign women were working in slave-like conditions across 
Bosnia, unable to leave the brothels. Nonetheless, little was done to 
prevent the trafficking of women into forced prostitution, or to 
provide redress or protection for victims. We even found evidence that 
some officials were actively complicit in these abuses, participating 
in the trafficking and forced employment of the women and/or 
patronizing the brothels.
    The women had traveled from Belarus, Moldova, Ukraine, Romania, and 
Hungary, lured by promises of legal work and safe passage. When the 
women arrived in Bosnia, brothel owners seized their passports and 
subjected them to slavery-like practices. They were treated like 
chattel, often resold from brothel owner to brothel owner, and the 
promises of good incomes turned out to be lies: instead of being able 
to remit money home to their families and children, the women found 
themselves forced to work without wages. As Vika told Human Rights 
Watch, ``They tricked me. Everything was fine at first. But when we 
wanted to leave, the owner sold us for 1500 DM [approximately US$900]. 
The new owner told us that we had to work off three more months. He 
said he would sell us to another man.'' Most of the women had agreed to 
jobs in the sex industry, but when brothel owners refused to pay them, 
some women refused to work, incurring violent punishment. According to 
one woman interviewed by Human Rights Watch, ``Every time I refused to 
work, they beat me.''
    When authorities encountered trafficked women during brothel raids, 
they treated them like criminals, compounding the human rights abuses 
they had endured at the hands of their traffickers. The women were 
arrested, fined for their illegal immigration status and their illegal 
work as prostitutes, and then deported. And in early 1999, 
``deportation'' in the Bosnian context--a country without an 
immigration law--translated into being dumped across a border. From the 
Federation, women found themselves dumped in Republika Srpska. And vice 
versa. This pseudo- deportation scheme only facilitated the trafficking 
cycle. Women dumped across the internal borders could be quickly picked 
up and re-sold.
Burma to Thailand
    Trafficking in persons is not a new phenomenon, and research 
conducted by Human Rights Watch in the early 1990s revealed similar 
patterns of human rights abuses, as well as similar levels of 
indifference--and even outright complicity--on the part of law 
enforcement officials.
    More than six years ago, Human Rights Watch reported on the 
trafficking in Burmese women and girls into brothels in Thailand. We 
interviewed thirty trafficking victims in Thailand, and obtained many 
additional interview transcripts from a local NGO. Nyi Nyi's case was 
typical: She was recruited from Burma at age seventeen by a friend who 
had worked in Thailand. She had no idea what type of work she would do, 
but she agreed to go. When she met the agent, he gave her 15,000 baht 
(approximately US$600), which she gave to her sister. Then the agent 
sent Nyi Nyi to a brothel in northern Thailand, in a truck driven by a 
police officer. When Nyi Nyi arrived, she learned that the 15,000 baht 
from the agent was a ``debt,'' which she would have to repay through 
prostitution. Nyi Nyi could not speak Thai, did not know where she was 
in Bangkok, and was always afraid of being arrested by the police. She 
never dared to talk to anyone, and she was relieved that the police who 
came to the brothel as customers never chose her. After about a year of 
working almost every day, she was told that she had repaid her debt, 
but did not have enough money to pay for a return trip to Burma. So she 
continued to work, and a short time later she was arrested during a 
brothel raid. The police initially promised that she would be taken 
back to Burma in a few days, but instead Nyi Nyi was sent to a 
reformatory for prostitutes, where she was confined for the next six 
months.
Nepal to India
    In 1995, Human Rights Watch released another report on trafficking 
in persons, this one based on interviews with women and girls who had 
been trafficked from Nepal to India. Some were tricked by fraudulent 
marriage offers, others were sold by relatives, and a few were 
abducted. All ended up in the hands of trafficking agents who brought 
them to brothels and sold them into debt bondage. One of the women we 
interviewed explained that her husband had left her, and when a 
neighbor told her about an Indian man who wanted to marry her, she 
agreed. A meeting was arranged, but instead of eloping, her ``fiance'' 
drugged her and took her to a brothel in India. At the brothel, she was 
told that she had to work to pay off her purchase price of Rs.20,000 
(approximately US$666). Each day she was forced to sit in a room in the 
brothel with the other women, and when a customer chose her, she could 
not refuse; those who tried were beaten and verbally abused. After 
working for ten years, serving nine or ten customers a day, she was 
still in ``debt.'' She told us, ``Nobody was allowed to leave after 
four years like people say they are.'' Finally she met a Nepali man at 
the brothel, and with his help, she managed to escape.
                      u.s. policy--recommendations
    Human Rights Watch commends the U.S. Government for prioritizing 
trafficking in persons as a domestic and foreign policy concern. 
Senator Paul Wellstone has played a key role in mobilizing government 
efforts to combat trafficking in persons in a way that promotes and 
protects the rights of women and particularly trafficking victims. His 
leadership led to new legislation requiring the Department of State to 
increase and improve its reporting on trafficking in its annual Country 
Reports on Human Rights Practices. We hope that additional attention to 
this issue will help to close the gaps in the U.S. State Department's 
reporting on this subject. The report on Japan released last year, for 
example, alluded to the mistreatment of illegal workers, but 
trafficking and debt bondage were not mentioned, and the report 
asserted that ``there are presently no known cases of forced or bonded 
labor'' in Japan.
    In 1998, President Clinton identified trafficking in women and 
girls as a ``fundamental human rights violation,'' and tasked the 
President's Interagency Council on Women with the challenging task of 
developing and coordinating government policy on this issue. Currently, 
the U.S. Government is involved in several important initiatives. These 
include participation in the negotiation of a protocol on trafficking 
supplementing the Convention against Transnational Organized Crime; 
implementation of foreign aid programs designed to prevent trafficking, 
assist victims, and prosecute traffickers; and consideration of 
legislation in the U.S. Congress against trafficking in persons.
    As it participates in efforts to design and implement multilateral 
approaches to combating trafficking in persons, Human Rights Watch 
urges the U.S. Government to promote human rights, and especially 
women's human rights, as the cornerstone of such efforts. This is of 
crucial importance in the negotiations for a protocol against 
trafficking in persons supplementing the United Nations Convention 
against Transnational Organized Crime. The final shape of this protocol 
will have significant implications for the effectiveness of 
multinational efforts to prevent and prosecute trafficking abuses, as 
well as for the protection and redress available to trafficking 
victims.
    The United States is also involved in a number of other important 
discussions that will strongly influence the ways in which governments 
respond to trafficking in persons. In March of this year, the United 
States is co-hosting the Asian Regional Initiative Against Trafficking 
in Women and Children (ARIAT) in Manila, where Asian and Pacific 
nations will discuss national action plans and develop a regional 
strategy. At the G8 summit in Okinawa in July, the Group of Eight will 
have the opportunity to continue their discussions about joint efforts 
to combat trafficking in persons. Last month, Human Rights Watch sent 
an observer to a symposium on trafficking in persons in Tokyo that the 
Japanese Ministry of Foreign Affairs sponsored in preparation for the 
G8 discussions. We hope that President Clinton, in his public and 
private remarks at the Okinawa summit, will stigmatize governments that 
are complicit in trafficking or tolerate trafficking. He should also 
use this opportunity revisit the plan of action to combat trafficking 
in persons adopted by the G8 Ministerial Meeting in Moscow last 
October, encouraging governments to enact domestic legislation 
necessary for the effective investigation and prosecution of those 
involved in trafficking and pressing for the inclusion of concrete 
measures to protect the rights of all trafficking victims.
    The United States should take advantage of all channels and 
opportunities to promote a human rights approach to trafficking based 
on the following recommendations:

          <bullet> Defining ``trafficking'' to encompass trafficking 
        into, all forms of forced labor and servitude--in any 
        occupation or labor sector--including: trafficking into forced 
        marriage. The definition should also be limited to situations 
        involving coercion, in recognition of men and women's ability 
        to make voluntary decisions about their migration and 
        employment, with coercion understood to include a full range of 
        abusive tactics used to extract work or service.

          <bullet> Actively investigating, prosecuting, and punishing 
        those involved in the trafficking of persons in countries of 
        origin and destination, and imposing penalties appropriate for 
        the grave nature of the abuses they have committed. Particular 
        attention should be paid to evidence of collaboration by 
        government officials in the facilitation of trafficking abuses.

          <bullet> Exempting trafficking victims from prosecution for 
        any immigration violations or other offenses that have occurred 
        as a result of their being trafficked.

          <bullet> Ensuring that trafficking victims have the 
        opportunity to seek remedies and redress for the human rights 
        violations they have suffered, including compensation for 
        damages, unpaid wages, and restitution. This requires 
        guaranteeing victims' access to legal assistance, 
        interpretation services, and information regarding their 
        rights, and allowing all trafficked persons to remain in the 
        country during the duration of any proceedings related to legal 
        claims they have filed.

          <bullet> Taking strong precautions to ensure the physical 
        safety of trafficked persons. This includes witness protection 
        measures for those who cooperate with law enforcement efforts 
        and asylum opportunities for those who fear retaliation in 
        their countries of origin. Countries of origin, transit, and 
        destination must also cooperate to ensure the safe repatriation 
        of trafficked persons, working together with non-governmental 
        organizations to facilitate their return home.

          <bullet>  Protecting women's rights and addressing the 
        inequality in status and opportunity that makes women 
        vulnerable to trafficking and other abuses. States should 
        support policies and programs that promote equal access to 
        education and employment for women and girls. They should also 
        provide women with information about their rights as workers 
        and how to protect these rights overseas. Programs should be 
        designed and implemented with the cooperation of local non-
        governmental organizations.

    There is increasing evidence that trafficking is on the rise in the 
United States as well. To effectively respond to the trafficking of 
persons into this country, we urge the U.S. Government to enact 
domestic legislation that incorporates the standards outlined above. We 
welcome recent indications that law enforcement officials are 
increasingly charging traffickers with offenses appropriate to the 
serious nature of their crimes, but much remains to be done to improve 
the protections and services available to trafficked persons. Such 
measures are crucial for upholding the rights of victims and for 
encouraging them to cooperate in the investigation and prosecution of 
traffickers. In particular, we hope that such legislation will address 
this issue by:

          <bullet> Banning all forms of involuntary servitude and debt 
        bondage as forced labor. U.S. statutory proscriptions on 
        peonage and involuntary servitude have been narrowly 
        interpreted to include only those situations in which victims 
        are made to work through force of law or actual or threatened 
        physical force. This excludes many of the slavery-like 
        practices that Human Rights Watch has found common in cases of 
        trafficking, in which labor is extracted through non-physical 
        means such as debt bondage, blackmail, fraud, deceit, 
        isolation, and/or psychological pressure.

          <bullet> Providing victims of trafficking with access to 
        legal assistance, translation services, shelter, and health 
        services, and ensuring that all trafficked persons are allowed 
        to remain in the United States throughout the duration of any 
        civil or criminal proceedings against their abusers.

          <bullet> Preventing the further victimization of trafficked 
        persons by guaranteeing their immunity from prosecution for 
        immigration violations or other crimes related to their having 
        been trafficked, and taking adequate measures to ensure the 
        protection of their physical safety. Such measures should 
        include opportunities for all trafficking victims who fear 
        retaliation upon return to their home country to apply for 
        permanent settlement on that basis.

    Trafficking in persons is a profound human rights abuse, and women 
are particularly vulnerable to this practice due to the persistent 
inequalities they face in status and opportunity. It is time for 
governments to take this problem seriously. Concrete steps are needed 
to prevent trafficking, punish traffickers and the corrupt officials 
who facilitate their crimes, and provide protection and redress for 
victims. This is a crucial moment in the fight against trafficking, 
with efforts underway in domestic, regional, and international fora to 
define appropriate state actions. it is imperative that the United 
States take advantage of this moment to demonstrate its leadership on 
this critical human rights issue.

    Senator Brownback. Thank you very much. I have a few 
questions if I can. Dr. Lederer, as you have looked at the 
criminal cases around the world that you have tracked, take me 
through how the economic transaction--and this is an awful 
thing that occurs, but obviously there is a lot of money 
involved in it somewhere. What is the economic nature of it? 
How much is typically paid for the person that is trafficked? 
What are they? What is the taker, or the brothel-owner, what do 
they take out of this? How does the economic transaction occur, 
so we can get some idea of the magnitude of the dollars 
involved.
    Dr. Ledrere. I wish I could be specific, but I cannot. I 
think we are really on the front end of that kind of research 
right now. We have anecdotal information from the women and 
children who have been trafficked about what they were told 
they would owe in terms of debt bondage. We have anecdotal 
information from brothel-owners who were arrested about how 
much they paid for a woman.
    Senator Brownback. Can you give us some of those anecdotes?
    Dr. Ledrere. Well, the range is anywhere from, as Inez 
said, $2,500 to $40,000 in debt bondage.
    Senator Brownback. That they are paid?
    Dr. Ledrere. That they owe. That they are told that they 
owe.
    Senator Brownback. As a result of their transporting?
    Dr. Ledrere. That is right, that they are told they must 
work off. There is money being made also--sometimes the 
traffickers are collecting from the people that they're 
trafficking and then collecting from the brothel-owners, or 
those who they are dropping off, to collecting from agents and 
so on, so that I cannot put an exact number on it. I think the 
range is really great.
    Senator Brownback. Regan, or Gary, do either of you have 
anecdotal information about, here is how this transaction 
progressed?
    Ms. Ralph. Just to give you an example of the Thai women 
working in Japan, we have documented, I would say short of a 
hundred but upwards of 60 to 80 cases of women who had been 
trafficked, and every single one of those cases the women were 
transported probably at an expense at the maximum of a couple 
of thousand dollars, and they immediately incurred a $35,000 
debt upon beginning their employment.
    Senator Brownback. That is what they were told?
    Ms. Ralph. That is what they were told. Obviously, there is 
a figure in there. That is the figure that the person running 
the brothel paid to the person who escorted them.
    Senator Brownback. How much is that figure?
    Ms. Ralph. The women are not in a position to know that. 
What they know is the basic bottom-line expenses they incurred, 
and a number of the women tried to keep track of their expenses 
to offer evidence to the contrary with what the brothel-owner 
was maintaining, but they have no way of knowing exactly what 
the brothel operator's economic arrangements are.
    Senator Brownback. What is the brothel operator taking in 
per day from these Thai women?
    Ms. Ralph. It varies enormously. I can't, off the top of my 
head, even recall whether there was a mean in terms of what the 
income is, but these women work 7 days a week, and many of them 
are required to take birth control pills so that they will be 
able to work every single day of the month, so the intake is 
very high.
    Mr. Haugen. I think it is very important to distinguish 
this trafficking from where it occurs in developing countries, 
and in more industrialized, prosperous countries, because the 
massive numbers are in the developing countries, that is, 
poorer countries, and in those massive numbers it is actually 
quite small in terms of the monetary benefit, but the numbers, 
the volume of victims is huge. All three of the women that we 
described were trafficked--that is, the trafficker only got a 
few hundred dollars for them, so all of his expenses, all of 
his profit came in a few hundred dollars for him, the 
trafficker.
    Now, the brothel-keeper is going to get a continuing cash 
flow, but these people are offered--the victims are offered for 
sex at just perhaps a few dollars per occasion, so in 
developing countries, where the numbers are most massive, it is 
such an easy tolerated trade in forced prostitution that it 
does not cost very much to transport these victims, and it is 
just the sheer volume of the numbers that allows it to flourish 
under a tolerated circumstance within the urban center.
    Senator Brownback. I do not want to emphasize this into a 
dollar and cents or a money issue, because it is not at all, 
but what I am sensing, and what I have seen on the ground in 
India and Nepal is that there is a lot of money at stake, and 
there is a lot of money that is flowing associated with this 
even in a developing country. The standards of living and the 
income levels are lower, but the amount is still very, very 
significant.
    Mr. Haugen. My only point, Senator, if I might, is that the 
numbers are very significant in terms of dollar value because 
of the volume. But that it is not as difficult a thing to shut 
down as you might think, as one might think, if you simply 
ratchet up the cost of the people in the urban center who are 
operating it. And the way to ratchet up that cost is to get 
them in trouble for doing it, but right now there is no risk of 
that.
    Senator Brownback. Dr. Lederer, let me ask you, how would 
you characterize the process so far in getting countries to 
notice this problem and take effective measures against it?
    Dr. Ledrere. I do agree with Ms. Loar and Mr. Loy that 
countries are expressing a real interest in stopping 
trafficking in their women and children. We have collected the 
laws that countries have right now at present, so that we can 
get a lay of the land, if you will, and almost every country 
has some kind of law in place right now that they could use to 
arrest, charge and prosecute a trafficker, and so I believe it 
is a matter of figuring out how to bring the political will to 
bear, if you will, on those countries and I agree with Mr. 
Haugen that that has to come from the top down, that if the 
people who are in charge in these countries say we are going to 
take these laws and enforce them, we are going to strengthen 
the laws we already have, we are going to begin to see some 
progress.
    Senator Brownback. My limited experience with other 
governments on this is primarily South Asia, and while I found 
a knowledge base that it was going on, I didn't find much of an 
interest or commitment level. It is kind of like, well, look, I 
have got 50 things to deal with here, and this is in the mid-
thirties of my area of interest. If you are going to ask me to 
rank--and nobody did, and I did not ask them to rank it, but it 
was not on their agenda issue basis.
    Now, one thing I think we can work with them closely on is 
trying to create a better overall economic climate in some of 
these developing countries to create opportunities and lessen 
the grinding poverty that is a feeding ground for this as well, 
and as well we clearly need to work and encourage and have 
better recognition of the status of women in many countries, 
that just--we need to continually push. The United States is 
the human rights leader. We are the ones, we have to stand up 
and make these things an issue, because finding other places 
just do not make them that much of an issue.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. First of all I 
want to thank all of you for your testimony. I think this has 
been one of the really best hearings I have ever been at in the 
Senate, and Regan, I appreciate your comments. Thank you very 
much.
    One of the things--and I want to do this in reverse. I want 
to sort of just ask one question to you all, but listening to 
you and trying to sort out some of the differences from the 
first panel, I think the key is, with 1842 I do not consider 
this a one-person thing, and I am committed to working with 
Senator Brownback, and I think there is a worthy effort going 
on in the House, and if we can get this in pretty much 
identical form we are going to pass this, and I think that is 
going to be our responsibility to do that as legislators, and I 
think we can.
    Therefore, I want to now go to one of the thorny questions, 
or at least a question that I think we have got to try to 
confront and come to terms with, and it has to do with the 
whole issue of sanctions, because, Gary, I was listening to 
you, and I guess my question for you, and it might be a 
question for Regan as well, and it might be a question for 
Laura, is, what specific kind of sanctions should we be 
thinking about that you think would be most effective in 
actually deterring the traffic?
    In other words--because I think that is what you are 
talking about, and this is, I think, an honest--I mean, I think 
there are some good people with good faith who do not agree on 
this question, and I am sort of interested in maybe your being 
able to lay out some of the specific sanctions that you and 
Regan, and maybe Laura, think would really work.
    Mr. Haugen. If the only topic is what will work, then the 
question is, what do the authorities overseas care about the 
most, and you effect those sanctions on the basis of some 
minimal benchmarks. The minimal benchmark from my perspective 
is, is there credible evidence of local law enforcement 
involvement in forced prostitution. That, from my perspective 
and experience, is not hard to find.
    So if you identified what they care about the most, and you 
say, our relationship is going to be somewhat dependent on 
whether or not there is obvious evidence to us that your local 
law enforcement is engaged, then that will work the most.
    Now, whether that works with other people's other 
priorities is another question. I was listening carefully to 
Secretary Loy's four objections. The first was that these are 
essentially private actors, and that sanctions will not affect 
them. Well, you know that would not work in drugs. If the 
police are turning their backs on it or they are participating 
in it, to say that that is primarily a private actor problem is 
not true.
    He says the countries are in the early stages of addressing 
it, and they might play it down if we try to bring them to task 
for it. That is to say that we could not succeed in the battle 
for truth about what was happening. Also, he says that 
sanctions hurt the victims by diminishing their economic 
opportunities, making them more vulnerable.
    You see, there is a confusion about poverty. Poverty did 
not send these three women that we described into forced 
prostitution. Coercion did. Poverty is a factor only because 
law enforcement does not go to where the poor are. In other 
words, there is plenty of law enforcement in a jurisdiction, 
but they are not going to bother to rescue these girls. It is a 
matter of changing the priority of law enforcement.
    The third was that it deflects attention from the NGO's who 
are trying to raise the profile on this, and makes us enemies. 
As one NGO, I am willing to sort of--from our perspective, the 
reason we are raising the profile is so that there is action 
that makes a difference to help these girls and women get out. 
If it means that our action actually our advocacy turns the 
local authorities into changing their priority and actually 
affecting law enforcement in the streets, that is why we are 
here.
    Senator Wellstone. Well, you literally do that. You are on 
the ground. You literally go into these places and get women 
out. That is what you do now.
    Mr. Haugen. I would more commend our investigative folks in 
the field.
    Senator Wellstone. That is incredible, what you do.
    Regan.
    Ms. Ralph. Just a couple of comments. I think it is 
important, as Gary and Senator Brownback said, to get 
governments to pay attention to this. This is a serious human 
rights problem. After today, I do not think there is any 
dispute about that.
    Another thing I want to underscore, based on our research, 
is that there is often government complicity and involvement in 
trafficking. It may be isolated, but as long as it is there it 
needs to be dealt with effectively, and that requires a regime 
that from the top down looks for this abuse and rubs it out 
where it finds it.
    I want to say two things, though, about sanctions 
generally. I think it is worth looking at, at least the 
possibility of targeted sanctions to be as effective as 
possible, and I say that for two reasons.
    One is that we have seen evidence where in our initial work 
back in the early 1990's and looking at the trafficking of 
Burmese girls and women into Thailand the U.S. Government 
brought this up very sharply with Thai officials and their 
response was to crack down on trafficking. The result of that 
crackdown was that hundreds of women were rounded up in 
brothels and deported, period. There was very little response 
to the human rights abuses the women had suffered, and almost 
no dent made in the problem.
    Another concern--and I understand Gary's point, but I think 
it is worth saying that there are women who are making choices 
to migrate. They may not be making choices to migrate into sex 
work, but in some cases they may be, and in all of those cases 
they are leaving their families and their communities behind 
because they think they are going to find economic conditions 
better, labor conditions better in some other place, and that 
is about getting out. What are the options available to women 
on the ground in the situation they are in?
    So to the extent local groups are saying wait a minute, we 
do not want sweeping economic bad news coming down on the tops 
of our citizens, that is something worth listening to, I think.
    Senator Wellstone. I appreciate that.
    Mr. Haugen. If I could just add to that, it is true 
economic vulnerabilities create vulnerability to force 
prostitution, but even when there is fraud and so forth there 
is the coercive moment. There is the moment when they find out 
what the truth is, and then they either comply or they get 
smacked, and that is the hidden truth in every case.
    Senator Wellstone. Well, I think--and Laura, did you have a 
quick response?
    Dr. Ledrere. I just think there has to be some kind of 
strong enforcement mechanism. Part of the problem with the U.N. 
conventions is that while they set an international norm there 
is no enforcement capability. There is no teeth to these. Each 
country has to have a law that they enforce, and one thing that 
the United States can do with some form of penalties, if you do 
not want to call it sanctions, is to provide that enforcement 
mechanism, or that reason why they should do something.
    Senator Wellstone. I think that what we are going to have 
to do, and I think this is just a part of our negotiation to 
get this right, is, it is sort of what kind of sanctions. We 
just have to get it right in terms of what we are talking 
about, and it is just going to have to be, I think, a 
compromise, but I think this has just been superb testimony, 
and almost more important than your testimony is who each of 
you are and what you actually do, and so I just would like to 
thank you, and I said to Sam earlier, I think we are committed 
to making this happen.
    Senator Brownback. That is right. We will get it moving, 
and I want to add my thanks to each of you for who you are and 
what you do. God bless you.
    And Gary, you have been in my office giving me a lock off 
of a brothel door that bound behind it a 14-year-old girl, and 
that sort of work that you are doing on the ground for people 
is just really appreciated, each of you what you are doing, and 
I look forward to the day where this problem is far diminished 
from where it is today, and instead of it explosively going up, 
we are going explosively down and shutting this trafficking 
down, and each of you will be heroes when that day comes. 
Thanks for being here and for excellent testimony.
    We have a final panelist that will be testifying. It is a 
journalist that I met while I was in India, and she has done a 
documentary film on the international sex trafficking that has 
occurred in India, and I found her very knowledgeable on this 
topic, Ruchira Gupta. She is here in the United States, I 
believe, presenting the work that you have been doing, and I 
think will have part of the clips here, and we look forward to 
your comments and testimony as well.
    Senator Wellstone. Mr. Chairman, will there be a chance for 
me to view this? I actually have a younger grandson visiting, 
and I promised I would have lunch with, so will there be a 
possibility?
    Senator Brownback. Well, will he be able to have a copy of 
this video, or is this the only copy you have?
    Ms. Gupta. Sharon has the copy. She can lend it to you.
    Senator Brownback. We will make that available to you.
    Please have a seat. We are delighted you are able to join 
us. The last time we met was in Delhi, so it is good to be able 
to see you here in Washington. Thanks for your work, and Paul, 
thanks for being here and your work on this, and I look forward 
to us getting this resolved and moving the legislation forward.

  STATEMENT OF RUCHIRA GUPTA, JOURNALIST AND DOCUMENTARY FILM 
                             MAKER

    Ms. Gupta. Thank you, Mr. Chairman, and thank the committee 
for giving me this opportunity to talk about trafficking, which 
has been an issue which has obsessed me for the last 7 years as 
a journalist, as an activist, and right now I am working with 
UNICEF as a consultant to write the media policy on violence 
against women, and so in many different incarnations, many 
different caps.
    I have a written testimony which I am also going to submit 
along with what I speak here.
    Senator Brownback. That will be included in the record.
    Ms. Gupta. 7 years ago I began researching the issue of 
prostitution while I was in Nepal. I was actually working on a 
different story. I was looking at how villages manage their 
natural resources in Nepal when I stumbled on rows and rows of 
villages which did not have any girls from age 15 to 45, and 
when I asked where these girls were I was told they were in 
Bombay, and why? Why so many girls in Bombay?
    I began to inquire further, and I was told that there was 
the local procurer, there was the local agent, there was a 
middle man who would take them across the border, and the whole 
trafficking chain was in existence and institutionalized. I was 
horrified by the scale and the gravity of the situation.
    I then went down to Bombay to look at the situation more, 
and I found that there was a huge red light area, perhaps the 
biggest in Asia right now, which was a criss-cross of 12 lanes 
between two central stations, right in the heart of Bombay, and 
one of my clips right in the beginning from the documentary 
that I produced later called The Selling of Innocents, I would 
show you a street in Bombay in this red light area with girls 
standing and begging for clients under duress, and many of them 
were under age. You will see how there is a police station 
nearby where policemen ignore what is happening to these girls.
    Senator Brownback. Let's go to the video.
    [A videotape was shown.]
    Senator Brownback. How much is that in U.S. dollars, 3,000 
rupees?
    Ms. Gupta. Less than $100. About $85. As you can see, most 
of the girls here are under age, and in the course of my 
investigation I found all over India and in some brothels in 
Thailand as well that the girls were first brought in when they 
were between 7 and 15, and they might have grown older in the 
profession but they did not last beyond the age of 35.
    Many of them were forced to stay inside locked rooms for 5 
years, kept in debt bondage, not given any outings, no access 
to health care, with small windows. They were subjected to 
repeated rapes. They had to service 15 to 20 clients a day. 
They had to have children, forced children sometimes, because 
that way the brothel owners would feel they could keep them in 
captivity longer, and they were subjected to tuberculosis, HIV, 
they were in complete bondage.
    Many of them had been inside a small room for so long in a 
place like Bombay, which is right next to the sea, and not 
seeing the sea for 3 years. Some of them spoke about stories of 
how they tried to escape, and they were beaten, bruised, locked 
up and brought back again. They were forced also to be 
subjected to drugs and alcohol so that they became dependent on 
these, and they were literally used like sex slaves.
    There was violence done to their bodies. There were 
cigarette bumps stamped on them, and bottles shoved up their 
vaginas, people wrote names on their skin, and they had no 
recourse to any legal or social counseling, health care, 
nothing.
    At the end of their lives inside the brothel they were 
literally thrown out with no savings, sometimes life-
threatening diseases, with children, and they had to find a way 
back home. When I went back to Nepal I found that the way back 
home was also not that easy. There was stigma. They were 
revictimized when they tried to go back to their villages. 
There was no way that they could go back into their communities 
again.
    When they tried to stay in shelters, some shelters tried to 
keep them for some time, but again the shelters were 
overstretched and did not have enough finances, and the 
government would not pay enough attention or was not serious 
enough about looking after the girls who came back.
    There is this case in 1997 where 126 Nepali girls were 
rescued from a brothel in Bombay and they were all underage. 
They were tested for HIV without their knowledge after their 
rescue operation. They were locked up inside an institution 
which was supposed to be a juvenile health care center in 
Bombay, and both the governments, the Indian Government and the 
Nepalese Government wrangled over their status. The Nepali 
Government did not want them back because they said, why should 
we get back these HIV-ridden girls, and the Indian Government 
said, they are not our citizens so we have to send them back to 
Nepal.
    So far no law has been defined about what happens to these 
girls. It was through the cooperation of some NGO's at the 
ground level that these girls were sent back. Estimates are--by 
NGO's again, not by governments--that 5,000 to 7,000 Nepali 
girls are trafficked across to India every year, and there is 
almost 200,000 Nepali girls in India right now engaged in 
prostitution.
    Also, other estimates by Child Prostitution in Asian 
Tourism, which is an international NGO, says that 1 million 
children are trafficked into prostitution every year in Asia 
alone, and they also estimate that about 30 million children 
are engaged right now in prostitution all over Asia.
    What is also happening is that girls and children are not 
differentiated. Governments are applying the same law in India 
and Nepal, Bangladesh, and Thailand, to both girls and 
children, and they say that if women are choosing prostitution 
as a survival strategy, that even girls who are 14 or 15 could 
choose to do so and they sometimes turn a blind eye when they 
find a girl who is 15 or 16.
    There are some movements which are very, very positive in 
this case, which I found also by doing this, and I should 
mention that. In Nepal, in Bangladesh, Pakistan, Thailand, 
Cambodia, there are laws which governments have created to 
protect child rights. There is a movement to define the 
juvenile justice systems by the police in South Asia.
    There is a signed convention which has come up, and the 
convention is how governments are going to work together to 
traffic children, and also children who want to go back home, 
but these movements need to be supported with larger budget 
allocations with special emphasis on prevention and protection 
programs, advocacy. Advocacy and awareness programs and peer 
education has been very successful in Nepal and Thailand. 
Protection of the survivors of trafficking and supporting them 
and their families in the process of law enforcement has been 
very, very useful in nailing criminals.
    The accountability of spending on these issues will take 
the budget much further, and this is where--I heard you talking 
to different NGO's based in the U.S.A. about what kind of 
measures would work to make governments take this problem more 
seriously, and I think one of these is emphasis on how do they 
spend their money? Where is the money going to? Can it be spent 
on women's programs? Can awareness programs be created so that 
the status of the girl child is raised in Asia.
    Right now, one of the big reasons besides poverty for the 
trafficking of girls is that the status of the girl child is 
low. She becomes the first resource of poverty, and parents are 
willing to part with her and send her off to far countries or 
brothels because they feel if they send one daughter off they 
could support four more, and this has to be addressed, how to 
change the way parents and communities and society looks at 
girl children.
    The rest of my testimony is here. I have given statistics, 
and I have given reasons why children are being trafficked 
besides sexual exploitation, adoption, child labor, marriage, 
begging, and now even organ trade. I found this girl in 
Katmandu. She was 14 years old. She had just come back from a 
brothel in Bombay. Her stomach was sticking out, and she kept 
saying it was hurting, and we sent her off to a doctor and he 
found one of her kidneys was missing.
    So there is a whole range of issues why trafficking is 
happening. The victims of trafficking are often trying to 
escape from poverty. The children most likely to be trafficked 
are girls. They are also sometimes from tribal groups or from 
minorities, and this also is an issue which needs to be looked 
at, is how are governments looking at their minorities? Are 
they pushing them into these situations?
    Some children, even their parents are sometimes lured by 
promises of education, a new skill or a good job. Other 
children are kidnapped outright. Sometimes parents actually 
negotiate with the trafficker and take less than $80, as I 
mentioned earlier, so that they can survive for another year, 
because they live in villages where there are no irrigation 
schemes, where there is no income from anything. They have to 
walk 2 or 3 hours to fetch even a pot of water, and they have 
no access to health care. Meals which would go for one meal in 
a developed, industrialized country, they stretch it over 3 
days between five people.
    So there are all of these reasons why trafficking happens, 
but law enforcement is also not taken seriously in the context 
of poverty, and governments tend to think that if a father or a 
mother is selling off her daughter or sister or whatever, and 
she is reaching Bombay and she can get two square meals a day, 
then why try to implement a law, and I think this is a fallacy 
because the girls end up in debt bondage, they are exploited, 
there is violence, and finally they are dead at the age of 35.
    There is high mortality among women in prostitution. 
Children lose contact with their families. They are taken into 
an entirely new situation. Sometimes they do not even know the 
language of the place they are in. They are vulnerable to many 
kinds of abuse, besides sexual abuse, which they have to go 
through every day all the time.
    They have no documents. I found Bangladeshi girls in Bombay 
who had to change their names to Hindu names so that people 
would not know they had come from Bangladesh, and they would 
not be sent back as illegal immigrants or be locked up inside 
juvenile homes.
    Different cultural situations also produce different types 
of exploitation. In India there is a system called the Davdu 
system, where girls have to serve as temple prostitutes. They 
are submitted to temple priests, and the priests then send them 
on to brothels in Bombay, so these are things which the 
government has to look at more seriously. The Davdu system has 
been banned by law in India, but it still continues because the 
law is turning a blind eye. They do not want to take on 
something that is culturally sanctioned.
    There are organized criminal networks, and there is a nexus 
between the police, politicians, and mafia in India through 
which the trafficking chain operates. There are very senior 
politicians who have given protection to traffickers just 
because they are strong for them during the elections, or they 
are election agents, people who are distributing campaign 
tickets or whatever for them, and so sometimes they make a 
phone call to the local police station and ask for the 
trafficker who is finally being let out.
    Of course, the whole convention of the rights of the child 
needs to be emphasized to every government in Asia. They have 
not taken it seriously. Many of them, all Asian governments 
have ratified it, but they have not taken this seriously 
because they feel that this is in a vacuum. There is no teeth 
to it.
    Of course, there are sanctions necessary in some contexts. 
In other contexts sanctions are not necessary. When I think 
about Nepal, or when I think about India, I don't think 
sanctions would be the best recourse for systems of 
trafficking. I can put the face of the 14-year-old girl right 
in front of me and see how would sanctions help her.
    The destitute poverty in Nepal would increase. Parents 
would not even know why the poverty had increased. They would 
still be looking for a way to feed their families. They would 
still have the same attitude to girl children, and they would 
make the girl go to Bombay and sell her for even less money.
    When you think about a military dictatorship like Burma, 
where girls have been trafficked across to Thailand, and in 
Thailand girls have been rescued from brothels by the 
government in police raids, rescued in quotes, and sent back to 
Burma, they have been locked up in rooms and they have been 
treated to extreme human rights abuses.
    You have to think about this country by country and look at 
this issue very carefully, but there are certain measures which 
have worked, and those measures could be looked at, like peer 
education, changing attitudes toward girls, strengthening law 
enforcement.
    That would be just some of my testimony today.
    [The prepared statement of Ms. Gupta follows:]

                  Prepared Statement of Ruchira Gupta

    Seven years ago, I was researching a story on how villagers manage 
their natural resources in Nepal when I came across rows of villages 
which did not have any girls or women from age 15 to 45. Every time I 
asked about the whereabouts of these girls, I was told they were in 
Mumbai. When I inquired further I was told about the local procurer, 
the middleman, the agent who took them across the border, the border 
policemen who took payoffs and the trafficker who sold them to brothel 
keepers in Mumbai. The whole trafficking chain was completely 
institutionalized. It was protected by some members of the police, 
politicians and the Mafia. And the victims of this flesh trade were 
girls as young as seven.
    I began to research this story further and followed the trail to 
the brothels of Mumbai. I found the largest red-light area in Asia 
called Kamatipura--a criss cross of 12 lanes between two railway 
stations. Women and girls are kept locked in small four by four foot 
rooms, with no windows and made to service 15 to twenty men a day for 
less than one US Dollar. They are subjected to rape, physical abuse, 
torture, violence, repeated abortions and life-threatening diseases 
like HIV, TB and Hepatitis. They were sold, seduced, tricked, duped, 
coerced or forced into this life of sexual slavery. The trafficker paid 
less than a hundred US Dollars for them.
    NGOs estimate that between five to seven thousand Nepali girls are 
trafficked every year to India. NGOs in Bangkok say at least 10,000 
girls and women entering Thailand from poorer neighboring countries and 
ending up in commercial sex work. Now girls are trafficked for cheap 
labor, begging chains and the organ trade as well. In Asia alone about 
a million women and children are trafficked every year. In the former 
Soviet states and Eastern European countries there are job placement 
agencies or marriage bureaus which serve as fronts for prostitution 
rings.
    Trafficking--especially for commercial sexual exploitation--has 
become a worldwide, multi-billion-dollar industry. Boys and girls are 
favored targets for sexual exploitation and groups with low social 
standing are often the most vulnerable, such as minorities and 
refugees. Illicit traffic is expanding through the use of child 
pornography on the Internet, and low cost Internet advertising of the 
commercial sex trade, attracting sex tourists and pedophiles.
    UNICEF's Carol Bellamy has called on governments to enforce both 
their national laws and to accept their obligations under the 
Convention on the Rights of the Child. Every government in the Asia-
Pacific region has ratified the Convention on the Rights of the Child, 
legally binding them to protect their children from all forms of 
economic and sexual exploitation.
    Societies must recognize that the root causes of trafficking often 
lie in unequal treatment of women and girl-children, discrimination 
against minorities, and economic policies which fail to ensure 
universal access to education and legal protection.
    There are however, positive movements against child trafficking in 
India, Nepal, Bangladesh, Pakistan, Thailand, Cambodia, Vietnam, 
Ukraine, Russia and Sri Lanka. These include creating special bodies to 
protect child rights, the reform of juvenile justice systems, the 
training of police and judicial authorities and crack downs on those 
who sexually exploit children.
    These movements need to be supported with larger budget allocations 
with special emphasis on prevention and protection programs. Advocacy 
and awareness programs and peer-education have been very successful in 
Nepal and Thailand. Protection of the survivors of trafficking and 
supporting them and their families in the process of law enforcement 
has been very useful in nailing criminals. A demand for transparency 
and accountability of spending on these issues would take the budget 
further.
                          nature of the issue
        <bullet> Trafficking is a term used to describe the illegal 
        trade across borders of goods--especially contraband, such as 
        drugs-- for profit. Over the last decade, the concept has been 
        expanded to cover the illegal transport of human beings, in 
        particular women and children for the purpose of selling them 
        or exploiting their labor.

        <bullet> In 1994, the United Nations General Assembly defined 
        trafficking as the ``illicit and clandestine movement of 
        persons across national and international borders, largely from 
        developing countries and some countries with economies in 
        transition with the end goal of forcing women and girl children 
        into sexually or economically oppressive and exploitative 
        situations for the profit of recruiters, traffickers, crime 
        syndicates, as well as other illegal activities related to 
        trafficking, such as forced domestic labor, false marriages, 
        clandestine employment and false adoption.''

        <bullet> There are no accurate statistics of how many people 
        are involved, but it is estimated that in the last 30 years, 
        trafficking in women and children in Asia for sexual 
        exploitation alone has victimized over 30 million people. In 
        comparison, 12 million Africans were sold as slaves to the New 
        World between the sixteenth and nineteenth centuries. (Center 
        for International Crime Prevention).

        <bullet> National and international legal structures are 
        inadequate to deal with the trafficking in human beings.

        <bullet>  While there are different patterns of exploitation in 
        different parts of the world, children are trafficked for a 
        number of purposes, including:

                --sexual exploitation;

                --adoption;

                --child labor (e.g., domestic work, begging, criminal 
                work like selling drugs);

                --participation in armed conflicts;

                --marriage;

                --camel racing

                --organ trade

        <bullet> The victims of trafficking or their care givers are 
        often seeking escape from poverty. The children most likely to 
        be trafficked are girls, those from tribal groups and ethnic 
        minorities, stateless people and refugees. (According to the UN 
        special rapporteur)

        <bullet> Some children (or their parents) are lured by promises 
        of education, a new skill or a ``good job'' other children are 
        kidnapped outright, taken from their home villages or towns and 
        then bought and sold like commodities. Often they are crammed 
        into boats or trucks without enough air, water or food. When 
        their smugglers are threatened by discovery, the children may 
        be abandoned or even killed. If they reach their destination, 
        they end up in situations of forced labor, forced prostitution, 
        domestic service or involuntary marriage. They are virtual 
        slaves, who have been stripped of their human rights.

        <bullet> Children who are trafficked lose contact with their 
        families. They are taken into an entirely new situation, often 
        to another country, to a place where they don't know anyone and 
        don't speak the language. They are vulnerable to many kinds of 
        abuse, including sexual abuse. It is difficult for them to seek 
        help not just because they are children but because they are 
        often illegal immigrants and have false documents or no 
        documents.

        <bullet> Boys who are trafficked in armed conflicts are usually 
        used as soldiers, while girls are usually forced to be servants 
        who are often used sexually by the soldiers as well.

        <bullet> Different cultural situations produce different types 
        of exploitation. In India, for example, the caste system and a 
        history of bonded labor mean that tribal and low-caste children 
        are more likely to be trafficked than others. In West Africa, a 
        long tradition of sending one's children to work in the home of 
        a better-off relative or friend has facilitated the trafficking 
        of ever-increasing numbers of children, especially for domestic 
        work

        <bullet> Child trafficking works through personal and familial 
        networks as well as through highly organized international 
        criminal networks. Recruiters are often local people. 
        Trafficking routes change rapidly to adjust to changing 
        economic or political circumstances or the opening of new 
        markets. However, the main trafficking routes are from south to 
        north and from east to west:

                --from Latin America to North America, Europe and the 
                Middle East;

                --from countries of the former Soviet bloc to the 
                Baltic States and Western Europe;

                --from Romania to Italy, and through Turkey and Cyprus 
                to Israel and the Middle East;

                --from West Africa to the Middle East: from Thailand 
                and the Philippines to Australia, New Zealand and 
                Taiwan;

                --from Cambodia, Myanmar, and Viet Nam to Thailand;

                --from Nepal and Bangladesh to India; and from India 
                and Pakistan to the Middle East.

        <bullet> Poor economic conditions, poverty, unemployment, an 
        upsurge in international organized crime, the low status of 
        girls, lack of education, inadequate or non-existent 
        legislation and/or poor law enforcement--all contribute to the 
        increase in child trafficking. Trafficking becomes intensified 
        in situations of war, natural disaster and lax regard of human 
        rights.
Statistics
        <bullet> Between 5,000 and 7,000 Nepali girls are trafficked 
        every year across the border to India.

        <bullet> Most of them end up as sex workers in brothels in 
        Bombay and New Delhi. An estimated 200,000 Nepali women, most 
        of them girls under 18, work in Indian cities. (Estimates by 
        Maiti Nepal, Child Workers in Nepal and National Commission for 
        Women in India)

        <bullet> An estimated 10,000 women and girls from neighboring 
        countries have been lured into commercial sex establishments in 
        Thailand. Recent Thai Government policy to eradicate child 
        prostitution means that fewer girls are being trafficked from 
        northern Thailand and more girls and women are being brought 
        from Myanmar, southern China, Laos and Cambodia. (Estimates by 
        ECPAT (End Child Prostitution in Asian Tourism))

        <bullet> China's Public Security Bureau reported 6,000 cases of 
        trafficking of children in 1997, with a steady increase in 
        girls aged 14 and 15. (Oxfam)

        <bullet> UNICEF estimates that 1,000 to 1,500 Guatemalan babies 
        and children a year are trafficked for adoption by foreign 
        couples in North America and Europe.

        <bullet> Girls as young as 13 (mainly from Asia and Eastern 
        Europe) are trafficked as ``mail-order brides''. In most cases 
        these girls and women are powerless and isolated and at great 
        risk of violence. (Quoted by La Strada, Ukraine and Sanlaap, 
        India)

        <bullet> Large numbers of children are being trafficked in West 
        and Central Africa, mainly for domestic work but also for 
        sexual exploitation, to work in shops or on farms, to be 
        scavengers or Street hawkers. Nearly 90 per cent of these 
        trafficked domestic workers are girls.

        <bullet> Children from Togo, Mali, Burkina Faso and Ghana are 
        trafficked to Nigeria, Ivory Coast, Cameroon and Gabon. 
        Children are trafficked both in and out of Benin and Nigeria. 
        Some children are sent as far away as the Middle East and 
        Europe.
                             unicef policy
        <bullet> UNICEF is guided by the Convention on the Rights of 
        the Child (CRC), which has been ratified by all countries 
        except US and Somalia. Articles 9 and 10 of the CRC state that 
        a child must not be separated from his or her parents against 
        their will, except where it is in the best interests of the 
        child. Article 11 commits States to combat the illicit transfer 
        of children abroad. Article 35 asks States to adopt appropriate 
        national, bilateral and multilateral measures to prevent the 
        abduction, sale or trafficking of children for any purpose or 
        in any form. For children who do not live with their parents, 
        Articles 20 and 21 declare the best interests of the child to 
        be paramount, and note the desirability of continuing the 
        child's ethnic, religious, cultural and linguistic background. 
        Article 21 provides that international adoption must not 
        involve ``improper financial gain''.

        <bullet> Articles 32, 34, 36 and 39 which provide for 
        protection against economic ,sexual and all other forms of 
        exploitation, and the child's right to physical and 
        psychological recovery and social reintegration are also 
        relevant to the protection of child victims of trafficking.

        <bullet> The UNICEF strategy for addressing child trafficking 
        focuses on four main areas:

                --raising awareness about the problem;

                --providing economic support to families;

                --improving access to and quality of education; and

                --advocating for the rights of the child.

        <bullet> Measures aimed at preventing the trafficking of 
        children include increased educational opportunities for 
        disadvantaged children, particularly girls; support to families 
        at risk, appropriate social welfare, training of law 
        enforcement officials and judicial authorities. It is also 
        essential to raise awareness of the media, communities and 
        families on the rights of child victims of any form of 
        trafficking.

        <bullet> A proposed Optional Protocol to the CRC would 
        reinforce the protection offered to children who are at risk of 
        or exposed to sexual abuse, exploitation and trafficking.

        <bullet> UNICEF holds that any new policy on trafficking must 
        build on standards already adopted by the international 
        community, including the CRC.

        <bullet> UNICEF provides input to the Office of the High 
        Commission on Human Rights (OHCHR) ``Project Against 
        Trafficking in Persons''.

        <bullet> A proposed UN Convention on Transnational Organised 
        Crime is now being drafted with a special protocol on 
        trafficking, UNICEF has emphasized the importance of not 
        criminalizing the victims of trafficking. Children, who are the 
        victims, must be protected. Similarly, where children are 
        trafficked, particularly when they find themselves in an 
        unfamiliar country, the first priority must be to treat them in 
        an environment which fosters the health, self respect and 
        dignity of the child (as outlined in the CRC).

        <bullet> Child victims of any form of trafficking require 
        special protection and need to be treated with respect and in a 
        manner consistent with their age and special needs. They are 
        entitled to legal protection and to help integrating back into 
        their communities.

        <bullet> If children are used as witnesses, officials should 
        secure their testimony in a manner which does not cause them to 
        be re-traumatized and ensure their protection throughout the 
        criminal proceedings and ensure their protection throughout the 
        criminal proceedings and beyond as necessary.

        <bullet> States should ensure that parents are provided with 
        the necessary legal aid and financial assistance for a child's 
        participation in legal proceedings.

        <bullet> States should ensure that child victims have access to 
        assistance that meets their needs, such as legal aid, 
        protection, secure housing, economic assistance, counseling, 
        health and social services, physical and psychological recovery 
        services and that they are not discriminated against. Special 
        assistance should be given to those who are suffering from HIV/
        AIDS. Emphasis should be placed upon family and community-based 
        rehabilitation or placement in foster families rather than 
        institutionalization.

        <bullet> Children should be given an opportunity to express 
        their views, particularly within the framework of any 
        administrative or judicial proceeding affecting them; and no 
        child should be discriminated against, including on the basis 
        of gender, national or social origin. This is consistent with 
        article 2 and 13 in CRC.

        <bullet> Efforts against trafficking should be aimed 
        particularly at preventing vulnerable groups of children from 
        becoming victim. While it is true that boys are increasingly 
        involved in child prostitution and child pornography, girls 
        comprise the majority of victims. Gender discrimination can 
        place girls at greater risk of sexual exploitation, and also 
        creates specific needs for their rehabilitation.
                            measures adopted
        <bullet> UNICEF supports major studies of trafficking that are 
        taking place around the world, including a study of trafficking 
        in the NAFTA region underway at the University of Pittsburgh.

        <bullet> UNICEF provides input to ``The Global Program Against 
        Trafficking in Human Beings'', a three-year study undertaken by 
        the United Nations Office for Drug Control and Crime 
        Prevention. It focuses on the role played by organized crime, 
        trafficking patterns, the nature of the criminal syndicates 
        involved, the role of corruption, the impact of clandestine 
        migrant communities, the trafficking of women and children for 
        purposes of forced/exploitative labor, commercial sexual 
        exploitation and unlawful adoption. UNICEF is concerned to 
        ensure that the human rights aspects of the issue are not 
        overwhelmed by the study's focus on the criminal aspects.

        <bullet> In the Asia and Pacific Region, UNICEF is a partner in 
        a number of projects that specifically address the trafficking 
        of women and children. They include:

                --the Mekong Regional Law Center project, ``Illegal 
                Migration: The Case in Trafficking of Women and 
                Children'' (Cambodia, China, Laos, Myanmar, Thailand, 
                Viet Nam), which aims to develop a practical program to 
                improve legislation and law enforcement in the area of 
                trafficking;

                --the ESCAP (Economic and Social Commission for Asia 
                and the Pacific), Human Resources Development Section 
                of the Social Development Division, ``Project for the 
                Elimination of Sexual Abuse and Sexual Exploitation of 
                Children and Youth in Asia and the Pacific''(Cambodia, 
                China, Laos, Myanmar, the Philippines, Thailand, Viet 
                Nam, Bangladesh, India, Nepal, Pakistan, Sri Lanka), 
                which will build capacity of local government and NGO 
                personnel through research and networking, raising 
                awareness of policy-makers, development of curriculum 
                and training materials and sub-regional training;

                --the ILO-International Program for the Elimination of 
                Child Labor (IPEC) project, ``Combat Trafficking in 
                Children and Women for Labor Exploitation in the Mekong 
                Sub-region and South Asia'', which aims to develop best 
                practice guidelines based on the evaluation of pilot 
                activities and train trainers as well as to offer 
                direct socioeconomic alternatives to child and women 
                victims of trafficking and to those at risk;

                --the UNDP project, ``Trafficking in Women and Children 
                in the Mekong Sub-region'', which will do an inventory 
                of UN agency, government, NGO and CBO activities 
                addressing trafficking; assess gaps in these 
                activities; establish mechanisms to improve 
                communication and coordination; identify research needs 
                and begin research;

                --the International Organization for Migration (IOM) 
                project, ``Return and Reintegration of Trafficked Women 
                from China to Vietnam, Thailand to Cambodia and 
                Cambodia to Vietnam'', which will build research 
                capacity, train border police and provide psycho-social 
                recovery assistance to trafficking victims.

        <bullet> UNICEF participates in the Regional Working Group on 
        Child Labor (involving ILO/IPEC, Save the Children Alliance, 
        and Child Workers in Asia).

        <bullet> UNICEF supports the International Network for Girls 
        (INFO). Organized by the NGO Working Group on Girls, the 
        network comprises 400 NGOs in 86 countries who work with and 
        for girls. Sexual exploitation and trafficking are two of its 
        highest priorities.

        <bullet> In Benin, UNICEF supports the Project on Children in 
        Need of Special Protection. The project raises awareness about 
        child trafficking and exploitation and the hazards trafficked 
        children face. The project also advocates for children's rights 
        in the CRC; has set up eight educational facilities for girl 
        domestic workers; provided community support, giving women 
        access to loans to finance income-generating activities; and 
        promoted girls' education.

        <bullet> In Cambodia in July 1999 the Cambodian National 
        Council for Children has launched a National 5-year plan 
        against child sexual exploitation and trafficking.

    Senator Brownback. Thank you very much, and I am glad you 
have that obsession within you, the calling to expose this, 
because it is an extraordinary issue.
    As I stated at the outset of this hearing, I do not know if 
I have seen a worse situation, a worse thing anywhere in the 
world than what is taking place now.
    This hearing has been an excellent one, I think, of 
exposing and just trying to bring some light to the subject. I 
have been sitting here listening to your testimony and others, 
thinking about what the Pope wrote to the U.S. Congress at the 
national prayer breakfast. In his letter he said, one of our 
great dedications should be to make the world better for the 
human species, and I look at this and I think, my goodness, 
there is probably not a worse thing in the world for the human 
species than what is taking place here. There are so many young 
girls, so many children just around the world, and if we are to 
ever try to make the world better for the human species, here 
is a clear area for us to start, and to start addressing.
    It has been an excellent hearing. We will hold the record 
open for the requisite number of days for additional testimony 
and for people who desire to submit for the record.
    We will be working on legislation that, as I have stated 
several times, and Paul has as well, that we hope to be able to 
move through the Senate, and I would hope any groups either 
watching this or in the audience that are willing to work in 
pushing this legislation forward will be helpful in doing this 
this year, that this not be a project over a period of several 
years, that it be a this-year project, that we get it done, 
passed, and signed into law so that we can add emphasis on this 
horrible blight that is taking place on humankind.
    Thank you all for your attendance. We are adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee adjourned.]


     INTERNATIONAL TRAFFICKING IN WOMEN AND CHILDREN: PROSECUTION, 
                      TESTIMONIES, AND PREVENTION

                              ----------                              


                         TUESDAY, APRIL 4, 2000

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senators Brownback and Wellstone.
    Senator Brownback. I call the hearing to order.
    I am very pleased to be holding these hearings today, with 
Senator Wellstone, entitled ``Trafficking of Women and 
Children: Prosecution, Testimonies, and Prevention.'' This is 
the second hearing we have held on this subject, and today we 
will hear testimony on the details of prosecuting traffickers, 
personal stories from victim survivors, several of which Paul 
and I have just recently met with here in the anteroom, and 
restoration of survivors through aftercare and civil suits to 
obtain financial restitution. I hope these proceedings will 
help pry open a door of freedom just a little further for those 
who are presently trapped and in despair.
    We must continue to speak out about this insidious practice 
called trafficking. Every time we expose its tactics, through 
hearings, conferences and other gatherings, another ray of 
light invades the darkness. I want to encourage many of you 
sitting in this audience today to not give up your selfless 
advocacy that you have done for so many years.
    I want to particularly add a note to Senator Wellstone's 
wife, who has done much in that effort in that regard, as well. 
Thank you for your tireless advocacy. You are challenging the 
shame and the ignorance which still pervades this subject. It 
is a long road ahead, but a worthy road, which leads to freedom 
and to dignity.
    Many remain who are lost. We think there are millions 
worldwide who are suffering in the trafficking networks, 
enslaved, held against their will, including children. 
Conservatively, at least 700,000 women and children are forced 
into trafficking each year, which is an overwhelming number, 
but it is possible to take one person at a time, just like we 
are doing today, and to hear their story and the rays of life 
that they bring forward to tell about this terrible thing that 
is happening across the world.
    Dr. Laura Lederer has expended tremendous efforts to bring 
the survivor witnesses to this hearing today. We will hear 
testimony from three survivors, all of them women, who were 
trafficked against their will. Dr. Lederer, thank you for your 
generosity of heart and determination of spirit. These 
witnesses would not be here today but for you. Dr. Lederer is 
in the back visiting with her witnesses.
    International sex trafficking is the new slavery. It 
includes all the elements associated with slavery, including 
being abducted from your family and home, taken to a strange 
country where you do not speak the language, losing your 
identity and freedom, being forced to work against your will 
with no pay, being beaten and raped, having no defense against 
the one who rules you, and eventually dying early because of 
this criminal misuse.
    Now, imagine this happening at a very young age and having 
your entire life stolen from you in this brutal way. I have 
visited with young girls and women before that this has 
happened to, and we will hear from several today. This is one 
of the cruelest human rights abuses existing. Moreover, it is 
growing now, which has increased dramatically this growth in 
this area over the last 10 years. It is a new phenomena and 
does not really look like anything we have seen before.
    That is why we have invited our first panel, Bill Yeomans, 
the Chief of Staff of the Civil Rights Division of the 
Department of Justice, who will discuss the parameters of 
prosecution and additional legal tools needed to stem the 
trafficking trade.
    Our second panel is comprised of three witness survivors, 
one from Mexico and two from Russia, who will share their 
stories of entrapment and escape. The third panel will include 
two aftercare providers who help victims restore their lives 
once they leave trafficking in Russia and Thailand, and one 
civil attorney who represented the Mexican women who were 
abducted in Florida, escaped, sued, and finally received a 
civil judgment against their captors.
    I would like to make a very important request, if I could, 
of those in the crowd and those filming this. Please do not 
take any photos of the women on the second panel who are 
survivors of trafficking. They have come here at great personal 
risk to themselves, and photos could be used to bring to them 
and their families great harm. So I would ask you please not to 
photograph them.
    I want to thank you all for your attendance here today, and 
I look forward to the testimony and some questioning. First, I 
want to turn it over for an opening statement to Senator 
Wellstone, who has worked on this issue for several years 
tirelessly, and we have been working together on this issue, 
and I am delighted to be able to join him in his leadership on 
this very important subject.
    Senator Wellstone.
    Senator Wellstone. Thank you, Senator Brownback.
    And, Mr. Yeomans, thank you for being here, and to all.
    Let me just ask unanimous consent that my full statement be 
included in the record so that I can be briefer and we can go 
forward with the excellent testimony.
    Senator Brownback. Without objection.
    Senator Wellstone. I do want to thank the chairman, Senator 
Brownback, for his commitment, not only to hearings but to 
passing legislation that is going to make a difference. We are 
working together, and I think we will have a very good piece of 
legislation. We are going to work very hard together to make 
that happen. And it is a good coalition. Senator Brownback and 
I do not agree on all issues--that may be the understatement of 
the year--but we do agree on this.
    Senator Brownback. We agree on this one.
    Senator Wellstone. And after having worked on this for 
several years, Senator Feinstein and Senator Boxer and Senator 
Snowe have been there, but I do not think I have ever found 
anybody that has been more committed to this issue and working 
harder than Senator Brownback.
    I think, Mr. Chairman, that we are seeing more and more of 
a focus on the trafficking of women and children for purposes 
of prostitution, sexual exploitation, forced labor, but it 
continues to be, in spite of the focus, I think we also have to 
admit to a reality which today I think is one of the darkest 
aspects of the globalization of the world economy. It is 
becoming more insidious and it is becoming more widespread in 
this last decade. I think that is what we have seen.
    Now, Mr. Chairman, there was just this past weekend in the 
New York Times a very important piece dealing with a CIA report 
or analysis of the international trafficking of women in the 
United States, which was called a, quote, contemporary 
manifestation of slavery. And they were talking about 50,000 
women and children each year brought to the United States of 
America--that is our country--and maybe as many as 2 million 
women that are trafficked throughout the world economy. And we 
intend to do something about it.
    We are not having these hearings and asking today women to 
come at real peril to themselves and to make this kind of 
sacrifice for symbolic political reasons. We are doing it 
because we intend to pass some legislation that can make a 
positive difference.
    I want to just conclude by saying that I cannot emphasize 
enough that this trafficking is a human rights problem and it 
requires a human rights solution. And all too often what 
happens is that our government and other governments today, 
with the status quo, end up either deliberately or, more often, 
just because of the way the laws are right now, what happens is 
that the victims are the ones that are hounded and the 
traffickers go free. We have to change that. We have to change 
that.
    The women are treated as criminals and not as victims of 
gross human rights abuses. And that is the way they should be 
treated, as the victims of these abuses. And we intend to 
change that.
    Now, this has been an ineffective and cruel approach toward 
trafficking victims, and we are trying to change this for the 
better. I first introduced the bill in Congress a while ago--I 
think it was the first bill--to try to get at this. And, as I 
say, Senators Boxer, Snowe, Feinstein, and others were very 
helpful. Then the House of Representatives has taken up their 
own measure, the Trafficking Victims Protection Act. And now I 
think, perhaps most important of all from the point of view of 
actually passing legislation, I feel very fortunate in being 
able to work with the chairman and Senator Brownback.
    I want to thank everyone here today, especially the 
victims, for their courage in coming forward to testify, and 
the advocates. The advocates who will never become 
millionaires, but who just do not stop really speaking out and 
advocating for people. I want to thank you. I thank the 
administration for moving forward. And I do believe that we 
will be able, Senator Brownback, we will introduce legislation 
and I think we will have a good bipartisan bill, and I believe 
we will be able to pass it.
    Thank you.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    I would like to thank the Chairman for his work on one of today's 
most serious and pressing violations of human rights: the trafficking 
of persons, particularly women and children, for purposes of sexual 
exploitation and forced labor. This is the second in a series of 
hearings on this subject and I would like to commend Senator Brownback 
for focusing this subcommittee on trafficking, and keeping this very 
important domestic and foreign policy issue in the public eye.
    Just before our last hearing on trafficking, Parade magazine's 
February 20th cover story was ``A Call to Fight Forced Labor.'' 
Increasing numbers of organizations are heeding that call, as is the 
U.S. Government, which has been involved in negotiations abroad to 
strengthen international efforts to combat trafficking, and which has 
been involved at home in more vigorous efforts to combat and prosecute 
traffickers.
    But despite increasing governmental and international interest, 
trafficking in women and children continues to be one of the darkest 
aspects of the globalization of the world economy, becoming more 
insidious and more widespread over the past decade. Just this past 
weekend the New York Times reported on a recent CIA analysis of the 
``International Trafficking in Women to the United States,'' which was 
called ``A Contemporary Manifestation of Slavery.'' and said as many as 
50,000 women and children each year are brought to the United States.
    Trafficking is an issue that affects not hundreds, not thousands, 
but up to two million persons throughout the world. There are estimates 
that as many as 50,000 women and children each year are brought into 
just the United States alone and forced to work as prostitutes, forced 
laborers or servants. The victims come from Mexico, the Philippines, 
Thailand, Russia, the Ukraine and other countries in Asia, Latin 
America, Eastern Europe and the former Soviet Union. We have some of 
these victims here with us today, who have courageously come forward to 
share their stories.
    Since my wife and I began working on this issue several years ago, 
I have met with trafficking victims, care providers and advocates from 
around the world. They have told me again and again that trafficking is 
induced by basic factors such as poverty, lack of economic 
opportunities for women, and the horrible low status of women in many 
cultures. These factors are then compounded by sophisticated and 
ruthless international crime operations, whose trafficking rings 
exploit and abuse poor, vulnerable women in economically devastated 
communities where women are unable to find jobs to sustain themselves 
and their families.
    In the last hearing we held on trafficking, on February 22, we 
heard from the State Department about U.S. efforts to combat 
trafficking internationally, and we heard from advocacy groups about 
what more is needed to fight this problem, both overseas and at home. 
For trafficking involves both supply and demand, and one of the 
subjects I would like to hear addressed today by our first witness is 
the extent of the problem in the United States and what efforts the 
Department of Justice is making to go after and prosecute those 
responsible for trafficking into this country.
    I cannot emphasize enough: trafficking in persons is a human rights 
problem that requires a human rights response. And yet, more often than 
not, our government and other governments have hounded the victims, and 
let the traffickers go free. The women are treated as criminals and not 
as the victims of gross human rights abuses that they are.
    In order to reverse this ineffective and often cruel approach 
toward trafficking victims, and to go after the root causes of 
trafficking--like economic distress and the low status of women--I 
introduced the first bill in Congress to comprehensively address the 
problem, and was joined in my effort by Senators Boxer, Feinstein, 
Snowe and others. Since then the House of Representatives has taken up 
their own measure, the Trafficking Victims Protection Act (H.R. 3244), 
which is making its way through the legislative process. I have been 
working with Senator Brownback in an effort to craft a similar bill in 
the Senate, which we hope to introduce soon, focusing on the prevention 
of abuse, protection and assistance for victims, and prosecution of 
traffickers. (The bill ensures that the State Department and our law 
enforcement agencies will be fully engaged in the issue, that our 
immigration laws do not encourage rapid deportation of victims, that 
traffickers are severely punished, and that trafficking victims receive 
needed services and safe shelter. Further, the bill provides much 
needed resources to programs assisting victims here at home and 
abroad.)
    In closing, I want to thank everyone here today--especially the 
victims for their courage in coming forward to testify, and the 
advocates who have worked so hard on this issue--and I urge the 
Administration to support legislative efforts in the Senate so that we 
can move quickly to end this brutal practice once and for all.

    [The following statement of Senator Ashcroft was submitted 
for the record:]

              Prepared Statement of Senator John Ashcroft

    Mr. Chairman, thank you for holding this hearing. I appreciate the 
opportunity to comment this afternoon on such an important issue that 
affects so many of our world's most helpless citizens. I applaud these 
witnesses for having the fortitude to come forward and share their 
stories and concerns.
    International human trafficking, along with the often subsequent 
forced prostitution of women and children, is one of the most 
despicable acts mankind has created. Millions of human beings are 
trafficked each year, with approximately 50,000 of those trafficked 
into the United States alone. Trafficking generates approximately $7 
billion annually, and perhaps as many as 30 million women and children 
have fallen victim to traffickers since the early 1970s. The Coalition 
Against Trafficking in Women has attempted to document this heinous 
trade, focusing on the hardest hit countries of South Asia. According 
to the Coalition, 200,000 Bangladeshi women have been sent to Pakistan 
by traffickers in the last 10 years. In Thailand, as many as 30,000 
Burmese women are engaged in prostitution, with 50-70 percent of them 
being HIV positive. Children are often the target of international 
traffickers. Of the 2.3 million women engaged in prostitution in India, 
25 percent are minors. Local laws against forced servitude and 
prostitution often are not enforced, leaving victims little recourse 
against their captors.
    These figures are but a glimpse into the real-life stories of human 
beings around the world forced into slavery and prostitution. These 
women and children lose everything in the process--their family, their 
dignity, and their hope. While I do not wish to expound beyond these 
capable witnesses into the actual details of the atrocities, I am sure 
we will all be moved by their troubling tales.
    The fact that this type of activity is found in the United States 
is especially appalling. As the leading industrialized nation, founded 
on principles of freedom and justice, it is almost unbelievable that 
trafficking occurs here--however, it does. The United States must take 
the lead and work to eradicate this terrible scourge.
    When Thomas Jefferson wrote those enduring words, that ``all . . . 
are created equal, that they are endowed by their Creator with certain 
unalienable rights, that among these are Life, Liberty and the pursuit 
of Happiness,'' he spoke, not just of Americans, or the wealthy, or the 
prominent, but of every person on this earth, regardless of sex, race, 
religion, or location. Here in the United States we have made 
tremendous strides toward equality and respect for all people. However, 
our success does not condone our complacency. We must remain diligent 
in our quest for international acceptance of our founding principles.
    We must strive to see that every man, woman, and child be afforded 
the opportunity to live in a world of freedom. President Ronald Reagan, 
and other cold war warriors, fought diligently to see peace, democracy, 
and freedom throughout the world. We have achieved a small part of 
their vision, and the protection of women and children throughout the 
world who are tortured and de-humanized through international human 
trafficking is another step closer to that vision.
    Thank you again for your testimony and I look forward to passage of 
legislation to effectively confront this problem.

    Senator Brownback. Thank you, Senator Wellstone. And I, 
too, believe that we will be able to pass this bipartisan 
legislation. And yes, they may not be millionaires here, those 
advocates, but they will have riches other places.
    Mr. Yeomans, thank you very much for joining. He is Chief 
of Staff for the Civil Rights Division of the Department of 
Justice. We appreciate you coming in front of us today. The 
floor is yours.

 STATEMENT OF WILLIAM R. YEOMANS, CHIEF OF STAFF, CIVIL RIGHTS 
        DIVISION, DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Yeomans. Thank you, Mr. Chairman.
    Mr. Chairman and Senator Wellstone, I thank you for the 
opportunity to appear today to present testimony on the subject 
of trafficking in human beings. It is profoundly troubling that 
it is necessary to have this hearing as we move into the new 
millennium, but it is necessary. While we discuss this problem 
using such terms as ``trafficking'' and ``forced labor,'' we 
should make no mistake about it: we are talking about slavery, 
slavery in its modern manifestations.
    While some of the schemes and practices employed reflect 
the sophistication of the modern world, others are as basic and 
barbaric as the trade that brought African-Americans to this 
continent. Regardless of how sophisticated or simple 
trafficking enterprises may be, at bottom, they all deny the 
essential humanity of the victims and turn them into objects 
for profit.
    It is extremely difficult to produce reliable estimates on 
the number of victims subjected to trafficking each year. 
Recent estimates have ranged from 50,000 to 100,000 people 
brought in each year to this country in some condition of 
exploitation. And it appears that the number is growing. The 
explanation lies in several factors, I think.
    First, economic dislocation, particularly the lack of 
economic opportunity for women in so many societies, the 
increased porousness of borders, the ease of transportation and 
of international communication, and the fact that, until now, 
trafficking has been a fairly high-profit and low-risk 
enterprise.
    The Justice Department is working to combat this problem. 
In 1995, we discovered that more than 70 Thai women and men had 
been smuggled into the United States and held captive in El 
Monte, California, for up to 7 years. The workers were held in 
a guarded compound and forced to work in a sweatshop 
environment. The operation was one of the most egregious cases 
of worker exploitation in the history of this country. The U.S. 
Attorney's Office in Los Angeles and the Civil Rights Division 
successfully prosecuted the sweatshop owners for violations of 
involuntary servitude, conspiracy and immigration laws.
    In 1997, we learned that dozens of hearing-impaired Mexican 
nationals were enslaved and forced to peddle trinkets on the 
streets of New York, Los Angeles and Chicago. Their captors 
held them through beatings, physical restraint and torture. 
This case shocked the conscience of the Nation because the 
victims were exploited not only because of their poverty and 
their immigration status, but also because of their disability. 
Eighteen defendants eventually pled guilty to slavery 
conspiracy charges, as well as immigration, money laundering 
and obstruction of justice offenses.
    In 1998, concerned that these cases suggested a bigger 
problem, the Department of Justice took the lead in forming the 
Worker Exploitation Task Force. This task force is co-chaired 
by the Acting Assistant Attorney General for Civil Rights, Bill 
Lann Lee, and the Solicitor of Labor, Henry Solano.
    This effort has brought a range of investigative and 
prosecutorial agencies to the table. Justice Department 
components include the Civil Rights Division, the Criminal 
Division, the FBI, INS, the U.S. Attorneys, the Office for 
Victims of Crime, and the Violence Against Women Office. Our 
outside partners include the Departments of Labor, State and 
Agriculture, and the Equal Employment Opportunity Commission. 
We are convinced that by pooling information, expertise and 
resources, and using all of the legal authority available to 
these agencies, we can make a difference.
    What has the task force accomplished?
    First, we brought additional prosecutions. Last year, we 
obtained seven guilty pleas in a case in which Mexican girls 
and women, some as young as 14, were lured into the United 
States by the promise of legitimate jobs, and forced to work as 
prostitutes and sex slaves in brothels frequented by migrant 
laborers in Florida and the Carolinas. The victims were forced 
to engage in sexual acts with as many as 130 men a week. They 
were beaten and assaulted, and some were forced to have 
abortions when they became pregnant.
    We also secured guilty pleas last year from three 
defendants in the Commonwealth of the Northern Mariana Islands, 
who were indicted for luring unsuspecting women from China to 
the CNMI, with false promises of good jobs, only to enslave 
them in a karaoke bar brothel, and force them to submit to 
prostitution.
    In addition, to prosecute these and other cases, the Worker 
Exploitation Task Force has set up 15 regional task forces. 
Each one has points of contact from local U.S. Attorneys 
Offices, the INS, the FBI, and the Department of Labor, and we 
are reaching out to State and local law enforcement agencies. 
The regional task force approach has allowed investigators and 
prosecutors to share information and coordinate their efforts.
    We have also tried to increase public awareness of worker 
exploitation. We have set up a worker exploitation complaint 
line. And since the complaint line phone number was publicized 
in Parade Magazine just 6 weeks ago, we have received over 250 
calls. And based on those calls, we have opened another 20 
investigations. And we have also referred a number of 
complaints to other agencies for processing.
    Despite these services, the task force has also highlighted 
the shortcomings in our ability to combat trafficking and 
worker exploitation. We need legislation that will strengthen 
the prosecutorial tools available to law enforcement.
    First, current law permits prosecution of traffickers only 
in limited situations, such as when the victim is being 
trafficked for the purpose of the sex trade. We must 
criminalize a broader range of trafficking. We must reach 
individuals trafficked into domestic servitude, migrant labor 
or sweatshop labor, as well as prostitution.
    Second, we must create the tools to prosecute those who 
knowingly profit from the forced labor of persons held in 
unlawfully exploited labor conditions. Present criminal law 
does not reach, for example, farm labor contractors and other 
types of employment relationships that provide a liability 
shield between the direct oppressor and the economic 
beneficiary of the slave labor.
    Third, we need to expand the types of coercion that can be 
used to demonstrate involuntary servitude under Federal law. 
One of the biggest enforcement hurdles that we face is the 
requirement of Federal law that we show that the defendant used 
actual force, threat of force or illegal coercion to enslave 
the victim. As a result, Federal law enforcement cannot reach 
those who use more subtle, but no less heinous, forms of 
coercion that wrongfully hold victims in bondage.
    A prime example of this is the situation in U.S. against 
Kozminski, the case in which the Supreme Court announced this 
narrow interpretation of Federal law. In that case, a couple in 
Michigan had picked up two retarded men along the road and 
taken them back to their farm, where they were held and made to 
work for years. They were kept in a barn. They were fed rancid 
food. And they were convinced, through psychological coercion, 
that they had no alternative but to stay at that farm and work. 
Yet the Supreme Court held that, absent the use of physical 
force or illegal coercion, Federal law did not reach this 
situation.
    In order to prosecute cases like this, we have to expand 
the definition of ``coercion'' to cover situations that fall 
short of force or threat of force, but in which the victim has 
no valid alternative but to submit to a condition of servitude. 
In particular, the law has to acknowledge that some immigrants 
and foreign nationals upon whom traffickers prey are 
particularly susceptible to coercion because of their 
unfamiliarity with our language, laws and customs.
    Fourth, we must increase the statutory penalties for 
violations of involuntary servitude, peonage and related laws, 
from the current 10 years, to 20 years. These penalties have to 
be made commensurate with the severity of these crimes.
    And finally, we need to support the creation of a new, 
nonimmigrant classification, a T visa, that would be available 
to victims of trafficking. Too often, law enforcement 
authorities are hampered in their ability to combat trafficking 
by the reluctance of victims to come forward for fear of 
deportation or other adverse immigration consequences. This new 
category would strengthen the ability of law enforcement to 
detect, investigate and prosecute trafficking offenses while 
simultaneously offering a temporary safe haven to victims.
    In conclusion, the Department of Justice has recognized the 
need to devote more effort and resources to combatting 
trafficking. The efforts of the Worker Exploitation Task Force, 
however, have demonstrated that we need stronger laws to 
prosecute traffickers. Gaps in Federal law make it impossible 
to prosecute some truly reprehensible forms of abuse. Those 
gaps should be filled.
    I would be pleased to answer any questions.
    [The prepared statement of Mr. Yeomans follows:]

                Prepared Statement of William R. Yeomans

                            i. introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify today on the problem of trafficking in human 
beings. This is a growing problem in the United States and around the 
world, and there is a great need for legislation to provide additional 
measures with which to prosecute traffickers and provide assistance to 
victims. Strengthened enforcement and prosecution against traffickers 
is crucial as trafficking is growing, in part, because it remains a 
high-profit, relatively low-risk criminal enterprise. I commend you and 
the subcommittee for conducting hearings on this important issue.
    Several weeks ago you heard from State Department officials about 
the extent of the trafficking problem in this country and abroad. Today 
I would like to discuss why the Department of Justice feels so strongly 
about the need for additional tools to prosecute traffickers.
                    ii. current prosecution efforts
    Exploitation takes many forms. Typical fact patterns include women 
who are kidnaped into prostitution, are forced into prostitution to 
repay a smuggling fee, or are otherwise transported for purposes of 
prostitution; migrant agricultural workers who are smuggled into the 
United States for a fee and then forced to work until they have repaid 
their crew leaders; and domestic servants who are not allowed to leave 
their employers' home or service. Let me give you specific examples.
    In 1995, state, local and Federal authorities discovered that more 
than 70 Thai women and men had been smuggled into the U.S. and enslaved 
in El Monte, California for up to 7 years. The workers were held in a 
guarded compound and forced to work in a sweatshop environment. At the 
time, the operation was one of the most egregious cases of worker 
exploitation identified in modern U.S. history. The U.S. Attorney's 
Office in Los Angeles and the Civil Rights Division successfully 
prosecuted the sweatshop owners for violations of involuntary 
servitude, conspiracy, and immigration laws.
    In 1997, we learned that dozens of hearing-impaired Mexican 
Nationals were enslaved and forced to peddle trinkets on the streets of 
New York, Los Angeles, and Chicago. They were kept under their captors' 
control through beatings, physical restraint, and torture. This case 
shocked the conscience of the Nation because the victims were exploited 
not simply because of their poverty and immigration status, but also 
because of their disability. Eighteen defendants eventually pled guilty 
to slavery conspiracy charges, as well as immigration, money 
laundering, and obstruction of justice offenses.
    Sadly, just as the so-called ``Deaf Mexican'' case was being 
resolved in 1998, we learned about another tragic situation. Mexican 
girls and women, some as young as 14 years old, were being lured into 
the United States and forced to work as prostitutes and sexual slaves 
in brothels in Florida and the Carolinas. The women and girls were 
forced to engage in sexual acts with as many as 130 men a week. They 
were beaten and assaulted, and some were forced to have abortions when 
they became pregnant. We prosecuted the case and obtained seven guilty 
pleas.
    We also secured guilty pleas last year from three defendants in the 
Commonwealth of the Northern Mariana Islands who were indicted for 
luring unsuspecting women from China to the CNMI with false promises of 
good jobs, only to enslave them in a karaoke bar brothel and force them 
to submit to prostitution.
    Because of the prevalence of such trafficking and worker 
exploitation, in April 1998, Attorney General Reno created an 
interagency task force to ensure that the Federal Government's efforts 
to combat and deter such heinous acts are better coordinated. The 
Worker Exploitation Task Force is co-chaired by the Acting Assistant 
Attorney General for Civil Rights, Bill Lann Lee, and the Solicitor of 
Labor, Henry Solano. This effort has brought many different 
investigative and prosecutorial agencies to the table. Justice 
Department components include the Civil Rights and Criminal Divisions, 
the FBI, the INS, United States Attorneys, the Office for Victims of 
Crime, and the Violence Against Women Office. Other partners include 
the Departments of Labor, State, and Agriculture, and the Equal 
Employment Opportunity Commission.
    But there is not only a need for better coordination, there is a 
need for more effective tools for law enforcement as well.
       iii. strengthening justice department enforcement efforts
    We need legislation, such as S. 1842, introduced by Senator 
Wellstone, that builds upon the existing legal framework to further 
strengthen the prosecutorial tools available to law enforcement. There 
are several crucial statutory revisions in the area of trafficking, 
involuntary servitude, and criminal exploitation of workers that must 
be addressed.
    First, current law permits prosecutions only in limited situations. 
We must change our laws to criminalize a much broader range of 
circumstances in which victims are subjected to involuntary servitude, 
peonage, and unlawfully exploitative labor conditions that the United 
States and the international community confront. In the United States, 
many of these cases will involve women trafficked into prostitution, 
but other cases may include coerced domestic servitude, migrant labor, 
or sweatshop labor. Penalties for violation should be commensurate with 
the severity of the crime: fines and/or imprisonment of up to 20 years, 
and life imprisonment if death results or if the violation includes 
kidnaping, an attempt to kidnap, aggravated sexual abuse, the attempt 
to commit aggravated sexual abuse, or an attempt to kill.
    Second, we must create the ability to prosecute those who knowingly 
profit from forced labor of those persons held in involuntary 
servitude, peonage, or unlawfully exploitative labor conditions. 
Present criminal law does not cover the use of farm labor contractors 
and other types of employment relationships which provide a liability 
shield between the direct oppressor and the economic beneficiary of the 
slave labor. In order to combat criminal worker exploitation, it is 
necessary to punish those who knowingly benefit or profit from slavery 
or use contractors, intermediaries, and others to do their bidding. 
Without such a statutory tool, these knowing beneficiaries will simply 
continue the cycle of criminality by hiring replacements for those who 
are apprehended and prosecuted. Moreover, through this legislation, law 
enforcement can prosecute those who transport others using fraud, 
deceit, and misrepresentation, providing the victim with no viable 
alternative but to perform the labor or services.
    Third, we must expand the types of coercion that can be used to 
demonstrate involuntary servitude and peonage under Federal law. One of 
the biggest enforcement hurdles we face is that the U.S. Supreme Court 
requires a showing that the defendant used actual force, threat of 
force, or threat of legal coercion to enslave the victim. As a result, 
Federal law suffers from gaps in coverage. Law enforcement cannot reach 
and prosecute those who intentionally use more subtle, but no less 
heinous, forms of coercion that wrongfully keep the victim from leaving 
his or her labor or service.
    For example, the Justice Department investigated a case in the 
Midwest where a woman was hired as a domestic helper. Upon her arrival, 
her passport was taken. She was forced to work 16 hours a day, 7 days a 
week, and she was given only small rations of food. When she 
complained, her employer threatened to have her deported. They told her 
that if she ever left the house unescorted, they would call the police 
and have her put in jail. But despite this exploitation and cruel 
treatment, it is unlikely that we can prosecute this case because 
psychological and economic coercion was the method used to keep the 
victim trapped in a condition of involuntary servitude.
    To prosecute cases like this, we must statutorily expand the U.S. 
Supreme Court's definition of coercion by creating two additional 
methods of proof to use in those situations which fall short of force 
or threat of force but which are nonetheless deliberately coercive: (1) 
where representations are made to any person that physical harm may 
occur to that person, or to another, in an effort to wrongfully obtain 
or maintain the labor or services of that person; and (2) where the use 
of fraud, deceit, or misrepresentation toward any person exists in an 
effort to wrongfully obtain or maintain the labor or services of that 
person, where the person is a minor, mentally disabled, or otherwise 
susceptible to coercion. Some immigrants and foreign nationals whom 
traffickers deliberately select and prey upon are particularly 
susceptible to coercion because of their unfamiliarity with our 
language, laws, and customs.
    Fourth, we must amend Title 18 to increase the statutory penalties 
for violations of involuntary servitude, peonage, and related laws from 
10 years imprisonment to 20 years. In addition, Congress should provide 
for a maximum sentence of up to life imprisonment if such acts include 
kidnaping, an attempt to kidnap, aggravated sexual abuse, an attempt to 
commit aggravated sexual abuse, or an attempt to kill, thereby bringing 
the potential penalties for these crimes in line with those applicable 
to related criminal offenses. In addition, attempts to violate criminal 
worker exploitation laws must be punishable in the same manner as a 
completed violation of those sections. These more stringent penalties 
better reflect the severity of the crimes, bring the maximum penalties 
in line with current law, and increase the potential deterrent effect 
to traffickers.
    Fifth, we must amend Title 18 to address the sadly common scenario 
where traffickers strip a trafficking victim of his/her identification 
documents, passport, and immigration papers as a means of control and 
coercion. In addition, we believe fines and/or imprisonment of up to 5 
years for persons who contribute to the trafficking scheme by 
confiscating any type of identification documentation must be imposed.
    Sixth, we support the creation of a new nonimmigrant 
classification--a ``T visa''--that would be available to victims of 
trafficking. Too often, law enforcement authorities are hampered in 
their ability to combat trafficking by the reluctance of victims to 
come forward for fear of deportation or other adverse immigration 
consequences. This new category would serve the twofold purpose of 
strengthening the ability of law enforcement to detect, investigate, 
and prosecute trafficking offenses while simultaneously offering a 
temporary safe haven to victims, in keeping with the humanitarian 
interests of the United States. Current law is insufficient to deal 
with trafficking cases because it fails to address situations involving 
multiple victims and egregious civil offenses, such as many labor law 
violations. Up to 1,000 visas would be available each year, renewable 
for up to 3 years, with the possibility for adjustment to permanent 
legal status where justified on humanitarian grounds or is otherwise in 
the national interest.
    In addition, the Justice Department strongly supports provisions 
creating a grant program specifically targeted to the provision of 
services for victims of trafficking.
                             iv. conclusion
    In conclusion, there are several statutory provisions that are 
needed to strengthen the ability of law enforcement to prosecute 
traffickers. We must enhance consistency in the criminal code by 
bringing punishments in this area in line with those provided by other 
Federal statutes. While a trafficker may violate U.S. law in some 
instances through the commission of illicit activities, gaps in 
coverage currently exist which make it impossible to prosecute certain 
reprehensible forms of abuse. Those gaps must be filled so that law 
enforcement can most effectively attack traffickers through coordinated 
investigation and prosecution that invoke the full force of these laws. 
Thank you for the opportunity to testify today and I would be pleased 
to answer any questions.

    Senator Brownback. Thank you very much, Mr. Yeomans, for 
your testimony and for your work within the administration on 
this.
    I have some questions. I want to run the clock at 10 
minutes, and maybe that would remind Paul and I, back and 
forth, that we have two other panels here to go to, as well.
    Mr. Yeomans, I appreciated all the comments you made on 
what you were seeking on additional legislative authority. I 
want to go right at a particular issue, though, that you raised 
within this. You talked about needing authority to broaden what 
coercion is and to broaden that definition. You gave one 
example of the coercion that you are talking about. Are there 
other examples of what you are talking about? We want to build 
a legislative record about what we mean about coercion. What 
else would you identify as coercion that you would be talking 
about here?
    Mr. Yeomans. Well, I think, from looking at our cases, we 
can pick out a number of kinds of coercion. Unfortunately, a 
typical situation is that women are brought into this country 
with false documents, or smuggled in. If they have 
documentation when they arrive, it is taken away from them. So 
they are left adrift in society.
    Frequently they are charged the cost of their 
transportation for being brought into the country, and they are 
told that they have to work in prostitution or in some other 
form of labor to pay off their debt. And they are given no 
choices. Frequently they are told that if they do not, they 
will suffer consequences, whether legal or otherwise. 
Frequently the people who are brought into this country have 
very little knowledge of our society and of our customs, and 
they are told that, for instance, if they go outside the house, 
they will be set upon by horrible people.
    So these are the kinds of deception that really give the 
victim no sense of an alternative to staying put and doing the 
work that they are being told to do. We have also had 
situations where the use of physical force is really 
unnecessary. For instance, when people are brought in from 
societies with a caste system, and when lower-class people are 
used to accepting orders and they will accept those orders, 
under conditions that simply would not be tolerated in this 
country. So there are a number of ways that coercion can be 
brought to bear short of an actual direct threat of force.
    Senator Brownback. I would invite you, for our record, 
after this hearing is over, to submit to us a number of 
different examples of the coercion. Because I want to build 
into that record, here are all the types of coercion, or some 
of the types--this would not be an exclusive list, but of a 
coercion that we are talking about.
    Because what my experience has been in talking with women 
that have been forced into these circumstances is that much of 
it is trickery. And then, once tricked across the border, you 
are captured. Because you have papers, and then those papers 
are taken from you. So you went by trick, and then you are 
captured because of documentation loss or feeling of a lack of 
any sort of power or ability. That all is a form of coercion. 
And I would hope that we could get that down with some clarity.
    I presume the administration has been able to infiltrate 
some of the rings that are operating now in this sex 
trafficking or in labor trafficking. How are you finding that 
they operate, particularly in bringing people into this 
country? Are there certain areas that they are bringing people 
from, certain countries, into the United States? And how do 
these rings operate?
    Senator Wellstone. Excuse me. Can you add to that, when you 
are answering it, sort of which countries you might view as the 
worst offender countries? Maybe we could get some sense of 
that.
    Mr. Yeomans. I think I can answer that with a couple of 
recent examples from our prosecutions. Just this past year we 
prosecuted a case in Florida that I mentioned in my testimony, 
where women were brought in from Mexico.
    Senator Brownback. Was this done by a ring, an organized 
ring?
    Mr. Yeomans. We ended up prosecuting 16 defendants, who 
constituted a ring. They brought women across the border, 
frequently using coyotes to smuggle them across the border. And 
they were lured with promises of legitimate jobs. They were 
told that when they reached the United States they would have 
restaurant jobs or agricultural jobs or work as domestic 
servants.
    When they arrived in the country they were basically 
imprisoned and forced to work as prostitutes. And they were 
held in brothels that served migrant laborers. And they were 
moved, along with migrant laborers to different migrant labor 
camps, to give the migrant laborers variety. So that is one 
example of the way people come in. And certainly Mexico is one 
of the principal source countries for this kind of activity.
    In another recent case, another one I mentioned in the 
CNMI, women were brought in from China. And we have seen a 
number of people brought in from China. Again, they were 
brought with the promise of legitimate jobs, this time working 
in a restaurant. And when they arrived, again, they were forced 
into prostitution. Their documentation was taken away. They 
were of course afraid to come to the authorities because they 
were there unlawfully. And they were forced to serve as 
prostitutes.
    Another example is the El Monte case, from 1995, that I 
mentioned, where scores of workers were brought in from 
Thailand to work in sweatshops in California. So I think that, 
generalizing from our prosecutions, we have seen Mexico and 
Latin America, China and Southeast Asia as very significant 
areas.
    Senator Brownback. Mr. Yeomans, I presume the 
administration will be strongly supportive of legislation 
moving through the Congress to put forward the sort of 
legislative vehicles and prosecution tools that are needed for 
us to use. I would note that the administration is adverse to 
naming countries which flagrantly accommodate trafficking.
    Now, I would be curious as to your rationale on this. 
Because from what we have heard of previous testimony, when I 
visited with some people, there are certain countries that seem 
to have more trafficking flowing from than other countries, 
some who seem to be more interested in this topic than other 
countries. Why do you choose not to name countries or propose 
any sort of tools to use from the United States as a country 
against a country where the trafficking might occur from?
    Mr. Yeomans. Well, the administration, of course, has 
opposed sanctions. The rationale is that, at least from the 
perspective of the Department of Justice, is that if we are to 
root out this problem, one of the most effective things for us 
to do is to form close working relationships with law 
enforcement agencies in the countries from which people come, 
from which the trafficked human beings come.
    And as soon as we impose sanctions or as soon as we try to 
make an international pariah out of one of these countries, 
that kind of cooperation tends to shut down. And it is a 
difficult balance. But it is our calculation that we will make 
more progress by working closely with law enforcement in those 
countries than we will by imposing sanctions and shutting down 
that cooperation.
    Senator Brownback. Mr. Yeomans, thank you for being here 
today. And let me just say as I conclude, I hope the 
administration will make this one of their top foreign policy 
priorities, if not one of their top total legislative 
priorities during this Congress. There is companion-type 
legislation--I know people disagree on the elements within it--
that is moving forward in the House. We hope to put that 
forward here. And we would hope the administration would lean 
in aggressively to help us pass this legislation this year.
    Mr. Yeomans. Thank you, Mr. Chairman.
    Senator Brownback. Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. I will try to 
be relatively brief, because I know we have other panels and we 
want to hear from everyone.
    Mr. Yeomans, actually, as I was listening to Senator 
Brownback, one of the things that we have been focusing on in 
negotiation with the administration--and I certainly know there 
is strong support, Secretary Harold Koh has just been very 
focused on this and I think he has given both of us very good 
advice, and others as well, but let me ask you this: On the 
naming of countries, it would seem to me that what we could do 
is--the administration is right that in some cases it is not 
the governments of a country that are really responsible--but 
what I think, since it is going to be key that those 
governments cooperate, you just set up a threshold, and say, 
look, this is the test that needs to be set to show, Sam, that 
these governments are in fact working with us.
    If they do not meet the threshold, then they are named. If 
they meet the threshold, then it is different. But I think we 
do need to have some way of really providing, if you will, the 
incentive for these governments to cooperate.
    Senator Brownback. Would you respond to that very point on 
naming--not about sanctioning, but about naming--the countries?
    Do you mind if I jump in on that?
    Senator Wellstone. Not at all. We are working together, are 
we not? You can jump in.
    Mr. Yeomans. I think my reasoning on that is the same as it 
would be on sanctions. While obviously we want to identify 
where the problems are, our approach is to try to solve those 
problems and to try to get at those problems through law 
enforcement and through working with the people who are in 
those countries, and we hope the governments of those 
countries, to try to do something about the problem.
    And it is very difficult for us simply to catch it on this 
end. We need to be able to reach back to those countries. We 
have a number of instances where we have prosecuted people who 
have fled and gone back to these countries. And we need their 
cooperation very much. So I think that we are very reluctant to 
name countries or work to impose sanctions.
    Senator Wellstone. Well, I do not want to argue with you 
today. I appreciate your being here. But I think Senator 
Brownback and I may be fairly firm on this, and I think there 
comes a point, there is a standard of reasonableness where you 
do ask those governments to meet a threshold test to whether 
they are cooperating or not. And it seems to me that it is 
appropriate to name those countries that are unwilling to do 
so. There may be no need to if those governments are 
cooperating.
    I think in the legislation that we are considering working 
on, there are sort of the three ``P's.'' And you have talked 
about two of them and I want to ask you about one. One is 
preventing trafficking. One is prosecuting traffickers, and you 
talked about that. And one is protecting the human rights of 
trafficked persons. And I agree with you about that, as well. 
But the irony right now is people are worried about being 
deported. They are scared to death, people cannot defend 
themselves, and we have got to change that.
    On the goal of preventing trafficking, what do you 
recommend there? What do we need to be looking at?
    Mr. Yeomans. Of course, I confess that I approach this from 
the perspective of a Department of Justice prosecutor.
    Senator Wellstone. I understand.
    Mr. Yeomans. And I believe strongly that prosecution 
contributes greatly to prevention. And as I said in my opening 
statement, for a long time now, trafficking in human beings has 
been a fairly low-risk, high-profit activity. And we need to 
change that. We need to make people who are engaging in 
trafficking pay. And we need to make them think that they are 
likely to get caught. So that is something that we can do on 
this end.
    Obviously the ultimate solution to all of this is providing 
economic opportunities. Because people who have economic 
activities are going to be less susceptible to the kinds of 
deceit, the kinds of fraud that get them into these situations. 
So I think those are my two answers.
    Senator Wellstone. I appreciate that. I, too, have met with 
the women who have gone through this living hell. And no matter 
what the country is, I think it is the same story. Which is 
people come here from countries that are devastated by war or 
economic chaos and people come here for opportunities. And I 
think you are right.
    Maybe this is putting you on the spot, I do not know, but I 
want to come back to the whole issue of the worst-case 
trafficking offenders. Is this maybe what you do not want to 
name? Maybe this is the question that we were disagreeing on. 
Is that the problem? I would be interested in some of the 
countries that you view as the worst-case offenders.
    Mr. Yeomans. And I think my answer really took me to the 
extent of my knowledge.
    Senator Wellstone. You gave some examples, OK.
    Mr. Yeomans. Which is that, based on our prosecutions, 
those are the countries that we have found to be contributing.
    Senator Wellstone. Let me ask you then something different. 
On the 50,000, or thereabouts, women and children, that does 
not include men; is that correct?
    Mr. Yeomans. As I said, the estimates are soft, but one 
estimate certainly is that it is 50,000 women and children, not 
including men.
    Senator Wellstone. So if we were to include men, like the 
ones that were trafficked to the Northern Mariana Islands or 
the deaf Mexican case, which goes into agriculture or whatever 
it is, has anyone collected the data to determine the numbers 
of men who are trafficked to the United States?
    Mr. Yeomans. I have not seen a separate number for men. The 
difficulty in collecting these data is obvious, because the 
victims simply are invisible for the most part and are forced 
to remain that way.
    Senator Wellstone. One quick recommendation I would just 
mention is it would seem to me that this interagency 
subcommittee--FBI, CIA and others--that is one of the things 
they could do, in addition to collecting the data on women and 
children, the men that are in these situations. I just would 
point that out.
    I think your testimony was very helpful. I thank you for 
being here. I appreciate the work that you do, as well.
    Mr. Yeomans. Thank you very much, Senator.
    Senator Brownback. Thank you, Mr. Yeomans. And we look 
forward to working with the administration to pass this 
legislation this year. We will solicit your input and your 
cooperation in working with us, as well, because we will need 
every bit of it to get it on through.
    Mr. Yeomans. Thank you, Mr. Chairman. I hope we can get it 
done.
    Senator Brownback. Thank you.
    The next panel we will call forward will be introduced by 
Dr. Laura Lederer. Dr. Lederer, who I mentioned in my opening 
statement, is the director of the Protection Project at Harvard 
University. She has worked extensively and tirelessly on 
determining and mapping the paths that traffickers are taking 
in moving primarily women and children internationally. She 
will be actually introducing the panel.
    I would reiterate yet again to anybody with a camera in the 
audience, if you would not photograph the women that will be 
testifying. And the television cameras we have asked previously 
to shoot below their faces so that the women would not be 
endangered back home. They have come here at great personal 
risk themselves. I appreciate their bravery and their courage 
in coming here.
    Dr. Lederer, again, Senator Wellstone and I and millions of 
people around the world are grateful to you and your work and 
the other organizations that have done so much to bring this 
issue out into the open and hopefully shine some light that we 
can start to solving this issue that has been in front of us 
now that has either been ignored or not really particularly 
paid much attention to at all.
    Thank you for the work here that you have done and thank 
you for bringing this panel together so that we could hear 
directly from people that are involved in it.
    Dr. Lederer.

STATEMENT OF LAURA J. LEDERER, PH.D., DIRECTOR, THE PROTECTION 
     PROJECT, THE KENNEDY SCHOOL OF GOVERNMENT AT HARVARD 
UNIVERSITY; ACCOMPANIED BY: SURVIVOR, MARSHA, RUSSIA; SURVIVOR 
           OLGA, UKRAINE; AND SURVIVOR MARIA, MEXICO

    Dr. Lederer. Mr. Chairman, members of the committee, thank 
you so much for the opportunity to bring trafficking survivors 
to this hearing. I am Laura Lederer, director of the Protection 
Project of the Women and Public Policy Program at Harvard 
University.
    For the last 4 years, we have been gathering the laws 
addressing commercial sexual exploitation of women and children 
from 220 countries and territories around the world. The 
purpose of the project is to create a data base that will house 
the laws, statistics on the scope of the problem, trafficking 
routes, legal cases and survivors' stories. The preliminary 
data base will be complete in a couple of months and will be 
available to policymakers, human rights advocates, legal 
scholars, students, and others working to stop trafficking.
    I am very pleased to be here today to introduce to you 
three young women who have come a long way to tell their 
stories. They come here in the hope that, in speaking, they can 
prevent what happened to them from happening to other young 
women and girls, for their stories, sadly, are being repeated 
by the hundreds of thousands in countries around the world.
    In fact, we found at the Protection Project that almost 
every country in the world has a trafficking problem of one 
sort or another. The United States, a receiver country, has as 
much a problem as Russia, a sender country. Recognition of this 
problem is now largely due to an extraordinary coalition of 
faith-based, women's and children's groups. For those of us who 
have been working in this field for over 20 years, it is really 
thrilling to see the progress that is being made in this matter 
to bring it to national attention since the powerful commitment 
of church groups, such as the Southern Baptist Conference, the 
National Association of Evangelicals, Prison Fellowship, and 
others.
    As John Busby, National Commander of the Salvation Army, 
reminds us, they are simply keeping faith with their own 
religious traditions when, centuries ago, they worked to stop 
another kind of slavery.
    I also want to recognize Rabbi David Saperstein, of the 
Religious Action Council for Reform Judaism, and Jay Lintner, 
of the National Council of Churches, who have joined together 
with Jessica Neuwirth and Gloria Steinem, of Equality NOW; 
Gloria Feldt, of Planned Parenthood; Ellie Smeal, of Feminist 
Majority, and a number of other women's organizations who have 
been working tirelessly to stop trafficking of women and 
children.
    And, finally, we have a wonderful partnership with the U.S. 
Fund for UNICEF, ECPAC and several other children's groups. 
This extraordinary coalition is determined that America will 
play the same role in stopping this new form of slavery as 
Britain did years ago, stopping African slavery.
    There have also been a number of individuals and 
organizations who helped me bring the survivors, and I need to 
recognize them now. In the United States, Equality NOW made the 
first contacts abroad. And, through them, we located Olga and 
Marsha. In Russia, the American Bar Association, Central and 
Eastern European Law Initiative, served as the central 
clearinghouse for weeks as we brought the young women from 
various corners of the country.
    I want to also thank Mariam Bell, Lisa Thompson, J. Robert 
Flores and Michael Horowitz, who have played a tremendous role 
behind the scenes. Thanks also to my staff and students, Ciara 
Wade and to Sharon Payt of Senator Brownback's office, for all 
your very hard work. All of these people worked to make it 
possible for you now to hear the firsthand stories of these 
trafficking survivors.
    So we have here today with us Marsha, Olga and Maria, who 
are going to share their stories. And in addition, we are going 
to read into the record for the first time the story of Rosa, 
who was the child who was trafficked as part of the Cadena 
ring. Together, these stories provide a powerful impetus for us 
here in the United States to act.
    We are the ones who can help young women and children who 
have been trafficked. We can draw attention to their plight. We 
can create the prevention programs and the aftercare 
facilities. And we can help to arrest and prosecute those 
responsible. Together, we can stop the traffickers for good.
    [The prepared statement of Dr. Lederer follows:]

               Prepared Statement of Dr. Laura J. Lederer

    Each year by force and fraud as many as a million women and 
children are trafficked into sexual slavery in countries around the 
world. Sex trafficking is the movement of women and children, for 
purposes of prostitution or some other form of sexual servitude or sex 
slavery. It includes the recruitment, transportation, harboring, 
transfer, or sale of human beings. Most sex trafficking includes some 
form of coercion--such as kidnapping, threats, intimidation, assault, 
rape, drugging, or other form of violence.
    It is difficult to estimate the total numbers of women and children 
worldwide because it is a criminal activity and usually takes place 
underground. However, UNICEF has estimated that 1 million children are 
trafficked into prostitution per year in southeast.
    While media attention has focused on a few countries in Eastern 
Europe and in Southeast Asia, we believe that almost every country has 
a problem with sexual trafficking. Some countries, mainly the poorer 
and developing countries are ``sender'' countries--women and children 
are being trafficked across their borders to other countries. Some 
countries, mainly the wealthier, more developed countries, are 
``receiver'' countries. Some countries are ``transit'' countries--they 
have ports, or pass-throughs, along the trafficking routes moving human 
beings from one place to another.
    Most women and children are tricked, deceived, and lured into being 
trafficked. Some are actually forced--through threats, kidnapping or 
violence. Each story is different, depending on the circumstances.
    The best solutions will address what we call the ``three Ps''--
prevention, prosecution, and protection. On the front end, educational 
outreach to women and children, to men who care and to countries 
themselves, needs to be undertaken. This outreach would teach young 
women what to watch for, and how not to be taken in by a trafficker or 
agent. It would also teach men and boys not to frequent brothels or 
solicit sex for money in their own countries or abroad, for as long as 
men do this there will be a demand for young women and traffickers will 
move in to supply that demand. Finally, it would educate countries as 
to how to draft, pass and enforce strict laws prohibiting trafficking 
of women and children for purposes of prostitution.

    Dr. Lederer. I would like to start with Marsha's story.
    Senator Brownback, what they are going to do is read their 
first paragraph in Russian, and then the rest will be in 
English.
    Senator Brownback. Wonderful.
    Marsha [through interpreter]. Mr. Chairman, my name is 
Marsha, and I am from southern Russia.
    In 1996, when I was 24, I visited St. Petersburg. I was 
preparing to return home to my village and waiting at the train 
station when a woman approached me. She started talking to me 
about life's problems, encouraging me to share mine with her. 
We had a nice talk, and the woman suggested that she could help 
me get work somewhere abroad. She told me that she had an 
acquaintance in Germany, a woman, who could contact me with a 
family for whom I could work as a housemaid.
    I was issued a tourist visa to Spain, and left on a bus 
tour of Europe in February 1997. I was supposed to get off the 
bus in Germany. There I was met by a woman named Jana, who had 
a flat in Hamburg. She took me to an apartment there, where I 
met about 20 other girls who had come from Russia and Poland. 
Most of them were younger than I.
    After a few days, Jana told me she could not find a family 
who would hire me as a housemaid. She said I owed her 2,000 
German marks, which is approximately 1,000 U.S. dollars, and 
said that I could earn that money by providing sexual services 
to men. I was shocked. I was afraid to say no, because she had 
my passport, and I did not know any German. She and her 
husband, who was a drug dealer, threatened to beat me if I 
tried to leave, and said that if I went to the police, I would 
be deported. They said no one would care what happened to me 
and that no one would help.
    Girls who would not cooperate were taken down to the 
basement of the bar, where they were beaten across their backs, 
where it would not show but it would still be painful and 
possibly would cause kidney damage. I was afraid they would use 
drugs and alcohol to force me to prostitute myself. I had seen 
other girls given cocaine and beaten into submission. Jana 
tried to tell me that it did not happen, but her husband 
threatened that I would suffer this fate if I did not go along 
with them.
    Downstairs from our apartment there was a bar where we were 
told to find clients for sex. I tried not to attract attention 
by dressing modestly and sitting by myself. The girls who had 
come to Germany knowing they would be prostitutes were 
regularly beaten. Our passports were kept behind the bar, but 
we were afraid to take them because big, burly guards watched 
us all the time. The bar had surveillance cameras covering the 
bar and the road so that they could see clients or police 
coming.
    I was kept there for 2 months and never made much money. I 
only had a tourist visa, good for 1 month. But Jana told me she 
could prepare documents that would say I was married to a 
German man. She would do this if I would stay longer and work 
for her. I refused, and so she sold me to a Greek pimp who was 
operating in Germany.
    Shortly after that, the police raided the bar and I was 
taken, along with the other girls, to the station. I was not 
given a chance to explain what had happened to me, that I never 
wanted to be there, that I had been tricked, threatened and 
intimidated into staying. Instead, I was charged with 
prostitution and held in a jail cell. I was issued an order to 
leave Germany or face deportation.
    The Greek pimp gave me money for a ticket back to Russia. 
Some would say that he took pity on me. But, in reality, this 
helped him avoid being arrested and charged with pimping. He 
was never charged, and the German police never attempted to do 
anything about the network of people who had trafficked me, 
from the women who recruited me to the agent who got me the 
visa to the Russian woman pimp and her husband.
    Olga [through interpreter]. Mr. Chairman, my name is Olga. 
I am from Siberia, in Russia.
    In December 1998, a female acquaintance of mine returned 
from a trip to Israel with a lot of money. She told me that she 
had worked as a housemaid, she had worked in shops and in bars, 
and that I could also get a job. I asked her how she found work 
without knowing the language. She told me that there were many 
Russian immigrants in Israel who wanted to hire Russian women 
so that their children would not forget their heritage and 
their native tongue.
    I had no money for a ticket to Israel, but the woman told 
me not to worry, I will buy your ticket, you will make so much 
money that you will be able to pay me back in no time. I 
decided to go, and got a travel visa. She went on ahead of me 
to Israel, telling me that she would meet me at the airport.
    When I arrived, she was waiting with two big, bulky Israeli 
men. We went to a small city in Israel, where they showed me 
around, introduced me to many people, and they spoke in Hebrew 
so that I could not understand. They told me they were people 
who might hire me. For a few days, it was as if I was a tourist 
just visiting the country. Then the men came back and told me 
that they had a job for me, but because I did not have a visa 
to work in Israel I would have to give them my passport.
    A couple of days later, they returned a passport to me, a 
false passport, with my picture but with the name of an Israeli 
woman. Then another Israeli man came and my friend told me to 
put my things in his car, that he would take care of 
everything. He took me to Tel Aviv. He told me then that I had 
been sold to him for $10,000 and that I would have to pay him 
back. He told me I would have to prostitute myself.
    I was angry and infuriated. I screamed and fought every 
time he tried to take me from the apartment where I was 
staying. Because of this, he separated me from the other 
Russian women he owned. Every day I was taken to the brothel 
where all the other women were Israeli. I was still resisting, 
so I was not making much money for my captor.
    He then told me that I had earned only $8,000 of my debt 
and that he would find me another job to make the rest of the 
money. He promised I would not have to be a prostitute anymore. 
He took me to a hotel and told me to wait for my new employer. 
Two men came to meet me there. They gave me something to drink 
which turned out to be drugged. I lost consciousness.
    When I woke up, I was locked in a dark room with no 
furniture. I could hear people speaking Arabic, but I could not 
understand what they were saying. I tried to escape but the men 
caught me quickly and again gave me some drug to take, to calm 
me down. They told me to just sit down and that if I behaved 
well, everything would be OK.
    A Russian-speaking Arab told that I had been kidnapped and 
was in Palestine. I began to be very afraid that they would 
sell me to a harem in Iraq or someplace worse. The men there 
did not tell me what I was to do. I told them that I was 
Muslim, hoping that that would provide me with some protection. 
Several days later they sold me back to another brothel in 
Israel.
    I told the brothel owners there that I would never work for 
them, so they locked me in an apartment and sent clients into 
the apartment anyway. If I refused to work, they would not feed 
me. They beat me, but only across the back, near my kidneys, so 
it would not hurt my appearance. It was very painful.
    I saw only clients who spoke no Russian, so I could not 
tell them my story. I was forced to see between 15 to 20 
customers a day, and the brothel owners gave me drugs so that I 
would continue working.
    I began to feel that I was losing my mind, and they gave me 
some pills, supposedly to cure my headaches. I found out later 
that it was a drug called ecstasy, a drug that makes you relax 
and more willing to be intimate. After 3 weeks, I became 
dependent, addicted to the pills, and began to ask for them 
every day.
    I began also to learn some Hebrew from my clients so that I 
could explain to them what had happened to me. Unfortunately, 
these customers never came back. But, finally, I told a Polish 
Jew of my plight and he contacted the police. The brothel was 
raided in May 1999, and I was deported back to Russia.
    Maria [through interpreter]. Good afternoon. I would like 
to thank the Foreign Relations Committee for the opportunity to 
speak to you on behalf of trafficking survivors. My name is 
Maria. I am in disguise today because I am in fear that my 
captors would recognize me and thus place my life and that of 
my family in danger.
    My story begins in May 1997, in Veracruz, Mexico. I was 
approached in Mexico by an acquaintance about some jobs in the 
United States. She told me that there were jobs available in 
restaurants or bars. I was working as a domestic helper in 
Mexico and had a job at a general retail store. This seemed 
like a great opportunity for me to earn more money for my 
daughter and family. I accepted the job and soon was brought by 
a coyote to Texas.
    Once over the border, I was kept at a safe house. Then I 
was transported to Florida. Once in Florida, one of the 
ringleaders told me I would be working in a brothel as a 
prostitute. I told him he was mistaken and that I was going to 
be working in a restaurant, not a brothel. He then ordered me 
to work in a brothel. He said I owed him a smuggling debt of 
approximately $2,200, and the sooner I paid it off the sooner I 
could leave.
    I was 18 years old and had never been far from home and had 
no money or way to get home. Next I was given tight clothes to 
wear and was told what I must do. There would be armed men 
selling tickets to customers in the trailers. Tickets were 
condoms. Each ticket would be sold for $22 to $25 each. The 
client would then point at the girl he wanted and the girl 
would take him to one of the bedrooms. At the end of the night 
I turned in the condom wrappers. Each wrapper represented a 
supposed deduction to my smuggling fee.
    We tried to keep our own records, but the bosses would 
destroy them. We were never sure what we owed. There were up to 
four girls kept at each brothel. We were constantly guarded and 
abused. If anyone refused to be with a customer, we were 
beaten. If we adamantly refused, the bosses would show us a 
lesson by raping us brutally. They told us if we refused again 
it would even be worse the next time.
    We were transported every 15 days to another trailer in a 
nearby city. This was to give the customers a variety of the 
girls and also so we would never know where we were in case we 
tried to escape. I could not believe this was happening to me.
    We worked 6 days a week and 12-hour days. We mostly had to 
serve 32 to 35 clients a day. Weekends were worse. Our bodies 
were utterly sore and swollen. The bosses did not care. We 
worked no matter what. This included during menstruation.
    Clients would become enraged if they found out. The bosses 
instructed us to place a piece of clothing over the lamps to 
darken the room. This, however, did not protect us from the 
clients' beatings. Also, at the end of the night, our work did 
not end. It was now the bosses' turn with us. If anyone became 
pregnant, we were forced to have abortions. The cost of the 
abortion would then be added to our smuggling debt.
    The bosses carried weapons. They scared me. The brothels 
were often in isolated areas. I never knew where I was. It was 
all so strange to me. We were not allowed to go outside the 
brothels. I knew if I tried to escape I would not get far, 
because everything was so unfamiliar. The bosses told me that 
if I escaped, INS would catch me, beat me, and tie me up. This 
frightened me. I did know of one girl who escaped. The bosses 
searched for her and they said they were going to get their 
money that she owed from her family. They said they would get 
their money one way or another.
    I know of another girl that escaped and was hunted down. 
The bosses found her and beat her severely. The bosses showed 
her a lesson by beating and raping her brutally. All I could do 
was stand there and watch. I was too afraid to try to escape. I 
also did not want my family put in danger.
    I was enslaved for several months. Other women were 
enslaved for up to a year. Our enslavement finally ended when 
the INS, FBI and local law enforcement raided the brothels and 
rescued us. We were not sure what was happening on the day of 
the raids. Our captors had told us over and over never to tell 
the police of our conditions. They told us that if we told, we 
would find ourselves in prison for the rest of our lives. They 
told us that the INS would rape us and kill us. But we learned 
to trust the INS and FBI, and assisted them in the prosecution 
of our enslavers.
    Unfortunately, this was difficult. After the INS and FBI 
freed us from the brothels, we were put in detention centers 
for many months. Our captors were correct. We thought we would 
be imprisoned for the rest of our lives. Later, our attorneys 
were able to get us released to a women's domestic violence 
center, where we received comprehensive medical attention, 
including gynecological exams for the first time, and mental 
health counseling.
    Thanks to the U.S. Government, some of our captors were 
brought to justice and were sent to prison. Unfortunately, not 
all. Some of them are living in Mexico in our hometown of 
Veracruz. They have threatened some of our families. They have 
even threatened to bring our younger sisters to the United 
States and force them to work in brothels, as well.
    I would never have done this work. No one I know would have 
done this work. I am speaking out today because I never want 
this to happen to anyone else. However, in order to accomplish 
this goal, women like me need your help. We need the laws to 
protect us from this horror. We need the immigration law to 
provide victims of this horror with permanent legal residence. 
We came to the United States to find a better future, not to be 
prostitutes.
    If anyone thinks that providing protection to trafficking 
survivors by affording them permanent residence is a magnet for 
other immigrants like myself, they are wrong. No woman or child 
would want to be a sex slave and endure the evil that I have 
gone through. I am in fear for my life more than ever. I helped 
put these evil men in jail. Please help me. Please help us. 
Please do not let this happen to anyone else.
    Thank you.
    Ms. Coto. I am going to read a statement from a minor 
survivor, who was 14 at the time that she was brought over into 
the United States and trafficked.
    Senator Brownback. Without objection, it will be entered 
into the record.
    Ms. Coto. This is the story of Rosa:
    When I was 14, a man came to my parent's house in Veracruz, 
Mexico, and asked me if I was interested in making money in the 
United States. He said I could make many times as much money 
doing the same things that I was doing in Mexico. At the time, 
I was working in a hotel, cleaning rooms, and I also helped 
around my house by watching my brothers and sisters. He said I 
would be in good hands and would meet many other Mexican girls 
who had taken advantage of this great opportunity. My parents 
did not want me to go, but I persuaded them.
    A week later, I was smuggled into the United States, 
through Mexico, to Orlando, Florida. It was then when the man 
told me my employment would consist of having sex with men for 
money. I had never had sex before, and I had never imagined 
selling my body. And so my nightmare began.
    Because I was a virgin, the men decided to initiate me by 
raping me again and again, to teach me how to have sex. Over 
the next 3 months, I was taken to a different trailer every 15 
days. Every night I had to sleep in the same bed in which I had 
been forced to service customers all day. I could not do 
anything to stop it. I was not allowed to go outside without a 
guard. Many of the bosses had guns. I was constantly afraid. 
One of the bosses carried me off to a hotel one night, where he 
raped me. I could do nothing to stop it.
    Because I was so young, I was always in demand with the 
customers. It was awful. Although the men were supposed to wear 
condoms, sometimes they did not. So eventually I became 
pregnant and was forced to have an abortion. They sent me back 
to the brothel almost immediately. I cannot forget what has 
happened. I cannot put it behind me. I find it nearly 
impossible to trust people. I still feel shame.
    I was a decent girl in Mexico. I used to go to church with 
my family. I only wish none of this had ever happened. Thank 
you.
    Senator Brownback. I thank all of you for your testimony 
and your bravery in coming here today, because you do that in 
sacrifice to yourselves in reliving a story of hell that each 
of you have experienced. And we hope that it will be something 
that will try to prevent this from happening to others and stop 
this ever-growing tide that is growing. As I sit here, when you 
read the story of a 14-year-old girl--and my oldest turns 14 
this year--it is real easy to visualize.
    I have also myself met with young girls from Nepal that 
were trafficked to India, most of them 11, 12, 13 years old 
when they were tricked out of their Nepalese villages and moved 
into Bombay, into the brothel district. When I met with them, 
they were returning to Nepal, and they were in Kathmandu at an 
aftercare facility, of which we will hear about later.
    But I was so struck by the lady, who was a great, great 
lady of kindness, who ran the place who herself was ill. But 
she pointed out the number of girls there, and just saying, she 
is dying, she is dying, she is dying. And their numbers were 
two-thirds were coming back with AIDS and/or tuberculosis at 
17-18 years of age, coming home to die.
    It was just one of the most awful things I had seen 
anywhere in the world, people who had gone through forced 
abortions, and it was just a disgusting situation. I do not 
know if I have seen anything any worse anywhere than really 
just how these girls were taken from their childhood and 
tricked into just a hell most could not even imagine. So I am 
glad finally people are stepping up and looking at this some.
    If I could, to any of the ladies, although I think maybe 
Olga might be best to answer this. In talking with any of the 
other women who had been tricked into this, did you find their 
stories were different from yours, of what their experiences 
were that took them to the same place that you were?
    Olga. For the most part, there were many women who had been 
tricked just like I had been. But there were also women who had 
gone voluntarily.
    Senator Brownback. When she says tricked as she was, is 
that much in the same way, offered a ticket to do domestic 
work?
    Olga. There is a whole marketing scheme developed. Girls 
that return from these type of jobs, it is in their interest to 
try to trick as many girls as they can to go abroad to work in 
prostitution. So that is what they do.
    Senator Brownback. When she says there is a whole marketing 
scheme, are these girls that return part of the overall network 
and they get paid to trick others?
    Olga. Yes, it is a network. Girls are encouraged to go 
back, and they are given money. They are told that if they will 
bring other girls, they will get money for each girl that they 
manage to trick. And it is a very organized network.
    Senator Brownback. Is this part of some of the Russian 
organized crime? Is it within Israel organized crime that your 
experience was associated?
    Olga. Doubtless, yes. Most definitely. It is part of the 
organized crime networks.
    Senator Brownback. Can you name any of the families that 
are in it through what you experienced? And do not answer with 
any names if you think that is of any problem.
    Olga. I am afraid to give names, because these criminals 
that are part of this network are located in my native town. 
And I could not give you names.
    Senator Brownback. I certainly respect that.
    Do any of the others know of other ways that different 
women were tricked or coerced into international sex 
trafficking?
    Olga. The agencies or the organizations that are involved 
in this type of trickery are now currently tourist groups that 
arrange for tours for dance groups or marriage organizations 
that are arranging marriages. They get people to come abroad in 
search of husband or to go with a dance troupe to dance, and 
this is how they get people in their clutches.
    Senator Brownback. Does anybody else care to respond to 
that, of other methods?
    [No response.]
    Senator Brownback. What would each of you like to see the 
United States do?
    Maria. To help and protect young women like ourselves and 
to stop trafficking. And so they will not suffer as we did in 
bringing us to the United States, where we were tricked into 
coming here. We want men to stop trafficking women, young women 
like ourselves, and to educate the public, and especially to 
let mothers know that they must be aware of this and protect 
their young children.
    Marsha. The Russian Federation does not have any laws 
against trafficking. And of course that is a Russian problem, 
but perhaps there is some way that the U.S. could influence the 
adoption of laws. The other thing that the U.S. could do is 
perhaps offer assistance to humanitarian organizations, to 
human rights organizations, so that they can educate the public 
so that they can publicize the plight and the situation, and 
also offer assistance to victims and survivors.
    Senator Brownback. Thank you all.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman.
    I will speak slowly so the translation can be done. I also 
want to thank you again for testifying before this committee. 
And I want you to know that we are both committed to passing 
legislation that will help, if not a stop, dramatically reduce 
this.
    If I maybe could get your reaction to two provisions in our 
legislation and see if you think it would be helpful. One would 
be, beyond what the USAID office does already, to provide much 
more information in your countries, brochures, written 
information, that people would have so that women could, if 
approached the way you were, would have a better idea of what 
was happening to them, that they would have a better 
understanding of this trafficking operation so that they would 
not be so exploited.
    And the second provision I want to mention and then just 
get your reaction to would be to make sure that, for women who 
have been through this like you have, that there is some 
assistance to help people regain their health so that they can 
go back to their community or live good lives. In other words, 
so much of this is essentially the equivalent of torture, to 
make sure there is some treatment for women who have gone 
through this.
    I see that Laura is nodding her head. Would these 
provisions be helpful?
    Marsha. Yes, we think that would certainly be very helpful. 
Education, educating the public is probably the most important 
aspect and really central to solving these problems, because 
there is just not enough information as to what kind of dangers 
they face and what the situation is.
    Senator Brownback. Dr. Lederer, if you want to respond, 
please feel free to as well.
    Olga. There is also an enormous need to finance and support 
crisis centers, to create new ones, because there is just no 
place where you can turn.
    Senator Wellstone. After you have been through this.
    Olga. Yes.
    Dr. Lederer. I think you have hit it on the head. It is a 
form of torture, and there is a post-traumatic stress syndrome 
that we see. And it lasts a long time. It is not something that 
is very easily recovered from. And it is a particular syndrome. 
It cannot be fit into the domestic violence syndrome. It is 
going to need its own types of crisis rehabilitation and so on.
    Virginia, you might want to speak to that a little bit, 
too.
    Senator Brownback. Please identify yourself for the record.
    Ms. Coto. I am Virginia Coto. I am a supervising attorney 
at the Florida Immigrant Advocacy Center. I represent Maria and 
13 other girls in the Cadena case. I have been involved in the 
case as of February 1998, and we will talk a little bit about 
that in the next panel.
    One of the things I agree with Dr. Lederer is I think the 
services are very unique. I work specifically with domestic 
violence victims. I have a project that directly assists 
battered immigrant women. Additionally, I also work with forced 
labor and sexual trafficking clients.
    But I think that the issues are very different. It is very 
difficult for the battered women's center to be able to really 
give the kind of support or psychological assessments or even 
find these kinds of services for them because there just were 
not any. This was something that we certainly had not heard of 
until the Cadena case. And it was very difficult to treat, but 
I think we definitely need crisis centers and I think also 
funding for services specifically targeting trafficking victims 
or survivors.
    Senator Wellstone. Just to finish. In our legislation we do 
provide resources for that. And we do put a very strong 
emphasis on the prosecution. We heard about that earlier. And 
we do put a very strong emphasis of the rights of women, so 
that they are not automatically deported back to their 
countries. All of which we have heard from everyone.
    Thank you very much for being here. Thank you for your 
testimony.
    Senator Brownback. Dr. Lederer, if I could, you have had 
more of a chance to visit with these witnesses. Are there 
things that they have told you that we should hear here in the 
committee or that you think would add illumination to this?
    Dr. Lederer. Well, I can say that we spent 4 hours 
yesterday hearing their stories and getting from them the 
detail that I think we need to know if we are going to address 
this in its entirety. Oftentimes these young women, when they 
come in, will say it was just horrible, it was terrible. And we 
have to find out exactly how was it horrible, how was it 
terrible. We have to find out exactly what are their mechanisms 
for recruitment and what are the trafficking routes, who is 
cooperating and how does it work. And all of that takes a great 
deal of time and questioning and so on. And I think we are at 
the very beginning of that.
    In terms of the three young women here, we have a more 
detailed record of our conversations with them which we can 
share with you later.
    Senator Brownback. Good. If you could, I think that would 
be good. And also even the nature of the aftercare, of what is 
needed. Did they describe to them--or I do not know if any of 
them would be willing to describe what they go through after 
this has happened to them. I do not know if any would feel 
willing to state that, what they are going through themselves 
now.
    And if it is too personal, I sure understand. I do think if 
it is something they can share, it is something that will 
illuminate just how difficult and hard and harsh this is.
    Olga. Yes, I had a very difficult time. Because after I 
came out of this, I had to, among other things, fight off the 
narcotics addiction that was forced on me. So I needed a lot of 
psychological assistance and help. And I am still constantly 
bothered by flashbacks and the horror of what I had to go 
through.
    Ms. Coto. Maria's case was very similar, other than the 
drug addiction, but Maria as well as the other Cadena survivors 
were numb. They were afraid to speak to people, trust people. 
They did not go outside. They were afraid to go outside. They 
were so used to being imprisoned that they could not go 
outside. And it was a long process for them to be able to do 
that.
    Flashbacks. One of the things that some of the survivors 
had to go through was they were taken to bars. And at the bars 
they recruited new clients and also were forced to have sex in 
cars, in the bosses' vans. And so every time they would see, 
say, a yellow-colored van passing by they would have horrible 
flashbacks. Walking down the street was extremely difficult to 
do because they did not know how to do that in the United 
States.
    They were afraid that cars would come on them or they would 
be kidnapped. So it is a series of psychological effects and 
traumas that they have had to try to overcome.
    Marsha. Well, what I would like to say is that what I went 
through absolutely morally destroyed me. I felt like my sense 
of self was completely taken away, that I had no control over 
my life, that I was nothing, that I was really--they totally 
destroyed me as a human being. It has been 3 years, and I still 
feel traumatized. The St. Petersburg crisis center has helped 
me a great deal, but I still have a lot of psychological 
assistance that I know I will need in the future ahead.
    And what really pains me is to know that the people who 
were responsible for everything that I had to bear have 
remained completely unpunished.
    Dr. Lederer. Can I just say in closing that I think the 
psychological, physical, emotional, mental, and spiritual 
degradation in this kind of a crime is complete and that the 
rehabilitation process has to be comprehensive in order to deal 
with all of that.
    Senator Wellstone. Can I just say thank you to you all.
    Senator Brownback. Thank you all very much. This has been 
quite illuminating. Thank you all for being willing to step 
forward in a really difficult situation and illuminate this. 
And we hope we are able to respond in kind at a high level of 
commitment that we will do something as a country to stop this 
horrible thing from continuing at the level that it is. Thank 
you all very much.
    Our next panel will be Dr. Lauran Bethell, director of the 
New Life Center, from Thailand. That is an aftercare center in 
Thailand associated with the American Baptist Church.
    Next will be Virginia Coto, director of the Florida 
Immigration Advocacy Center, an attorney who represented 
Mexican survivors of trafficking in Florida, who we have had as 
a translator as well in this prior panel.
    And Natalia Khodyreva, president of the Angel Coalition.
    Thank you all very much.
    Dr. Bethell, thank you very much for joining us here today. 
We look forward to your testimony.

   STATEMENT OF LAURAN D. BETHELL, PH.D., DIRECTOR, NEW LIFE 
                  CENTER, CHIANG MAI, THAILAND

    Dr. Bethell. I must say that the previous testimony 
elicited a great deal of emotion in me. The testimony is very 
similar to the many, many, many stories I have heard in Asia, 
as well.
    I am honored to be invited to speak before the subcommittee 
and sincerely thank Mr. Chairman and subcommittee members for 
their time and effort in addressing these issues involved in 
the international trafficking of women and children.
    My name is Lauran Bethell, and I am a missionary with the 
American Baptist Churches in the USA and have been the director 
of the New Life Center in Chiang Mai, Thailand, for the past 13 
years. Our center works with women and girls from the ethnic 
hill tribe minority groups of northern Thailand, both in 
prevention and from their exploitation and also we work in the 
aftercare for young women who have been exploited in the sex 
and labor industry. Many young women who have been trafficked 
over the border from Burma into Thailand have come through our 
doors. And in most cases, we have ultimately been able to help 
them back to their home country, allowing for some aftercare 
time.
    Eleven-year-old MiiDa was one of our residents who was sold 
by her opium-addicted father to a prostitute buyer who sold her 
again to a brothel near Bangkok. For 4 months, this young Akha 
hill tribe woman had to sexually service men until finally she 
was rescued in a police raid and eventually brought to the New 
Life Center. Here, the Akha staff members of the center were 
able to hear her story in her own language, assist her to 
receive medical care, register her in the Thai Government's 
adult education program, and help her to receive vocational 
training. She was also able to produce handicrafts and make an 
income for herself while living at the center.
    Her natural leadership abilities were recognized and 
eventually she was hired to work part-time at the New Life 
Center while she completed her high school diploma in adult 
school. Last year she was married and now works alongside her 
husband in drug rehabilitation.
    MiiDa's story illustrates the most significant aspects that 
any aftercare program should include:
    No. 1, staff members who are caring and committed to their 
work and who can relate culturally and linguistically to the 
clients are key to the success of any program. At the New Life 
Center, two-thirds of the staff came from our clients, and 
therefore feel a very strong commitment to their mission. All 
of the staff, with the exception of me, are tribal women who 
speak the languages of the residents.
    No. 2, immediate attention to medical needs, including HIV 
pre- and post-test counseling, needs to be provided. And 
provisions need to be made for those who are symptomatic HIV, 
especially if they cannot be cared for by their families at 
home.
    No. 3, opportunity for education toward literacy in the 
major language of the home country needs to be a priority. 
Participation in school programs leading toward a diploma 
should be pursued whenever possible. Literacy is essential for 
having choices in one's life.
    No. 4, vocational skill education enabling the residents to 
have vocational choices after leaving the program should be 
offered. Attendance at government vocational school which leads 
toward a diploma should be pursued.
    No. 5, opportunities to make an income for themselves while 
they are receiving an education needs to be a key component of 
the program. If the residents are still in contact with their 
families, it is likely that they will receive a great deal of 
pressure from the family to provide finances, particularly in 
our cultural communities in Asia. If they cannot make money, 
then they will most likely abandon their education and their 
hopes for increasing choices for their lives.
    No. 6, psychotherapeutic intervention can be a very helpful 
tool, essential in the healing process, especially if it is a 
part of the local cultural practice, but should not be 
considered essential if it is not. And in many cases, trained 
counselors who speak the languages of the clients, especially 
in our situation, are simply not available. We in the West 
should not automatically assume that psychotherapy has to be a 
part of any aftercare program. In many cultures where community 
is core, inclusion into a caring supportive group with programs 
that offer hope for the future seem to be as effective as 
Western models toward healing the wounds of exploitation.
    No. 7, aftercare projects generally work best when they 
start small, both in numbers and focus of the program. They can 
grow naturally as staff become available from the client base 
and the need to widen the focus becomes evident.
    No. 8, aftercare and prevention programs can be integrated, 
depending on local cultural issues and attitudes. As mentioned 
above, inclusion into a caring community can be a valuable 
therapy on its own, and sometimes girls who have been exploited 
are happy that they are being treated, quote, unquote, normal 
rather than being stigmatized and put in a special place.
    No. 9, aftercare programs work best when government and 
nongovernment organizations cooperate. Government-sponsored 
organizations often appear to punish its victims, though 
sometimes unintentionally, and can behave like cold 
bureaucracies. Nongovernment organizations often have visionary 
leadership and well-intentioned staff, but lack accountability 
on some issues.
    GO and NGO partnerships can be the most effective way to 
address the issues, with the GO wielding its power in 
creatively enabling the NGO to do its most effective, caring 
work at the grassroots level. And small government grants to 
NGO's could have a more potent and long-lasting effect on the 
lives of women and children than large government-to-government 
grants.
    Girls and young women who were tricked or sold or betrayed 
or who have little or no control over their lives in the 
brothels and have been kept as slaves, seeing little or no 
money, are the ones most likely to remain in aftercare programs 
and pursue alternatives for their lives. For those who were 
able to make money, who had control over their situations, the 
rates or recidivism are very high. Those working in aftercare 
situations should realize that runaways, though very 
heartbreaking, are common and should not become discouraged 
because of them.
    Aftercare should not be hurried. There is no quick fix. The 
residents of the New Life Center take 3 to 5 years to complete 
the program. True life change and healing takes time.
    Again, Mr. Chairman, I thank you for the opportunity to 
meet with you and the subcommittee, and will certainly be 
praying for the success of this process.
    Senator Brownback. Thank you, Dr. Bethell. And thank you 
for your work that you do and the best to you as it continues.
    Dr. Bethell. Thank you.
    Senator Brownback. Ms. Coto, thank you very much for being 
here today. And let me say as well on another note that I 
appreciate very much your working on this so diligently as an 
attorney and in the various capacities. You have really brought 
a fine focus and a great understanding to the issue. And on 
behalf of the committee, I deeply appreciate your expertise 
being lent to us. Thanks.

    STATEMENT OF VIRGINIA P. COTO, ESQ., DIRECTOR, FLORIDA 
              IMMIGRANT ADVOCACY CENTER, MIAMI, FL

    Ms. Coto. Thank you very much, Mr. Chairman. It is a great 
honor to be here and to speak on behalf of trafficking survivor 
advocates.
    As I said earlier, my name is Virginia Coto, and I am 
supervising attorney at the Florida Immigrant Advocacy Center, 
and the director of LUCHA, a Women's Legal Project, which 
focuses on assisting battered immigrant women in immigration 
matters.
    Florida Immigrant Advocacy Center is a private nonprofit 
organization dedicated to promoting and protecting the rights 
of immigrants of all nationalities. As I said earlier, I am 
currently representing 14 survivors of the Cadenas' case of 
women who were sexually trafficked from Mexico into Florida. I 
first became involved in the case when I read an article in the 
Miami Herald, describing the arrest of some of the Cadena ring 
traffickers. The article also described these 14 girls and 
women being detained as material witnesses.
    We began to make telephone calls and eventually spoke to 
the Department of Justice, INS and FBI, who almost immediately 
put us in contact with these victims at the criminal detention 
center. We were able to negotiate their release to a battered 
women's shelter, under very stringent restrictions, as material 
witnesses. But, nevertheless, they were at the time placed in 
what I feel now was a very appropriate shelter, or the most 
adequate that we could find.
    I do want to say that SafeSpace, which is the battered 
women's shelter in Miami, Florida, really stepped up to the 
challenge, as did many other members in the community.
    Since my involvement in the case in February 1998, I have 
learned a lot about trafficking of women and children, and I 
have learned that it is not unique. However, the survivors' 
needs are unique, and they need to be treated as such.
    The survivors in the Cadena case faced criminal and 
immigration detention for up to 5 months. They did not receive 
medical or psychological treatment. They did not have adequate 
legal assistance. They did not have adequate information about 
their rights or translation services. They did not understand 
what was happening to them or what was going to happen to them. 
What they did know is that they were terrified and needed help.
    The survivors in this instance were not eligible for any 
public benefits due to their immigration status. So, as I said, 
we asked the community for help. They stepped up to the 
challenge. They provided housing, food, clothing, medical, and 
psychological treatment, employment services and training, and 
other social services.
    As we discussed today, trafficked persons are an extremely 
vulnerable group. The horrors which you have heard today must 
be addressed by this Congress. Trafficking survivors have 
special needs that cannot be addressed without legislation. We 
are very fortunate that the community in Miami helped to 
address some of the survivors' needs. But this is not the case 
throughout the United States.
    Survivors need protection from their captors. Survivors 
need to be released from detention as soon as possible and be 
housed in appropriate shelters. Survivors need food and 
clothing. Survivors need medical and psychological treatment. 
Survivors need legal assistance. Legal Services Corporation 
need to expand their services to include trafficked persons 
without regard to their immigration status. Survivors need to 
obtain lawful permanent residency and need employment 
authorization in the interim.
    Moreover, if I can address this issue of lawful permanent 
residency more specifically, the survivors in the Cadena ring 
have fully participated in the prosecution of their captors. 
They, as well as their families, have been targets of threats. 
The government successfully prosecuted 7 of the 16 indicted. 
Eight defendants are still at large and are presently living in 
the survivors' hometowns. They know their families. They know 
where they live. They recruited them and convinced and 
persuaded their parents to let them come to the United States.
    Instead of meeting their promises of legitimate jobs, the 
survivors were raped, tortured and enslaved. These are 
survivors who are in fear for their lives and that of their 
families. They cannot return to their same neighborhoods where 
their captors live and surely will retaliate against them. The 
only way in which these survivors can be protected is by 
granting them permanent residency.
    The choice to survive cannot be one of re-victimization by 
their enslavers. Freedom is the only choice we must afford 
them. Furthermore, survivors want justice. Since the guidelines 
do not reflect the rape, torture or heinous crime survivors 
have endured, restitution in civil action must be granted as 
well. We have seen the number of sex trafficking increasing 
annually in the United States and internationally. This is a 
grave violation of human rights.
    In order to deter international trafficking and to bring 
its perpetrators to justice, the United States must act now. 
Survivors need protection, not punishment. Thank you.
    Senator Brownback. Thank you, Ms. Coto.
    Finally, we have Natalia Khodyreva, president of Angel 
Coalition, from Russia, who has an aftercare program in Russia. 
Welcome.

STATEMENT OF NATALIA KHODYREVA, PRESIDENT, ANGEL COALITION, ST. 
                       PETERSBURG, RUSSIA

    Ms. Khodyreva. Thank you, Mr. Chairman and members of the 
committee. My name is Natalia Khodyreva. I am director of the 
Crisis Center for women in St. Petersburg, and president of 
International Anti-Traffic Coalition, Angel.
    The crisis center runs Prevention of Trafficking in Russian 
Women projects, conducts research, and provides support for 
trafficking survivors. We work with the mass media concerning 
our work, and many women call us on our hot line. We heard 
about the first trafficking case 6 years ago, but still there 
is not a government-supported program against trafficking in 
women. We tried to work with and inform our state structures 
concerning this issue.
    Trafficking in women is a consequence of a socioeconomic 
situation in Russia and job discrimination against women. So 
many educated women cannot find the appropriate job that will 
provide a good living condition, they have no choice but to 
take a job with low qualification abroad. But most of them find 
themselves in forced prostitution or slavery like conditions.
    Our research shows that, together with the high level of 
enthusiasm to work abroad, these women do not have information 
about possibilities for a legal job abroad, of what is an 
appropriate visa for working abroad. One-third of the women we 
have researched are going to work abroad in their professions. 
The rest are in the various social service jobs. No one dreams 
of working as a prostitute.
    Now, 1 percent of the representative group of young women 
from 6 million people in the St. Petersburg region are the 
victims of trafficking, but only three women have appealed to 
the law enforcement structures. But even these few cases were 
closed because there are no special articles in the Russian 
Federation crime laws concerning laws against trafficking.
    Our hotline statistics show one out of five women, or her 
relatives, call to ask how to return home. These women face 
serious difficulties in returning to their homes after being 
trafficked. Some of them run away from brothels and need money 
for return tickets. Some try to return with children from 
foreign husbands. But almost all of them need psychological, 
medical and legal support after trafficking incidents.
    The other four out of five women need valid information on 
obtaining a valid work visa, immigration rules, addresses of 
women's organizations and embassies abroad. The Angel Coalition 
consists of 20 Russian nongovernmental organizations and an 
American charitable institute, Miramed. The Angel Coalition is 
incorporated to run a public campaign and disseminate 
prevention information over Russia. We will also try to lobby 
for laws against trafficking in the State Duma. But the plan of 
the Coalition cannot become reality without funding.
    Russian women urgently need valid information. We have 
already lost many years, and many women continue to suffer from 
the effect of being trafficked. We should not repeat our 
previous mistakes. Members of the Angel Coalition work all over 
Russia, in Siberia, Ural, southern Russia, in the Far East, and 
in Europe. The traffickers are very adaptable in their methods 
of recruitment. They recruit women under the false pretenses of 
studying languages, professional training in tourist service, 
using ``au pair'' visa on cultural exchange.
    We need negotiation between governments on legal job 
agreements and immigration rules. With stricter immigration 
laws, more women are vulnerable to trafficking.
    I would like to thank the U.S. Senate for the opportunity 
to represent the Russian women's voices here and for extremely 
urgent organization of this visit. Thank you for your 
attention.
    Senator Brownback. Thank you very much. And thank you for 
coming here to share with us your aftercare programs.
    Dr. Bethell, let me start with you if I could. What is the 
size of the problem you are dealing with? You deal with some in 
aftercare. Do you have any notion of the size within the 
populations you are dealing?
    Dr. Bethell. I really have no idea. The numbers are just so 
fluid. The statistics are all over the place as far as what 
kind of numbers we are dealing with in Thailand. Of course, the 
issues in Thailand are you have got the girls coming over the 
Burma border into Thailand being trafficked. You have got 
within Thailand people being trafficked from the hill areas 
down to the cities. And then of course the vast number of women 
being trafficked out of Thailand to other places in the world, 
particularly Japan and other countries and the United States.
    Senator Brownback. So no feel at all from any official or 
unofficial numbers?
    Dr. Bethell. Well, I really could not give any statistics.
    Senator Brownback. That is fine. But that, in and of 
itself, is troubling, if you have got that size and nature of a 
problem and you have no notion of what the size and scale of 
this is.
    Dr. Bethell. I am sure that some agencies have numbers, but 
that is not my field of expertise.
    Senator Brownback. I understand. And I am not saying that 
it should be yours. You have a different one.
    At what age are these girls frequently trafficked in 
Thailand? At what age are they taken?
    Dr. Bethell. Probably the youngest girls are about 11 or 12 
years old that we have worked with that have been trafficked or 
have gone into prostitution.
    Senator Brownback. What is the average age? Is there an 
average?
    Dr. Bethell. Probably 14, 15, 16, 17.
    Senator Brownback. Is the average age?
    Dr. Bethell. That would be the average age.
    Senator Brownback. I appreciate your suggestions on the 
aftercare and the breadth of approach that needs to be taken 
and the listing of those items.
    Ms. Coto, you heard the legislative recommendations from 
the administration witness that was here. Do you have any 
thoughts or comments on that list of legislative items that 
were put forward by the administration?
    Ms. Coto. Somewhat. I do agree that we need to expand the 
definition of what coercion is in order to be able to 
successfully prosecute some of these cases. I represent some of 
the forced labor cases, where we have domestic workers who were 
held in involuntary servitude. And it has been very difficult 
to prove involuntary servitude because of the elements that are 
necessary to prove that. And so I think we need to expand that.
    Senator Brownback. If I could invite you, I think it would 
be, after this hearing, if you could resubmit to us maybe a 
statement of what you think the coercion should include. You 
have worked on some of these cases directly and you know, in 
prosecuting a case, you have got to hit the definition on the 
head in bringing a successful prosecution to court. I would 
hope you would submit to us your thoughts on how to define 
coercion.
    Ms. Coto. Certainly.
    One of the things that I would like to point out is, 
working on both types of these cases, I really feel that we 
need legislation on both ends. However, I think that sexual 
trafficking, by its nature of where victims are sexually 
exploited versus exploited labor or a worker, I think we need 
to have some real division or separate portion that really 
addresses the needs of sexually trafficked persons, because I 
think it is really unique.
    Although you have some of the same elements with forced 
labor, I think the sexual nature of the trafficking is so 
specific and so heinous and also needs different types of 
aftercare programs that forced labor maybe necessarily does 
not, that I would like to see that addressed in the 
legislation. Because I do think that it needs to be separated 
or distinguished.
    Senator Brownback. That would seem correct to me, as well. 
These are different types of crimes and they are going to need 
to be defined differently.
    Ms. Coto. Some of the other things the Department of 
Justice had put forward which I am in agreement with is 
immigration status. I think there has to be lawful permanent 
residency and also a way for victims to obtain employment 
authorization in the interim. I think it needs to be on a 
timely basis. I do not think there needs to be a 3-year wait. I 
think it needs to be more of a timely basis.
    For example, the girls that I represent, it has been almost 
3 years and they have no legal status or any permanent status. 
They are still working their way through a temporary status, 
and it has been very difficult for them to move on with their 
lives, not knowing whether the Department of Justice, in their 
discretion, is going to grant them lawful permanent residency. 
So they do not know if they get to stay or they get to go and 
whether they get to live or not.
    The other thing which I mentioned is I think the sentencing 
guidelines are not stiff enough. In the Cadena case, we are 
talking two defendants got 2 years for enslaving these girls. 
That was, to me, disgusting. I think that sentencing guidelines 
really need to be strengthened and much stricter if we are 
going to have any kind of enforcement or deterrence.
    And the other issue which I did not agree with the 
Department of Justice is I think there should be sanctions on 
other governments who are not agreeing to human rights 
standards. And I think that we need to have some kind of 
accountability in those countries where, again, there could be 
more of a mechanism to hold them accountable and actually 
engage them in stopping or reducing, as Senator Wellstone said, 
trafficking.
    Senator Brownback. Those are very thoughtful, and I would 
appreciate any others that you might submit later on.
    Natalia, any idea of the size of the problem of trafficking 
in Russia or even in the area that you serve that you could 
give us some ideas here?
    Ms. Khodyreva. I just want to reiterate what I already said 
in my presentation, that among the young women that we studied, 
there were 4,000 to 5,000 who were victims of trafficking. 
These are just young women from the St. Petersburg area. And 
there are many big cities in Russia.
    Senator Brownback. Did she find an organized crime ring 
nature to those that she studied in trafficking? Was it part of 
an organized crime effort?
    Ms. Khodyreva. I think that in Russia this is all very 
well-organized, beginning with small agencies in the cities 
that recruit the women and have their branches in other 
countries. It is an international organization that is very, 
very well-organized.
    Senator Brownback. And I hope all of you will share with us 
ideas, if you have further ones, on aftercare that would be the 
best things that we could support. Dr. Bethell, you mentioned 
specific items in your testimony. The rest of you, we have your 
testimony, but anything else you would like to tell us about 
what should be included in aftercare, we would like to have 
that, as well.
    Dr. Bethell. I would just like to stress the need to make 
sure that aftercare is culturally sensitive and that the 
determination for a receipt of funding, if funding for 
aftercare is going to be provided in the legislation, that it 
not necessarily be dictated by people who are not taking into 
account the different kinds of cultural needs in the specific 
settings in which we are working.
    Senator Brownback. I think that is a good and valid point.
    Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. We have been at 
the hearing for a while and you have asked some of the 
questions I wanted to ask.
    I think that what Dr. Bethell mentioned about culturally 
sensitive is important. It does seem to me that regardless of 
culture or country, there are some things that are pretty clear 
from what we have heard today. And one of them is above and 
beyond the obvious of just being physically and sexually 
abused. There is just the whole question of post-traumatic 
stress syndrome and the need for mental health services. We 
have, in Minnesota, very special places called the Torture 
Treatment Center. And in some ways, I think that indeed what 
people have gone through here is torture.
    I wanted to ask Natalia or Lauran, do you see any 
similarities as to who the women and children are or who the 
victims are? Is it that they are low-income, poor, unemployed, 
without work? Who do they tend to be, in Thailand or in Russia?
    Dr. Bethell. The socioeconomics, right. Uneducated. 
Education is absolutely key. These young women mostly are not 
literate or have a very, very low level of education, from very 
poor communities and communities where they are socialized and 
raised to believe that they are economically responsible for 
their families. And they will in fact sacrifice themselves and 
work as prostitutes if that is what they feel that they can do 
to support their families.
    In our situations and many other situations in Asia, that 
is absolutely core. And so what you have to do in terms of 
aftercare, you have to make sure that you are providing them 
with alternatives to make sure that they are able to support 
their families. And that is key in the healing process as well, 
providing that kind of hope for the future for their families.
    Ms. Khodyreva. The Russian case is unique, because, for the 
most part, the Russian women who are trafficked tend to be 
well-educated and they tend to be older than the women who 
become victims in the Far East. And the reason for this is that 
they cannot find proper employment. And there is another unique 
aspect for the Russian case. And that is there is, for all 
practical purposes, no protection from the law enforcement 
authorities.
    Senator Wellstone. So I understand what you have said, the 
bitter irony in some of the countries like Russia and some of 
the other countries that used to be in the former Soviet Union, 
the bitter irony is that the economic disintegration means that 
these women have not always been poor or many of them were 
actually highly educated, who at one time may have been 
gainfully employed and now they have no employment. So they are 
looking for a way to go to another country to find a job, but 
not of course being forced into prostitution.
    Ms. Khodyreva. You are absolutely correct.
    Senator Wellstone. My father grew up in Russia and fled the 
country. So some of what you say is very personal to me.
    Can I ask you just one question, Virginia?
    Ms. Coto. Sure.
    Senator Wellstone. You have been at this a long time. The 
Immigration and Naturalization Act, does that help you or hurt 
you, the law?
    Ms. Coto. Currently?
    Senator Wellstone. Yes. Do people feel like they can bring 
charges against the traffickers? Do they know their rights? Are 
they afraid to speak out?
    Ms. Coto. In trafficking cases or generally?
    Senator Wellstone. You can do both. I will bet you want to.
    Ms. Coto. Generally, the immigration reform in 1996 was 
extremely harsh. Immigrants are finding themselves in 
situations where they are being more and more exploited because 
of the harshness in the immigration reform law in 1996.
    As to trafficking, there are no protections. There are 
simply no protections to assist immigrants who are being 
exploited, sexually or otherwise. And because of this and many 
of the other things that we talked about today, they are 
finding themselves in situations where they do not come 
forward. They just will not come forward.
    Senator Wellstone. I do not even know why I asked you the 
question, because I already knew the answer. I was just 
thinking to myself, why did I ask that question? We already 
know that, Sam. And we know that for sure. That is what we have 
been focusing on and we know it has to be changed.
    I would like to just thank all of you for being here. I 
thank you for your work. I very much admire what you do.
    Senator Brownback. Thank you all very much. And God bless 
you, too, for helping out all those young women that are in 
different places around the world. And you provide a ray of 
hope to them. Keep that hope alive. We really appreciate it.
    Thank you all for attending the hearing. I think it has 
been very illuminating. The hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
